<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2010 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 THE PRESIDENT'S FISCAL YEAR 2010 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2009

                               __________

                           Serial No. 111-19

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
51-258 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     4

                               Witnesses

The Honorable Janet Napolitano, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    51
Questions From Honorable Sheila Jackson Lee......................    67
Questions From Honorable Henry Cuellar...........................    68
Question From Honorable Ann Kirkpatrick..........................    69
Questions From Honorable Mike Rogers.............................    69
Questions From Honorable Charles W. Dent.........................    70
Questions From Honorable Paul C. Broun...........................    71

 
 THE PRESIDENT'S FISCAL YEAR 2010 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                        Wednesday, May 13, 2009

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, DeFazio, Jackson 
Lee, Cuellar, Carney, Clarke, Richardson, Kirkpatrick, Lujan, 
Pascrell, Cleaver, Green, Kilroy, Massa, Titus, King, Souder, 
Lungren, Rogers, McCaul, Dent, Bilirakis, Broun, Miller, Olson, 
Cao, and Austria.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony from 
Secretary Janet Napolitano on the President's fiscal year 2010 
budget request for the Department of Homeland Security. I want 
to thank Secretary Napolitano for being here today to testify 
in support of the President's fiscal year 2010 budget request 
for the Department.
    The transition period for the Obama administration has been 
very busy on many fronts. From border violence to the recent 
flu outbreak, the Department has had a lot on its plate, yet 
you still managed to submit a very comprehensive budget that 
answers a lot of the questions we have had about where the 
Department wants to go.
    Last week, the President's budget, just over $55 billion, 
was requested for the Department of Homeland Security. This is 
an increase of $2.6 billion over last year. Within that 
request, the President is seeking about $43 billion in 
appropriations. This represents an increase of 6.6 percent over 
last year and will cover key investments in homeland security 
in the range of areas, including the following: $121 million in 
funding for explosive detection; an additional $96 million for 
southbound firearms and currency smuggling enforcement; $420 
million for SAFER firefighter grant program; and an additional 
$75 million for DHS headquarters project. I believe that 
funding sought for the Department will benefit this vital 
agency.
    Additionally, the budget includes a number of critical 
programmatic changes that I support and would like to highlight 
here. The transfer of the Office of Intergovernmental Programs 
to the Office of the Secretary is a long time coming and will 
surely enhance DHS's ability to coordinate with State, local, 
and Tribal governments.
    I also support moving the Federal Protective Service from 
ICE to the National Protection and Programs Directorate, the 
center of gravity for infrastructure protection at DHS.
    The $75 million increase slated for the comprehensive 
National Cybersecurity Initiative is another step in the right 
direction.
    Although I agree overall with the President's request for 
the Department, I do have some concerns. In previous years, 
over 40 percent of DHS's budget went out the door to 
contractors to perform a host of functions, including 
policymaking. This overreliance on contractors has undermined 
DHS's ability to execute its missions. I am hopeful that 
through your efficiency review, Madam Secretary, we will start 
to see some progress in this area.
    While overall funding for grant programs seems in-line with 
past budgets, I am concerned about the significant decreased 
plan for the FIRE Grant Program. As a volunteer firefighter, I 
know how much communities rely on this critical program.
    In these tough economic times, I am committed to working to 
help secure a budget for the Department that keeps on our 
commitment to fiscal responsibility while strengthening the 
security of our Nation. I am also committed to executing my 
legislative responsibility and producing authorization 
legislation to give DHS the resources and authorities it needs 
to execute all its missions.
    Tomorrow, the committee is moving its first piece of 
authorization legislation for fiscal year 2010. The TSA 
Authorization Act is a product of extensive bipartisan 
discussions. It reflects input from members, GAO DHS Inspector 
General, and transportation stakeholders from across the 
spectrum. Regrettably, input from TSA was hard to come by. With 
no Senate-confirmed leader at the head of TSA, the agency has 
not been the partner that we had hoped to have.
    Madam Secretary, I appreciate the challenges that this 
vacancy creates for you on an operational level, and am eager 
to see a strong manager installed in this critical position. 
Please keep in mind that the delays in filling key positions 
throughout the Department not only makes things difficult for 
you, but also complicates this committee's ability to carry out 
its oversight and legislative responsibilities.
    I look forward to a foregoing collaborative relationship 
with you and the new leadership at DHS. This committee has 
years of knowledge and experience on a range of issues that you 
face. Please look to us as a resource as you consider homeland 
security challenges.
    In closing, Madam Secretary, I look forward to working with 
you to ensure that the Department has the resources it needs to 
execute all its missions, including to prevent and respond to 
the threat of terrorism.
    Thank you, and I look forward to your testimony.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman.
    Good morning, Madam Secretary. It is good to see you today.
    At the outset, let me express some positive notes. One, I 
want to thank you for your level of cooperation and contact, 
certainly at my office and I am sure with other Members as 
well. I must tell you, though, you do cause trauma among my 
staff when they realize it is you on the phone, that there are 
no intermediaries. Go a little easy on them. Okay? They are not 
expecting that.
    Also, on the issue of swine flu, you are very cooperative 
in keeping us apprised of what was happening. On the issue of 
the first report that came out on the right-wing extremist 
returning veterans, I very much appreciate your personal call 
to me on that and discussing it.
    Having said that, I believe that the combination of the 
first report and then the second report, which I know was 
called back, to me and to others certainly on this side does 
demonstrate we believe a weakness in the Department which has 
to be addressed, and we certainly look forward to what you have 
to say on that and working with you on that because it has 
raised very significant issues. Certainly back in our districts 
we hear about it. It has made an impression that I don't think 
reflects well on the Department. I know you want to address it. 
I would like to really hear what your plans are and how those 
were released and what caused them to be brought about.
    Also, while the Chairman has mentioned the issue of the 
FIRE grants, a 70 percent cut in the FIRE grants, this I can 
assure you is a bipartisan issue. There is tremendous concern 
over this. I am certainly hearing from fire districts. I am 
Chairman of the Congressional Fire Caucus, and I believe last 
year it was over $3 billion in FIRE grants which shows the real 
need for it and demand for it. So, again, that is an issue that 
certainly we have to work together on and which I will be very 
much looking forward to your testimony on.
    Also on the Secure the Cities, which was a 3-year pilot 
program; and while the program was primarily in New York City, 
this is something that affects cities throughout the country, 
and it is a pilot program which for the most part worked. I 
believe still more has to be done on it. So I don't believe the 
pilot program even in the pilot stage has been completed. But 
the fact is that when we look overseas at Madrid and London, it 
is very likely that the next attack on a major city is going to 
be launched from outside the city, from suburban areas, from 
areas outside the city, which is why it is so essential that we 
have radiation detection, that we have comprehensive efforts.
    For instance, the Secure the Cities pilot program in New 
York, which is being zeroed out, is being ended, involved not 
just New York City. It was New York City, it was Long Island, 
it was Westchester, Rockland, it was New Jersey, it was 
Connecticut. It was a regional defense against radioactive 
attack.
    I saw an anonymous call in the Washington Post from 
somebody at the Department of Homeland Security saying one of 
the reasons this program was eliminated was because the 
Department did not want to be a goal-line defense; that we 
wanted to stop nuclear weapons from coming, getting them 
overseas before they got here. But one of the reasons the 
Department was set up was to be a goal-line defense. If 
everything was being done well overseas, we wouldn't have to 
have the Department of Homeland Security, certainly not to the 
extent that we do.
    Also, you don't need a bomb coming from Pakistan to impact 
New York City or Los Angeles or Chicago. There can be 
radioactive material stolen from a hospital, which could create 
a dirty bomb which could devastate financial sectors, devastate 
neighborhoods and communities. So, again, I certainly want to 
discuss that with you.
    On the issue of immigration, I have real concerns that the 
SCAAP program is being eliminated. I even remember some former 
Governors telling us how important that program was in the 
fight against illegal immigration. Again, I think this is 
something that really has to be addressed, and I believe there 
is strong bipartisan support for the SCAAP program.
    On the issue of Guantanamo, I know we have sent a letter to 
you asking what precautions the Department is going to make. 
There have been various news reports, whether it involves the 
Uighurs going into Virginia, whether it involves prisoners or 
detainees being brought to the Southern District of New York 
for trial in Northern Virginia, as to what measures are going 
to be taken, if that does happen, to providing security that is 
needed to do what has to be done, because this to me is going 
to make already prime targets even more targets and create much 
more security problems for us.
    So I want to again commend you for reaching out, but again 
there are some real questions here which have to be addressed. 
Certainly on FIRE grants, on Secure the Cities, on immigration, 
and the whole issue of the unit in your Department which issued 
these reports, and also what we are going to do about 
Guantanamo if in fact detainees are brought to the United 
States either for trial or even to be released as has been 
heard in some cases.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Thompson. Thank you, Mr. King.
    Other Members of the committee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Hon. Sheila Jackson Lee follows:]
         Prepared Statement of the Honorable Sheila Jackson Lee
    Mr. Chairman, thank you for your leadership in convening today's 
very important hearing on the President's fiscal year 2010 budget 
request for the Department of Homeland Security. I would also like to 
thank the Ranking Member. Welcome Secretary Janet Napolitano.
    The Department of Homeland Security was established approximately 6 
years ago. The National Strategy for Homeland Security and the Homeland 
Security Act of 2002 served to mobilize and organize our Nation to 
secure the homeland from terrorist attacks. To this end, the primary 
reason for the establishment of the Department of Homeland Security 
(DHS) was to provide the unifying core for the vast network of 
organizations and institutions involved in the efforts to secure our 
Nation. In order to better do this and to provide guidance to the 
180,000 DHS men and women who work every day on this important task, 
the Department developed its own high-level strategic plan. The vision, 
mission statements, strategic goals and objectives provide the 
framework guiding the actions that make up the daily operations of the 
Department.
    DHS's vision is simple: To preserve our freedoms, protect America, 
and secure our homeland. Its mission is to lead the unified national 
effort to secure America; prevent and deter terrorist attacks and 
protect against and respond to threats and hazards to the Nation; and 
ensure safe and secure borders, welcome lawful immigrants and visitors, 
and promote the free flow of commerce.
    DHS has seven strategic goals and objectives. These include, 
awareness, prevention, protection, response, recovery, service, and 
organizational excellence.
    The magnitude and severity of the tragic events of September 11, 
2001, were unprecedented, and that dark day became a watershed event in 
the Nation's approach to protecting and defending the lives and 
livelihoods of the American people. Despite previous acts of terror on 
our Nation's soil, such as the 1993 attack on the World Trade Center 
and the 1995 bombing of the Alfred P. Murrah Federal Building in 
Oklahoma City, homeland security before the tragic events of September 
11 existed as a patchwork of efforts undertaken by disparate 
departments and agencies across all levels of government. While 
segments of our law enforcement and intelligence communities, along 
with armed forces, assessed and prepared to act against terrorism and 
other significant threats to the United States, we lacked a unifying 
vision, a cohesive strategic approach, and the necessary institutions 
within Government to secure the homeland against terrorism.
    The shock of September 11 transformed our thinking. In the 
aftermath of history's deadliest international terrorist attack, we 
developed a homeland security strategy based on a concerted national 
effort to prevent terrorist attacks within the United States, reduce 
America's vulnerability to terrorism, and minimize the damage and 
recover from attacks that do occur. To help implement that strategy, 
DHS enhanced homeland security and counterterrorism architecture at the 
Federal, State, local, Tribal, and community levels.
    The Department's understanding of homeland security continued to 
evolve after September 11, adapting to new realities and threats. Most 
recently, our Nation endured Hurricane Katrina, the most destructive 
natural disaster in U.S. history. The human suffering and staggering 
physical destruction caused by this national disaster was a reminder 
that threats come not only from individuals, inside and outside of our 
borders, but also from nature. Indeed, certain natural events that 
reach catastrophic levels, such as hurricanes and other natural 
disasters, can have significant implications for homeland security. The 
resulting national consequences and possible cascading effects from 
these events might present potential or perceived vulnerabilities that 
could be exploited.
    Over 6 years after September 11, 2001, DHS is moving beyond 
operating as an organization in transition to a Department diligently 
working to protect our borders and critical infrastructure, prevent 
dangerous people and goods from entering our country, and recover from 
natural disasters effectively. The total fiscal year 2009 budget 
request for DHS is $50.5 billion in funding, a 7 percent increase over 
the fiscal year 2008 enacted level excluding emergency funding. The 
Department's fiscal year 2009 gross discretionary budget request is 
$40.7 billion, an increase of 8 percent over the fiscal year 2008 
enacted level excluding emergency funding. Gross discretionary funding 
does not include mandatory funding such as the Coast Guard's retirement 
pay accounts and fees paid for immigration benefits. The Department's 
fiscal year 2009 net discretionary budget request is $37.6 billion, 
which does not include fee collections such as funding for the Federal 
Protective Service and aviation security passenger and carrier fees.
    DHS has engaged in much good work over the past 6 years, but more 
needs to be done. The Department of Homeland Security has been dogged 
by persistent criticism over excessive bureaucracy, waste, and 
ineffectiveness. In 2003, the Department came under fire after the 
media revealed that Laura Callahan, Deputy Chief Information Officer at 
DHS, had obtained her advanced computer science degrees through a 
diploma mill in a small town in Wyoming. The Department was blamed for 
up to $2 billion of waste and fraud after audits by the Government 
Accountability Office revealed widespread misuse of Government credit 
cards by DHS employees. The frivolous purchases included beer brewing 
kits, $70,000 of plastic dog booties that were later deemed unusable, 
boats purchased at double the retail price (many of which later could 
not be found), and iPods ostensibly for use in ``data storage''.
    The Associated Press reported on September 5, 2007 that DHS had 
scrapped an anti-terrorism data mining tool called ADVISE (Analysis, 
Dissemination, Visualization, Insight, and Semantic Enhancement) after 
the agency's internal Inspector General found that pilot testing of the 
system had been performed using data on real people without required 
privacy safeguards in place. The system, in development at Lawrence 
Livermore and Pacific Northwest National Laboratories since 2003, has 
cost the agency $42 million to date. Controversy over the program is 
not new; in March 2007, the Government Accountability Office stated 
that ``the ADVISE tool could misidentify or erroneously associate an 
individual with undesirable activity such as fraud, crime or 
terrorism''. Homeland Security's Inspector General later said that 
ADVISE was poorly planned, time-consuming for analysts to use, and 
lacked adequate justifications.
    Increasingly, the Department has come under growing scrutiny 
because of its immigration and deportation practices. In February 2007, 
the Judiciary Subcommittee on Immigration held a hearing investigating 
the problems with U.S. Immigration and Customs Enforcement (ICE) 
interrogation, detention, and removal procedures as applied to U.S. 
citizens. During that hearing, there were many reports of our 
immigration system targeting American citizens by detaining, 
interrogating, and forcibly deporting U.S. citizens under the pretext 
that these citizens were illegal aliens. The citizens targeted have 
been some of the most vulnerable segments of American society. ICE has 
targeted the mentally challenged and youths.
    ICE detention facilities Nation-wide have been criticized, 
including the detention facility at the T. Don Hutto correctional 
Center in Williamson County, Texas. Corrections Corporation of America 
(CCA) operates the 512-bed facility under a contract with Williamson 
County. The facility was opened in May 2006 to accommodate immigrant 
families in ICE custody. As history has shown us, even the best of 
intentions can go astray, which is what happened at the Hutto Detention 
Center.
    Due to the increased use of detention, and particularly in light of 
the fact that children are now being housed in detention facilities, 
many concerns have been raised about the humanitarian, health, and 
safety conditions at these facilities. In a 72-page report, ``Locking 
Up Family Values: The Detention of Immigrant Families,'' recently 
released by two refugee advocacy organizations, the Women's Commission 
for Refugee Women and Children and the Lutheran Immigration and Refugee 
Service concluded that the T. Don Hutto Family Residential Center and 
the Berks Family Shelter Care Facility, were modeled on the criminal 
justice system. In these facilities, ``residents are deprived of the 
right to live as a family unit, denied adequate medical and mental 
health care, and face overly harsh disciplinary tactics.''
    The American Civil Liberties Union (ACLU) filed a lawsuit against 
ICE in March 2007 on behalf of several juvenile plaintiffs that were 
housed in the facility at the time claiming that the standards by which 
they were housed was not in compliance with the Government's detention 
standards for this population. The claims were, amongst other things, 
improper educational opportunities, not enough privacy, and substandard 
health care. The relief being sought was the release of the plaintiffs.
    In August 2007, the ACLU reached a landmark settlement with the ICE 
that greatly improves conditions for immigrant children and their 
families in the Hutto detention center in Taylor, Texas.
    Since the original lawsuits were filed, all 26 children represented 
by the ACLU have been released. The last six children were released 
days before the settlement was finalized and are now living with family 
members who are U.S. citizens or legal permanent residents while 
pursuing their asylum claims. Conditions at Hutto have gradually and 
significantly improved as a result of litigation. Children are no 
longer required to wear prison uniforms and are allowed much more time 
outdoors. Educational programming has expanded and guards have been 
instructed not to discipline children by threatening to separate them 
from their parents. Despite the tremendous improvements at Hutto, the 
facility still has a way to go.
    As one of the principal and long-standing supporters of 
comprehensive immigration reform in the U.S. Congress and an author of 
a comprehensive immigration reform bill, the SAVE AMERICA Act, I hope 
that today's hearing will serve as a catalyst for closer scrutiny of 
our immigration detention system and the immigration enforcement 
functions of DHS.
    The administration has more work to do to secure our border. The 
Border Patrol needs more agents and more resources. The Rapid Response 
Border Protection Act, H.R. 4044, a bill that I co-sponsored, would 
meet these needs by providing critical resources and support for the 
men and women who enforce our homeland security laws.
    This would include adding 15,000 Border Patrol agents over the next 
5 years, increasing the number of agents from 11,000 to 26,000. It 
would require the Secretary of the Department of Homeland Security 
(DHS) to respond rapidly to border crises by deploying up to 1,000 
additional Border Patrol agents to a State when a border security 
emergency is declared by the governor. It would add 100,000 more 
detention beds to ensure that those who are apprehended entering the 
United States unlawfully are sent home instead of being released into 
our communities. And, it would provide critical equipment and 
infrastructure improvements, including additional helicopters, power 
boats, police-type vehicles, portable computers, reliable radio 
communications, hand-held GPS devices, body armor, and night-vision 
equipment.
    The Department has achieved much over the past 5 years in ensuring 
that America is a safer place; however, much work is still required. I 
am hopeful that this new Federal agency will become more effective and 
diverse. The Members of Congress and the Department all want a safe and 
secure America. Again, I welcome the testimony from our distinguished 
panelist, Secretary Napolitano.
    Thank you. Mr. Chairman, I yield the remainder of my time.

    Chairman Thompson. Again, I welcome our witness today. 
Janet Napolitano is the third Secretary of the Department of 
Homeland Security. I would like to publicly commend you, Madam 
Secretary, for your leadership for the 3 months, especially 
your handling of the recent influenza outbreak.
    Prior to joining this administration, Secretary Napolitano 
was midway through her second term as Governor of Arizona. As 
Governor, she implemented one of the first State homeland 
security strategies in the Nation, opened the first State 
Counterterrorism Center, and spearheaded efforts to transform 
immigration enforcement. Secretary Napolitano previously served 
as the Attorney General of Arizona and the U.S. Attorney for 
the District of Arizona.
    Madam Secretary, I thank you for your service and for 
appearing before this committee today.
    Without objection, the witness's full statement will be 
inserted into the record.
    Secretary Napolitano, I now recognize you to summarize your 
statement for the committee for 5 minutes.

    STATEMENT OF JANET NAPOLITANO, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Napolitano. Thank you, Mr. Chairman, 
Representative King, Members of the committee. Thank you for 
this opportunity to testify on the Department of Homeland 
Security portion of President Obama's budget proposal for 
fiscal year 2010.
    The proposed total budget for DHS is $55.1 billion, which 
includes $42.7 billion in appropriated funding.
    DHS performs a broad range of activities across a single 
driving mission: To secure America from the entire range of 
threats that we face. The Department's leadership in the past 
couple of weeks in response to the H1N1 flu outbreak only 
proves the breadth of the Department's portfolio, as well as 
the need to make DHS a stronger, more effective Department.
    This budget strengthens our efforts in what I see as the 
five main mission areas where we need to focus in order to 
secure the American people:
    First, guarding against terrorism, the founding purpose and 
perennial top priority of the Department.
    Second, securing our borders, an effort even more urgent as 
the United States looks to do its part to counter a rise in 
cartel violence in Mexico.
    Third, smart and effective enforcement of our immigration 
laws. We want to facilitate legal immigration and pursue 
enforcement against those who violate our country's immigration 
laws.
    Next, improving our preparation for, response to, and 
recoveries from disasters. Not just hurricanes and tornados, 
but also unexpected situations like the outbreak of the H1N1 
flu.
    Last, unifying, creating one Department of Homeland 
Security. We need to work together as one Department to ensure 
that we operate at full strength. As this committee knows, the 
Department was recently created out of 22 separate agencies. 
Part of this budget is designed to help us continue to knit and 
unify into one DHS.
    Now, there are three approaches that the Department is 
taking to strengthen its performance in each of the five main 
mission areas and that are also strengthened in this budget.
    First, expanding partnerships with State, local, and Tribal 
governments, the first detectors, and the first responders.
    Second, bolstering our science and technology portfolio, 
investing in new technologies that can increase our 
capabilities while being very cognizant of privacy in other 
interests that are there.
    Third, maximizing efficiency. Through an efficiency review 
initiative that we launched in March, we intend to ensure that 
every security dollar is spent in the most effective way.
    This budget adheres to the President's main reform goals, 
Government efficiency, transparency, and cohesion, and will 
play a major part in bringing about a culture of responsibility 
and fiscal discipline at DHS.
    The DHS budget was based on alignment with the Department 
programs and priorities, and that was assessed on the basis of 
effectiveness and risk.
    In terms of budget priorities to guard against terrorism, 
this budget proposal includes $121 million to fund research for 
new technologies that detect explosives in public places, 
transportation networks, $87 million for new measures to 
protect critical infrastructure and cyber networks from attack, 
and it also enhances information sharing about Federal, State, 
local, and Tribal law enforcement.
    For border security, the budget proposal includes $116 
million to deploy additional staff and technology to the 
Southwest border to disrupt southbound smuggling of drugs and 
bulk cash to help combat cartel violence. It also includes $40 
million for smart security technology funding on the northern 
border to expand and integrate surveillance systems there.
    To assure smart, effective enforcement of our immigration 
laws, this budget proposal includes $112 million to strengthen 
E-Verify to help employers maintain a legal work force, a total 
of $198 million for the Secure Communities Program which helps 
State, local, and Tribal law enforcement target criminal 
aliens. It improves security and facilitates trade and tourism 
to the Western Hemisphere Travel Initiative, $145 million, and 
$344 million for US-VISIT.
    To help Americans prepare for and recover from natural 
disaster, the budget proposal includes doubling the funds from 
$210 million to $420 million, to increase the number of 
frontline firefighters, a $600 million increase to the Disaster 
Relief Fund, and it strengthens pre-disaster hazard mitigation 
efforts to reduce injury, loss of life, and destruction of 
property.
    Finally, to unify the Department, this budget proposal 
includes $79 million for the consolidation of DHS headquarters, 
which will bring 35 disparate offices together, generating 
significant savings in the long run. It also includes $200 
million to consolidate and unify our IT infrastructure, and 
bring all of DHS under the same system.
    In my few months as Secretary, I have seen a number of 
remarkable accomplishments in addition to challenges that DHS 
faces. I have seen this Department's potential. I believe we 
have a path toward realizing it. We are aiming to do even 
better at achieving our Nation's security mission, and this 
budget will help the Department do just that.
    Thank you, Mr. Chairman.
    [The statement of Ms. Napolitano follows:]
                 Prepared Statement of Janet Napolitano
                              May 13, 2009
    Mr. Chairman, Congressman King, and Members of the Committee: Let 
me begin by saying thank you for the strong support you have 
consistently shown the Department, and I look forward to working with 
you to make certain that we have the right resources to protect the 
homeland and the American people and that we make the most effective 
and efficient use of those resources.
    I am pleased to appear before the committee today to present 
President Obama's fiscal year 2010 budget request for the Department of 
Homeland Security (DHS). I will also summarize the progress we have 
made since the start of the new administration along with some of our 
key accomplishments from last year.
                    fiscal year 2010 budget request
    The Department of Homeland Security's budget will strengthen 
current efforts that are vital to the Nation's security, bolster DHS's 
ability to respond to emerging and evolving threats, and allow DHS to 
embrace new responsibilities in order to secure the Nation. This budget 
puts forward critical investments in the protection of the American 
people.
    DHS and its many component agencies fulfill a broad mandate and 
conduct many different activities within a single, unified security 
mission. DHS performs critical tasks from protecting transportation 
hubs to conducting maritime rescues, from aiding disaster victims to 
enforcing immigration laws. Within this broad portfolio, the Department 
aims to secure the American people from all hazards--including 
terrorist threats and natural or accidental disasters--and to work 
effectively with its many partners to lead the collaborative effort to 
secure the Nation. DHS undertakes the mission of securing the United 
States against all threats through five main action areas, each of 
which is strengthened by this budget:
  <bullet> Guarding Against Terrorism.--Protecting the American people 
        from terrorist threats is the founding purpose of the 
        Department and DHS' highest priority. This budget expands DHS 
        efforts to battle terrorism, including detecting explosives in 
        public spaces and transportation networks, helping protect 
        critical infrastructure and cyber networks from attack, 
        detecting agents of biological warfare, and building 
        information-sharing partnerships with State and local law 
        enforcement that can enable law enforcement to mitigate 
        threats.
  <bullet> Securing Our Borders.--DHS prevents and investigates illegal 
        movements across our borders, including the smuggling of 
        people, drugs, cash, and weapons. In March, the Department 
        announced a new initiative to strengthen security on the 
        southwest border in order to disrupt the drug, cash, and weapon 
        smuggling that fuels cartel violence in Mexico. This budget 
        strengthens those efforts by adding manpower and technology to 
        the southwest border. This budget also funds smart security on 
        the northern border and facilitates international travel and 
        trade. The President's request also makes targeted investments 
        to reduce security risk across our Nation's vast maritime 
        borders.
  <bullet> Smart and Tough Enforcement of Immigration Laws and 
        Improving Immigration Services.--DHS welcomes legal immigrants, 
        protects against dangerous people entering the country, and 
        pursues tough, effective enforcement against those who violate 
        the Nation's immigration laws. This budget contains funding to 
        strengthen our employment eligibility verification systems, 
        target and crack down on criminal aliens, and expedite the 
        application process for new legal immigrants.
  <bullet> Preparing for, Responding to, and Recovering from Natural 
        Disasters.--The Department must aid local and State first 
        responders in all stages of a natural disaster--preparing for 
        the worst, responding to a disaster that has occurred, and 
        recovering in the long run. This budget contains funding to 
        strengthen DHS assistance for local first responders and the 
        communities and families affected by disasters.
  <bullet> Unifying and Maturing DHS.--DHS is a young department. Its 
        components must further evolve in order to operate as 
        effectively as possible as one agency with a single, unified 
        security mission. This budget contains funding to initiate 
        consolidation of mission support activities that will remain 
        off-site from the St. Elizabeths campus, reducing the many 
        small and widely scattered leased locations and supporting the 
        goal to build ``One DHS.''
    DHS is employing several cross-cutting initiatives to strengthen 
activities in each of these mission areas.
    First, DHS is working across the board to increase cooperation with 
its partners--State, local, and Tribal law enforcement agencies, 
international allies, the private sector, and other Federal 
departments. The effort to secure America requires close coordination 
and collaboration; this budget increases resources dedicated to these 
critical partnerships.
    Second, the Department is bolstering its science and technology 
portfolio. This will lead to the development of new techniques and 
technologies that will expand DHS' law enforcement capabilities while 
minimizing law enforcement's impact on everyday, law-abiding citizens. 
This budget contains important investments in technologies that will 
allow DHS officers to perform their security tasks more quickly and 
with greater accuracy.
    Third, the Department continually aims for greater efficiency in 
its operations. Through the Department-wide Efficiency Review 
Initiative launched in March, DHS is ensuring all its resources are 
used in the most effective way possible to secure the Nation.
    The total fiscal year 2010 budget request for the Department of 
Homeland Security is $55.1 billion in funding; a 5 percent increase 
over the fiscal year 2009 enacted level excluding supplemental funding. 
The Department's fiscal year 2010 gross discretionary budget request 
\1\ is $45.8 billion, an increase of 6 percent over the fiscal year 
2009 enacted level excluding emergency funding. The Department's fiscal 
year 2010 net discretionary budget request is $42.7 billion.\2\
---------------------------------------------------------------------------
    \1\ Gross discretionary funding does not include funding such as 
Coast Guard's retirement pay accounts and fees paid for immigration 
benefits.
    \2\ This does not include fee collections such as funding for the 
Federal Protective Service (NPPD), aviation security passenger and 
carrier fees (TSA), credentialing fees (such as TWIC-TSA), and 
administrative cost of the (National Flood Insurance Fund, FEMA).
---------------------------------------------------------------------------
    The following are highlights of the fiscal year 2010 budget 
request:
                       guarding against terrorism
  <bullet> State and Local Fusion Centers.--Full support and staffing 
        by the end of fiscal year 2011 are requested for the 70 
        identified State and Local Fusion Centers, facilities where 
        information and intelligence is shared between Federal, State, 
        local, and Tribal authorities. Funding is dedicated to IT 
        maintenance, support, and training.
  <bullet> Explosives Detection Systems (EDS) Procurement and 
        Installation.--An increase of $565.4 million to accelerate the 
        Electronic Baggage Screening Program (EBSP) at the Nation's 
        airports to ensure 100 percent of all checked baggage is 
        screened with an in-line explosive detection capability system, 
        or a suitable alternative. This funding will support facility 
        modifications, recapitalization efforts, as well as procurement 
        and deployment of electronic baggage screening technology 
        systems.
  <bullet> Bomb Appraisal Officers.--$9 million for an additional 109 
        Bomb Appraisal Officers (BAOs) to provide expertise in the 
        recognition of and response to improvised explosive devices at 
        airports to enhance aviation security. The request will provide 
        BAO coverage at 50 percent more airports including all Category 
        X, I, and II airports, and will provide a BAO in every hub-
        spoke airport system, and to airports that currently have only 
        one BAO assigned.
  <bullet> Visible Intermodal Prevention and Response Teams.--An 
        increase of $50 million is requested to fund 15 Visible 
        Intermodal Prevention and Response (VIPR) teams dedicated to 
        guarding surface transportation. The VIPR teams contain multi-
        skilled resources, including Transportation Security 
        Inspectors, canine teams, Transportation Security Officers, 
        Bomb Detection Officers, and Federal Air Marshals. These teams 
        enhance the Transportation Security Administration's (TSA) 
        ability to screen passengers, identify suspicious behavior, and 
        act as a visible deterrent to potential terrorists in surface 
        transportation environments.
  <bullet> Vulnerability Assessments.--A $3.0 million increase is 
        requested to provide for new nuclear reactor security 
        consultations with the Nuclear Regulatory Commission. The 
        budget request will also support vulnerability assessment pilot 
        projects, which provide State and local stakeholders with a 
        comprehensive understanding of vulnerabilities and critical 
        infrastructure resiliency.
  <bullet> Bombing Prevention.--$4.2 million is requested to enhance 
        improved, coordinated national bombing prevention and 
        improvised explosive device (IED) security efforts. 
        Additionally, this funding will provide resources to enhance 
        national awareness of the threat, facilitate multi-jurisdiction 
        planning, and conduct additional capabilities assessments for 
        132 high-risk urban area detection, deterrence, response, and 
        search elements. These elements include canine units, bomb 
        squads, SWAT teams, and dive teams.
  <bullet> Cybersecurity for the Federal Government.--A $75.1 million 
        increase is requested to enable DHS to develop and deploy 
        cybersecurity technologies to counter on-going, real world 
        national cyber threats and apply effective analysis and risk 
        mitigation strategies to detect and deter threats.
  <bullet> Explosives Detection Research.--Total funding of $120.8 
        million, an increase of $24.7 million, is requested to support 
        DHS' Science and Technology Directorate (S&T) in addressing 
        critical capability gaps in detecting, interdicting, and 
        lessening the impacts of non-nuclear explosives used in 
        terrorist attacks against mass transit, civil aviation, and 
        critical infrastructure. Of the $24.7 million, $10.0 million 
        will develop high-throughput cargo screening technology through 
        automated, more efficient equipment. The remaining $14.7 
        million will build on fiscal year 2009 efforts to counter the 
        threat of hand-carried improvised explosive devices to mass 
        transit systems by detecting all types of explosive threats 
        such as homemade, commercial, and military explosives.
  <bullet> Cybersecurity Research.--Total funding of $37.2 million, an 
        increase of $6.6 million, is requested to support Science and 
        Technology in addressing critical capability gaps identified in 
        the Comprehensive National Cybersecurity Initiative (CNCI). 
        Specifically, this effort will develop technologies to secure 
        the Nation's critical information infrastructure and networks.
  <bullet> Transformational Research and Development (R&D).--A $7.2 
        million increase is requested for Transformational R&D to 
        improve nuclear detection capabilities, address enduring 
        vulnerabilities, and reduce the operational burden of radiation 
        and nuclear detection. The increase in fiscal year 2010 will 
        further these efforts to accelerate material optimization and 
        production techniques, and establish a low-rate production 
        capability for these materials. Additional funding could have a 
        tremendous impact on the ability to uncover threats by 
        detecting radiation sources.
  <bullet> BioWatch.--Total funding of $94.5 million is requested for 
        the BioWatch program in the Office of Health Affairs, which 
        provides the capability for early detection and warning against 
        biological attacks in over 30 of our Nation's highest-risk 
        urban areas through placement of a series of biological 
        pathogen collectors. The request sustains the baseline 
        capability of Gen-1/Gen-2 collectors while moving into the next 
        generation of equipment. The funding would complete field 
        testing for the Gen-3 prototype unit, secure IT architecture to 
        facilitate networking between the biodetection systems, and 
        procure production units to support the Gen-3 operational test 
        and evaluation.
  <bullet> Vetting Infrastructure Modernization.--An increase of $64 
        million is requested to modernize vetting infrastructure data 
        management, adjudication workflow, and integration of all 
        vetting systems in the third and final phase of the Vetting 
        Infrastructure Improvement Plan. Modernization will enable a 
        universal fee mechanism that will reduce duplicative background 
        checks and fees for transportation workers, and provide the 
        capability to process new populations using existing enrollment 
        and vetting infrastructure, while continuing to ensure privacy 
        and security.
  <bullet> Information Integration and Technology.--Total funding of 
        $34 million is requested for U.S. Secret Service information 
        technology. Funding would provide for a secure cross-domain IT 
        application, engineering, and architecture activities to 
        modernize and improve Secret Service systems, information-
        sharing environments, database performance, cyber security, and 
        continuity of operations through robust backup and recovery 
        procedures.
  <bullet> Intermodal Security Coordination Office (ISCO).--A $10 
        million increase is requested for the Intermodal Security 
        Coordination Office within DHS Policy to support integrated 
        planning between DHS and the Department of Transportation in 
        the area of maritime transportation, as well as in other 
        homeland security mission areas. The Intermodal Security 
        Coordination Office will develop a strategic plan and metrics 
        to guide development and modernization of intermodal freight 
        infrastructure that links coastal and inland ports to highways 
        and rail networks; an assessment of intermodal freight 
        infrastructure needs and capability gaps; and recommendations 
        to address the needs and capability gaps. The recommendations 
        to address intermodal freight infrastructure needs and 
        capability gaps will be incorporated into DHS' 5-year 
        programming and budgeting guidance, and tracked to ensure they 
        are achieved.
  <bullet> Electronic Crime Task Forces (ECTFs).--Total funding of $2.0 
        million is requested to support the operational costs of 13 
        ECTFs and DHS-mandated Certification and Accreditation of the 
        Secret Service on-line reporting system.
  <bullet> Train 21.--Total funding of $4.1 million is requested for 
        Train 21, a business operations and training transformation 
        initiative that advances the Federal Law Enforcement Training 
        Center's mission to provide training for law enforcement 
        personnel.
  <bullet> Uniformed Division Modernization.--Total funding of $4.0 
        million is requested to support a restructuring of the U.S. 
        Secret Service Uniformed Division's (UD) legal authorities 
        governing pay and compensation to bring the UD in line with the 
        rest of the Federal Government and to more effectively recruit 
        and retain the talent necessary to carry out its protective 
        mission.
  <bullet> National Technical Nuclear Forensics.--A $2.8 million 
        increase is requested to expand efforts to develop the 
        capability to improve technical nuclear forensics on U.S.-made 
        nuclear and radiological materials. The increase will also 
        expand international collaborative efforts to collect and share 
        relevant nuclear forensics information.
                          securing our borders
  <bullet> Combating Southbound Firearms and Currency Smuggling.--An 
        increase of $26.1 million is requested to enhance DHS' 
        capability to combat southbound firearms and currency smuggling 
        through additional personnel at and between the ports of entry 
        and along the southwest border. This funding will support an 
        additional 44 Border Patrol agents and 8 support staff as well 
        as 65 Customs and Border Protection officers and 8 support 
        staff. Resources are also requested to expand and maintain the 
        Licensed Plate Reader (LPR) program to help establish and 
        maintain effective control of the border. Additionally 
        Immigration and Customs Enforcement (ICE) requests an 
        additional $70 million to hire 349 positions (specifically 
        Special Agents, Intelligence Analysts, and Criminal 
        Investigators) to increase enforcement staffing, improve 
        cooperative efforts with the Mexican government, and establish 
        another Border Violence Intelligence Cell. This cross-program 
        initiative will increase national security by expanding 
        activities to secure our borders.
  <bullet> Maritime Border Security Enhancements.--$700 million is 
        requested to purchase five new Coast Guard Cutters, two 
        Maritime Patrol Aircraft and one aircraft flight simulator to 
        increase surface and air asset presence in the maritime domain 
        and vastly improve threat detection and interdiction 
        capabilities. $103 million is requested to purchase 30 new 
        Coast Guard small boats to replace aging, obsolete assets with 
        more capable, multi-mission platforms. $1.2 million is 
        requested to establish a permanent Biometrics at Sea System, an 
        investment which enables Coast Guard boarding teams to identify 
        dangerous individual documented in the US-VISIT database and 
        yields the type of cross-component operational integration 
        sought through creation of DHS and that must continue to be 
        built upon.
  <bullet> Northern Border Technology.--$20.0 million is requested to 
        assist U.S. Customs and Border Protection (CBP) in providing 
        improved situational awareness along the northern border 
        through the design, deployment, and integration of 
        surveillance, sensing platforms, detection technologies and 
        tactical infrastructure. This technology will expand DHS 
        capabilities, increase the effectiveness of our agents, and 
        increase the ability to detect unlawful border activity 
        successfully.
  <bullet> CBP Air and Marine (A&M) Personnel.--A $19.1 million 
        increase is requested to support Border Patrol agents by 
        providing air cover as well as expanding maritime assistance 
        along the borders. Funding is requested to hire an additional 
        68 pilots, 20 marine and 56 support personnel. During fiscal 
        year 2010, A&M plans to continue the expansion of its 
        capabilities across the northern and coastal border and place 
        heavy emphasis on the maritime requirements along the southeast 
        and Caribbean borders. The additional personnel resources are 
        requested as new marine vessels are deployed to marine branches 
        at strategic locations along the coastal borders.
  <bullet> Research and Development for Border and Maritime Security.--
        A $7.1 million increase for Science & Technology is requested 
        to fund a new research effort to provide advanced detection, 
        identification, apprehension, and enforcement capabilities 
        along borders, increasing the security of the border and 
        lowering the risk of a successful terrorist attack. 
        Additionally, funding will provide new technologies to the 
        United States Coast Guard, Customs and Border Protection, and 
        Immigration and Customs Enforcement, and other components 
        operating in the maritime environment.
     smart and tough enforcement of immigration laws and improving 
                          immigration services
  <bullet> E-Verify.--Total funding of $112 million and 80 new 
        positions are requested to support improvements to the 
        employment eligibility verification system, E-Verify. The 
        growth of the E-Verify program will increase the need for 
        monitoring and compliance activities to protect employees from 
        discriminatory practices, safeguard privacy information, and 
        enhance program efficacy. The fiscal year 2010 program increase 
        is primarily for monitoring and compliance activities, as well 
        as IT-related business initiatives to improve system use.
  <bullet> Secure Communities.--Total funding of $39.1 million is 
        requested to hire, train, and equip 80 new enforcement 
        personnel who will identify suspected criminal aliens, 
        determine subjects' alien status, prioritize ICE enforcement 
        actions against the highest threat criminal aliens, and assist 
        in the removal of apprehended criminal aliens. Funding will 
        also support the continued investment in information technology 
        to improve efficiencies within ICE criminal alien 
        identification prioritization and removal processes.
  <bullet> Detention and Removal Operations Modernization (DROM).--
        Total funding of $25 million is requested for improvements to 
        the system of detaining and removing illegal immigrants. The 
        funding will be dedicated to developing and deploying the 
        Detainee Location Tracking Module as part of the Bed Space and 
        Transportation Management System, expanding the ICE Data 
        warehouse data capacity and reporting capability to support the 
        DRO IT data, and expanding Web services to allow the Electronic 
        Travel Document application to communicate with other internal 
        or external applications. DROM will effect improvements in the 
        areas of real-time dynamic data reporting, detainee management, 
        management of detention beds and tracking detainees, bed-space 
        availability management, and transportation management for 
        improved efficiency in detention and removals.
  <bullet> Law Enforcement Systems Modernization.--Total funding of $49 
        million is requested to fund the ICE Law Enforcement Systems 
        Modernization initiative, including a number of case 
        management, information sharing, and operational support 
        service projects that will improve access to law enforcement 
        information. For example, the case management Traveler 
        Enforcement Communication System (TECS) system modernization 
        effort will support the investigative arm of ICE and update a 
        20-year-old system, giving ICE improved capabilities for case 
        management, money laundering tracking and reporting, telephone 
        analysis, intelligence reporting and dissemination, Bank 
        Secrecy Act data access, information sharing of subject record 
        data, and statistical/performance reporting. The funding will 
        also support the design and development for the integration of 
        ICE-Agreements of Cooperation in Communities to Enhance Safety 
        and Security (ACCESS) and Information Sharing.
  <bullet> Immigrant Integration.--Total funding of $10 million is 
        requested for an Immigrant Integration program within USCIS, in 
        order to improve the integration of immigrants into the United 
        States. This program allows USCIS and the Office of Citizenship 
        to work across the Federal Government and with State and local 
        governments, U.S. businesses, non-profits, academia, and faith-
        based organizations to support effective integration efforts 
        across the country. USCIS will provide grants to community-
        based organizations for citizenship preparation programs; 
        facilitate English language learning through improved Web 
        resources; build volunteer capacity by developing a training 
        certification framework for volunteers and, promote citizenship 
        with integration messages at the workplace, among Federal 
        agencies, and the general public.
  <bullet> US-VISIT Identity Management and Screening Services.--An 
        $11.2 million increase is requested to support the increased 
        workload demands associated with the transition from 2- to 10-
        fingerprint biometric capture for foreign visitors. The 
        increase will support biometric identifications and 
        verifications, latent print processing, data sharing with other 
        agencies, and the growing Secure Communities initiative, which 
        shares biometric information with local law enforcement. The 
        funding will also support information sharing and technical 
        assistance to select foreign governments to promote the 
        adoption and use of common biometric identity management 
        standards in order to advance the ability to screen travelers 
        to and workers within the United States.
  <bullet> Western Hemisphere Travel Initiative (WHTI).--A $20.9 
        million increase is requested to continue maintaining and 
        operating the WHTI program that supports Departmental efforts 
        to facilitate the efficient movement of people at the land 
        border POEs. WHTI provides a tool to conduct the necessary 
        authentication at the time of crossing and it also accelerates 
        the verification process mandated by law to the extent possible 
        with Radio Frequency Identification (RFID) Technology and 
        communications technology.
  preparing for, responding to, and recovering from natural disasters
  <bullet> Pre-Disaster Mitigation (PDM).--A $60 million increase is 
        requested for Pre-Disaster Mitigation in the Federal Emergency 
        Management Agency. Funding will assist in the implementation of 
        pre-disaster hazard mitigation measures that are cost-effective 
        and are designed to reduce injuries, loss of life, and damage 
        and destruction of property, including damage to critical 
        services and facilities.
  <bullet> Adequate Fire and Emergency Response Staffing for Adequate 
        Fire and Emergency Response (SAFER) Grants.--Total funding of 
        $420 million is requested to double the funds devoted to SAFER 
        grants administered by the Federal Emergency Management Agency, 
        which help fire departments increase the number of frontline 
        firefighters. Funding will enable fire departments to increase 
        their staffing and deployment capabilities, ensuring around-
        the-clock protection.
  <bullet> Disaster Relief Fund (DRF).--Total DRF funding of $2 
        billion, an increase of $0.6 billion, is requested. The DRF, 
        administered by the Federal Emergency Management Agency (FEMA), 
        provides a significant portion of the total Federal response to 
        victims in declared major disasters and emergencies. This 
        increase will provide relief for non-catastrophic disaster 
        activity.
  <bullet> First Responder Technology.--Total funding of $12 million is 
        requested to develop and design technologies to address 
        capability gaps identified by Federal, State, local, and Tribal 
        first responders. This program will test technologies, assess 
        usability, and commercialize them to increase availability 
        across all first responder communities.
  <bullet> Gap Analysis Program.--An additional $3.0 million is 
        requested for the Gap Analysis Program to supplement programs 
        that evaluate the strengths and weaknesses of each State's 
        emergency plans and evacuation plans and expand beyond earlier 
        focus on hurricane-prone regions and rural and suburban areas 
        to all hazards.
                       maturing and unifying dhs
  <bullet> DHS Headquarters Consolidation Project.--An additional $75.0 
        million is requested in fiscal year 2010 to initiate 
        consolidation of mission support activities that will remain 
        off-campus, reducing the amount of small and widely scattered 
        leased locations.
  <bullet> Strategic Requirements Planning Process.--An additional $5.0 
        million and 5 FTE are requested for the DHS Strategic 
        Requirements Planning Process (SRPP) to establish tangible 
        Department-wide targets and goals to help integrate DHS 
        components' efforts and ensure that the Department fulfills its 
        homeland security mission. The SRPP is designed to coordinate 
        with the Department's resource allocation and investment 
        processes and ensure that both of these processes address the 
        most critical homeland security needs and capability gaps. The 
        SRPP is designed to utilize risk assessments to prioritize 
        analysis of capability gaps, and risk would also be used to 
        inform the prioritization of investment in capability gaps and 
        needs identified through the SRPP.
  <bullet> OIG Auditors.--An increase of $5.1 million is requested to 
        hire an additional 60 staff. The increase of staffing will 
        better position the Office of Inspector General to assist in 
        supporting the Department's integrated planning guidance (IPG) 
        of strengthening border security and interior enforcement. In 
        addition, the increase will expand oversight of activities 
        relating to DHS issues on immigration and border security, 
        transportation security, critical infrastructure protection, 
        Federal and State/local intelligence sharing, Secure Border 
        Initiative (SBI), and acquisition strategies. The OIG's 
        oversight activities add value to DHS programs and operations 
        by providing an objective third-party assessment to ensure 
        integrity and transparency.
  <bullet> Data Center Development/Migration.--A $200.0 million 
        increase is requested to support further migration of component 
        systems, applications, and disaster recovery to the DHS 
        Enterprise Data Centers for central DHS management. Select DHS 
        component budgets include funds to migrate their component 
        specific applications to the DHS Data Center. The Data Center 
        consolidation efforts will standardize IT resource acquisitions 
        across DHS components, as well as streamline maintenance and 
        support contracts, allowing for less complex vendor support and 
        expediting response times in the event of an emergency. 
        Benefits derived from consolidation include enhanced IT 
        security, improved information sharing with stakeholders, and 
        enhanced operational efficiencies over time.
  <bullet> Information Security and Infrastructure.--$23.0 million is 
        requested to support: Network Security Enhancements, Internet 
        Gateway Enhancements, and Single Sign-On Capability.
    <bullet> Network Security Enhancements.--This funding is requested 
            to mitigate high-risk areas within the DHS firewall. This 
            request will establish critical Policy Enforcement Points 
            across the DHS Network, improve DHS Security Operation 
            Center capabilities (i.e., remediation, forensics), and 
            establish robust classified facilities with highly skilled 
            analysts. Network Security Enhancements will identify all 
            internet connections for remediation by migrating separate, 
            legacy component connections behind the DHS Trusted 
            Internet Connections (TICs).
    <bullet> Internet Gateway Enhancements.--This request will 
            implement a High Assurance Guard to support mission 
            requirements for accessing social networking sites and 
            establishing the DHS Email Disaster Recovery capability 
            where 100 percent of all e-mail traffic will be behind the 
            two DHS TICs.
    <bullet> Single Sign-On (SSO) Capability.--Increased fiscal year 
            2010 funding will be utilized to initiate the application 
            integration and establishment of the core infrastructures 
            for AppAuth, eAuth, the SSO Gateway, and Service Oriented 
            Architecture required under the SSO project. Through the 
            close alignment with HSPD-12, DHS employees and Federal, 
            State, local, and private-sector partners will be able to 
            log in to their systems with only a single set of 
            credentials in order to access multiple applications. 
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
  <bullet> Fiscal year 2010 Gross Discretionary funding increases by 
        $2.6 billion, or 6 percent, over fiscal year 2009.
  <bullet> There is an increase of $8.6 million, or .1 percent, in 
        estimated budget authority for Mandatory, Fees, and Trust Funds 
        over fiscal year 2009.
  <bullet> Does not include supplementals or rescissions of prior-year 
        carryover funds.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> The following offices are less than 1 percent of the total 
        budget authority and are not labeled in the chart above: Office 
        of the Inspector General, Office of Health Affairs.
  <bullet> Departmental Operations is comprised of the Office of the 
        Secretary & Executive Management, the Office of the Federal 
        Coordinator for Gulf Coast Rebuilding, the Office of the Under 
        Secretary for Management, the Office of the Chief Financial 
        Officer, and the Office of the Chief Information Officer.

                                                         TOTAL BUDGET AUTHORITY BY ORGANIZATION
                                                   Gross Discretionary & Mandatory, Fees, Trust Funds
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Fiscal Year      Fiscal Year      Fiscal Year      Fiscal Year     Fiscal Year 2010
                                                                     2008 Revised     2009 Enacted         2010       2010 +/- Fiscal   +/- Fiscal Year
                                                                     Enacted \1\          \2\          President's       Year 2009        2009 Enacted
                                                                  ----------------------------------    Budget \3\        Enacted     ------------------
                                                                                                    ----------------------------------
                                                                        [$000]           [$000]           [$000]           [$000]             [%]
--------------------------------------------------------------------------------------------------------------------------------------------------------
Departmental Operations \4\......................................        $573,983         $644,553         $904,673         $260,120               40
Analysis and Operations..........................................         304,500          327,373          357,345           29,972                9
Office of the Inspector General..................................         108,711           98,513          127,874           29,361               30
U.S. Customs and Border Protection...............................       9,285,001       11,274,783       11,436,917          162,134                1
U.S. Immigration and Customs Enforcement.........................       5,054,317        5,928,210        5,762,800         (165,410)              -3
Transportation Security Administration...........................       6,809,359        6,990,778        7,793,576          802,798               11
U.S. Coast Guard.................................................       8,631,053        9,623,779        9,955,663          331,884                3
U.S. Secret Service..............................................       1,629,496        1,637,954        1,709,584           71,630                4
National Protection and Programs Directorate.....................         896,476        1,158,263        1,958,937          800,674               69
Office of Health Affairs.........................................         118,375          157,191          138,000          (19,191)             -12
Federal Emergency Management Agency..............................       5,515,178        5,985,805        6,612,287          626,482               10
FEMA: Grant Programs.............................................       4,117,800        4,245,700        3,867,000         (387,700)              -9
U.S. Citizenship & Immigration Services..........................       2,822,012        2,690,926        2,867,232          176,306                7
Federal Law Enforcement Training Center..........................         273,302          332,986          288,812          (44,174)             -13
S&T Directorate..................................................         830,335          932,587          968,391           35,804                4
Domestic Nuclear Detection Office................................         484,750          514,191          366,136         (148,055)             -29
                                                                  --------------------------------------------------------------------------------------
      TOTAL......................................................      47,454,648       52,543,592       55,115,227        2,571,635                4.89
Less Rescission of Prior Year Carryover Funds \5\................        (124,985)         (61,373)  ...............          61,373             -100
                                                                  --------------------------------------------------------------------------------------
ADJUSTED TOTAL BUDGET AUTHORITY..................................      47,329,664       52,482,219       55,115,227        2,633,008                5
                                                                  --------------------------------------------------------------------------------------
SUPPLEMENTAL \6\.................................................      15,129,607        2,967,000   ...............      (2,967,000)  .................
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2008 revised enacted reflects net reprogramming/transfer adjustments for CBP ($2.6 million); TSA (-$10.5 million); USSS ($34.0 million);
  NPPD (-$5.6 million); OHA ($1.9 million); FEMA (-$23.0 million); US CIS ($282.167 million); FLETC ($5.636 million); FEMA-DRF to OIG ($16 million).
  Reflects technical adjustments to revise fee estimates for TSA Aviation Security--General Aviation Fee ($.050 million); TSA Aviation Security--
  Passenger & Aviation Security Infrastructure Fee ($96.025 million); TSA Transportation Threat Assessment and Credentialing--Registered Traveler (-
  $31.601 million); TSA Transportation Threat Assessment and Credentialing--Transportation Worker Identification Credentials ($37.9 million); TSA
  Transportation Threat Assessment and Credentialing--HAZMAT (-$1.0 million); TSA Transportation Threat Assessment and Credentialing--Alien Flight
  School ($1.0 million); and FEMA--Radiological Emergency Preparedness (-$0.492 million). Pursuant to Pub. L. 110-161 reflects a scorekeeping adjustment
  for rescissions of prior year unobligated balances from USCG--AC&I (-$137.264 million) and a rescission of current-year appropriations for USM (-$5.0
  million).
\2\ Fiscal year 2009 enacted reflects technical adjustments to revise fee estimates for TSA--Transportation Threat and Credentialing--Registered
  Traveler (-$10.0 million); TSA--Transportation Threat and Credentialing--Transportation Worker Identification Credentials ($22.7 million); TSA--
  Transportation Threat and Credentialing--HAZMAT (-$3.0 million); TSA--Transportation Threat and Credentialing--Alien Flight School ($1.0 million).
  Reflects USCG realignment of Operating Expenses funding and pursuant to Pub. L. 110-53 reflects TSA realignment of funds for 9/11 Commission Act
  implementation ($3.675 million--Aviation Security, $13.825 million--Surface, $2.5 million--Support). Reflects a scorekeeping adjustment for a
  rescission of prior year unobligated balances from USCG--AC&I (-$20.0 million).
\3\ Fiscal year 2010 President's budget reflects the proposed transfer of Federal Protective Service from ICE to NPPD ($640.0 million).
\4\ Departmental Operations is comprised of the Office of the Secretary & Executive Management, the Office of the Federal Coordinator for Gulf Coast
  Rebuilding, the Office of the Under Secretary for Management, the Office of the Chief Financial Officer, and the Office of the Chief Information
  Officer.
\5\ Pursuant to Pub. L. 110-161, reflects rescission of prior year unobligated balances: fiscal year 2008--Counter-Terrorism Fund (-$8.480 million); TSA
  (-$4.5 million); Analysis and Operations (-$8.7 million); FEMA--Disaster Relief Fund (-$20.0 million); USCG--Operating Expenses (-$9.584 million); CBP
  (-$2.003 million); US CIS (-$0.672 million); FEMA (-$2.919 million); ICE (-$5.137 million); FLETC (-$0.334 million); OSEM (-$4.211 million); USM (-
  $0.444 million); CFO (-$0.380 million); CIO (-$0.493 million); DNDO (-$0.368 million); OHA (-$0.045 million); OIG (-$0.032 million); NPPD (-$1.995
  million); S&T (-$0.217 million).
Pursuant to Pub. L. 110-161, reflects fiscal year 2008 rescissions of start-up balances: CBP (-$25.621 million); FEMA (-$14.257 million); Departmental
  Operations ($12.084 million); Working Capital Fund (-$2.509 million).
Pursuant to Pub. L. 110-329, reflects fiscal year 2009 rescissions of prior year unobligated balances: Analysis and Operations (-$21.373 million); TSA (-
  $31.0 million); FEMA--Cerro Grande (-$9.0 million).
\6\ In order to obtain comparable figures, Total Budget Authority excludes:
  <bullet> Fiscal year 2008 supplemental funding pursuant to Pub. L. 110-161: CBP ($1.531 million); ICE ($526.9 million); USCG ($166.1 million).
  <bullet> NPPD ($275.0 million); FEMA ($3.030 billion); US CIS ($80.0 million): FLETC ($21.0 million).
  <bullet> Fiscal year 2008 supplemental funding pursuant to Pub. L. 110-252: USCG ($222.607 million); FEMA ($897.0 million).
  <bullet> Fiscal year 2008 supplemental funding pursuant to Pub. L. 110-329: OIG ($8.0 million); USCG ($300.0 million); FEMA ($8.072 billion).
  <bullet> Fiscal year 2009 supplemental funding pursuant to Pub. L. 110-252: USCG ($112 million).
  <bullet> Fiscal year 2009 supplemental funding pursuant to Pub. L. 111-5: USM ($200 million); CBP ($680 million); ICE ($20 million); TSA ($1.0
  billion); USCG ($240 million); FEMA ($610 million); OIG ($5 million).
  <bullet> Fiscal year 2009 supplemental funding pursuant to Pub. L. 111-8: USSS ($100 million).

                           efficiency review
    As the Department highlights its spending priorities in this 
budget, it is simultaneously conducting a bold and far-reaching 
Efficiency Review initiative to ensure that taxpayer dollars are spent 
in the most effective way possible. Efficiency Review encompasses both 
simple, common-sense reforms and longer-term, systemic changes that 
will, over time, make DHS a leaner, smarter Department better equipped 
to protect the Nation.
    I launched the Efficiency Review on March 27, 2009 announcing 
sixteen Department-wide initiatives beginning within 120 days, 
including:
30 Days
  <bullet> Eliminate non-mission critical travel and maximize use of 
        conference calls and web-based training and meetings.
  <bullet> Consolidate subscriptions to professional publications and 
        newspapers.
  <bullet> Minimize printing and distribution of reports and documents 
        that can be sent electronically or posted on-line.
  <bullet> Maximize use of Government office space for meetings and 
        conferences in place of renting facilities.
60 Days
  <bullet> Implement an electronic tracking tool for fleet usage data 
        to identify opportunities for alternative fuel usage; heighten 
        vigilance for fraud, waste or abuse; and optimize fleet 
        management.
  <bullet> Conduct an assessment of the number of full-time, part-time 
        employees, and contractors to better manage our workforce.
  <bullet> Utilize refurbished IT equipment (computers and mobile 
        devices) and redeploy the current inventory throughout DHS.
  <bullet> Leverage buying power to acquire software licenses for 
        Department-wide usage (estimated savings of $283 million over 
        the next 6 years).
90 Days
  <bullet> Develop cross-component training opportunities for 
        employees.
  <bullet> Develop a process for obtaining preliminary applicant 
        security background data for candidates referred for final 
        consideration (savings of up to $5,500 per avoided full 
        background check).
  <bullet> As replacements are needed, convert new printers, faxes, and 
        copiers into all-in-one machines (estimated savings of $10 
        million over 5 years).
  <bullet> Streamline decision-making processes in headquarters offices 
        to eliminate redundancies.
120 Days:
  <bullet> Establish a plan to ensure the DHS workforce has employees 
        sufficient in number and skill to deliver our core mission.
  <bullet> As replacements are needed for non-law enforcement vehicles, 
        initiate acquisition and leasing of hybrid vehicles, or 
        alternative-fuel vehicles in cases where hybrids are not 
        feasible (estimated mileage improvement of above 30%).
  <bullet> Maximize energy efficiencies in facility management projects 
        (estimated savings of $3 million a year).
  <bullet> Standardize content for new-employee orientation and 
        mandatory annual training modules Department-wide.
    I have issued formal guidance to all DHS employees regarding the 
30-day initiatives, and planning for the remaining initiatives is 
underway. Beyond the first 120 days, Efficiency Review will become a 
central element of budget development and the long-term strategic 
vision of the Department.
                                progress
    The initiatives strengthened by this budget would build atop what 
the Department has already accomplished since the start of the new 
administration.
    To secure the border, DHS has launched a major new initiative to 
combat drug, cash, and weapons smuggling that support drug cartels in 
Mexico in their efforts against law enforcement. The initiative 
includes hundreds of new personnel at the border and increased 
technological capabilities. These efforts have resulted in significant 
seizures of smuggled items headed into Mexico.
    The Department has distributed $970 million dollars to bolster 
transit and port security. The Recovery Act signed by President Obama 
contains $1 billion for the development of new explosives-detection 
technologies to increase safety at transit hubs and public places. To 
guard against terrorism, I signed a new agreement with Germany to 
cooperate in developing new counter-terrorism technologies.
    In terms of increasing preparedness for, response to, and recovery 
from natural disasters, DHS has led the national effort in response to 
and preparedness for the 2009 H1N1 flu outbreak. Furthermore, the 
Department has responded quickly and effectively to severe ice storms 
in Kentucky, Arkansas, and Missouri, as well as to record flooding on 
the Red River in North Dakota and Minnesota. The Department has also 
taken critical steps to speed recovery in the Gulf Coast communities 
still struggling due to Hurricanes Katrina and Rita, including the 
extension of critical programs.
    The Department has also taken important steps toward building a 
single identity and culture. The Recovery Act contained $650 million 
for a new, consolidated headquarters for DHS, which is now scattered in 
buildings throughout the Washington, DC area. In March, I announced a 
moratorium on new branding for DHS components, which will now all use 
the established DHS seal.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
fiscal year 2010 budget request and other issues.

    Chairman Thompson. Thank you, Madam Secretary. I thank you 
for your testimony.
    I will remind each Member that he or she will have 5 
minutes to question the Secretary. I now recognize myself for 
the first question.
    Madam Secretary, recent reports have indicated that some 
5,000 families across Mississippi and Louisiana will have to 
leave their FEMA trailers at the end of this month. With that, 
I have been unsuccessful in figuring out the plan for those 
5,000 families.
    Can you assure this committee that there will be a plan for 
those individuals who are presently housed in those trailers 
soon to be displaced?
    Secretary Napolitano. Yes, Mr. Chairman. Let me just begin 
by saying that we have placed over 100,000 families already. 
These are the last remaining. I would be happy to supply you 
with a list extensive of contact with the families, options 
they have been given, and also share with you that we offered 
to give the State of Louisiana additional caseworkers to work 
with those families, because this goes to the State to work 
through the families. They did not accept that offer.
    But it is now time to start closing out the remains of 
Katrina, and we are and do have many options that have been 
made available to those occupants.
    Chairman Thompson. Coupled with that is this committee's 
real interest on just the housing of individuals with natural 
disasters. Some of the numbers associated with it have been 
astronomical, and Chairman Conyers and a couple of us are 
planning to look at the whole temporary housing issue. Some of 
it, $60,000 cost associated with one temporary trailer is a lot 
of money, and the only answer we have been able to get is, 
well, we have always done it this way.
    So I am hoping that you will look at that going forward and 
see whether there are alternatives that can be explored in that 
temporary housing arrangement.
    Secretary Napolitano. Mr. Chairman, one of the first 
meetings I had as Secretary was with the Secretary of HUD, 
Shaun Donovan, because there is not a clean connection in terms 
of housing for disaster victims. We are looking, at some point 
after the immediate response of temporary housing these have 
become long-term housing issues. What this has revealed is that 
long-term recovery planning is not as robust as it needs to be. 
So housing is part of that, and yes, indeed, we are working 
very hard on those issues.
    Chairman Thompson. Another issue around procurement, Madam 
Secretary, is the fact that presently DHS has over 15,000 
contractors. That is some 300 percent increase since the 
Department was created.
    Can you share with the committee whether or not there is a 
plan to reduce the overreliance on outside contractors for the 
Department?
    Secretary Napolitano. Yes, Mr. Chairman. One of the 
management things we will be doing this year and probably will 
be reflected in the 2011 budget is really looking at 
contractors and what needs to be brought in-house. I think the 
committee understands that contractors were used at the outset 
because of the speed with which the Department had to get up 
and running. But now, as you note, there is an overreliance 
there, and what the committee needs to know and appropriators 
need to know is what do we really need in-house to properly 
staff some of these functions. So, yes, we are looking at that 
from a management standpoint.
    Chairman Thompson. So your testimony is that, not this 
year, but next year.
    Secretary Napolitano. I think it would be fair to say that 
the fiscal year 2010 budget has some changes in it already. But 
looking at the contractor issue simply requires more time than 
we had available.
    Chairman Thompson. With respect to compliance with 
detention standards and ICE, a number of reports have talked 
about some pretty devastating things occurring with respect to 
medical care and facilities. Some have led to multiple deaths. 
Looking at this budget, it appears that we will expand 
detention facilities. What have you taken to prevent some of 
those issues medically from reoccurring?
    Secretary Napolitano. Mr. Chairman, one of the things that 
I discovered when I took over the Department was that within 
the huge organizational chart that it has, the whole issue of 
where detention was, was at the very, very bottom. We have 
moved that up, so if a person who reports directly to the head 
of ICE and brought in to help us there, a person who has run 
the prison systems in Missouri and Arizona, extensive 
experience with these types of facilities, she has been going 
facility by facility, contract by contract, looking at what we 
have. The budget reflects not only the need for beds, but the 
need to increase the expenditure for health care to reach 
standards for detainees. So we are in the process of doing that 
right now as well.
    Chairman Thompson. Thank you.
    I now recognize the Ranking Member of the full committee, 
the gentleman from New York, for questions.
    Mr. King. Thank you, Mr. Chairman.
    Madam Secretary, I would like to cover issues of Secure the 
Cities, FIRE grants, and immigration. How far I will get, I 
don't know, but I will start with Secure the Cities. Not for 
the parochial respect of New York City, but really what this 
means for other cities throughout the country. I realize this 
was a pilot program. I don't believe it has really been 
completed. I know from talking with the NYPD and other police 
departments they feel there is still more that has to be done, 
even in the pilot phase of it. But even if it were finished, I 
think it is really rolling the dice to be asking cities across 
the country to be applying for grants every year. I think there 
should really be a dedicated revenue stream. I just see this as 
being such a real threat to our cities. I am not aware of 
anything, for instance, of any Federal officials being on 
highways or parkways or roadways leading from suburbs or cities 
doing radiation detection. This is going to be left to the 
cities to do, and it really requires a regional approach. To 
that extent, I believe that the detection and interdiction of 
infrastructure that was set up in New York is a model that can 
be used and should have a dedicated revenue stream. To me, to 
zero it out or to end it just because the 3-year pilot program 
is over to me is really missing the larger picture. I would 
appreciate your thoughts on that, especially since, if we look 
at Europe, generally the attacks come from suburbs into the 
cities.
    Secretary Napolitano. Thank you. On Secure the Cities, I 
couldn't agree with you more that protection of the country 
from a radiation attack is key, a very important mission. This 
particular grant, I think I should share with you that the 
recipient has not yet spent the fiscal year 2008 money that it 
got, has not yet submitted its grant application for the fiscal 
year 2009 money that it got. So there is money in the pipeline 
to continue and fulfill the grant through fiscal year 2010. So 
it was the judgment that we shouldn't put more new money in it 
because there was money that would fund the program through 
this fiscal year.
    As I think we all recognize, money is very tight this year. 
What we are trying to do is if we have unspent moneys, we will 
use those as opposed to asking for others.
    With respect to continuation of the pilot permanently, I 
think that is worthy of consideration once we see how it works. 
Obviously, New York, the other States participating could apply 
to some of the other preexisting grant programs and use those 
funds for the Secure the Cities operation. But moving forward, 
one of the things you want to know from a pilot is does it work 
and does it make sense to make it permanent and expand it--and 
we will evaluate it.
    Mr. King. With the previous administration, with Secretary 
Chertoff, we had this disagreement one year about whether or 
not the grant application was in or it was not, and whether or 
not there was money available or not. Rather than lose because 
of bookkeeping tactics, I would ask if you would be willing to 
meet with officials involved in New York City Secure the Cities 
program to make sure this can be continued over the next year 
without any damage being done. Because, again, I sort of went 
through this with Secretary Chertoff and there was a question 
of whether or not the grant was in on time, whether the form 
was filled out correctly. In the meantime, tens of millions of 
dollars were lost. So rather than go through that again, I 
would really ask if I can or if you could be willing to meet 
with them to make sure everyone is on the same page. Again, not 
for the parochial interests of New York, but I just see our 
cities across the Nation being at threat because of this.
    Secretary Napolitano. Yes. We will work with your staff to 
make sure we are talking to the people you would like us to 
speak with.
    Mr. King. Thank you, Secretary.
    On the issue of the FIRE grants, I think of all the 
programs administered by the Department, I don't think any 
received a higher rating, both being effective, and yet there 
is going to be a 70 percent cut. I believe you testified 
yesterday that your belief in the fire departments is they 
needed more personnel as opposed to equipment and training. 
Again, when you have over $3 billion being applied for under 
the FIRE grants, and certainly from my contact with fire 
districts not just in my State but around the country, I think 
there is a real demand for this, a real necessity. Again, the 
role of the fire service has also changed since September 11. 
They also become first-line defenders, certainly again in areas 
which are target-rich.
    So I think you are going to be hearing from us on that in a 
bipartisan way. I promise you, I will try to restrain 
Congressman Pascrell when he gets going.
    Secretary Napolitano. He is looking at me right now.
    Mr. King. But, seriously, on that, again I look forward to 
hearing what you have to say on it, but also these need to be 
part of an on-going dialog.
    Secretary Napolitano. Thank you. Yes. There was money in 
the Stimulus Act for the FIRE grants. The FIRE grants have been 
heavily funded in the past years, as you recognize, kind of 2-
1, as compared to what are called the SAFER grants which really 
go for firefighters themselves.
    Our analysis was and our context were in this era of very 
restricted local budgets and departments having to lay off 
firefighters, that they really wanted some money to keep their 
personnel numbers up. So the judgment was made, given that the 
Congress already had put money for the SAFER grants in the 
stimulus bill, was to significantly now plus up the FIRE grants 
during this economic period so that we wouldn't have fire 
department layoffs.
    I couldn't agree with you more. Fire departments now are 
not just about fire; they are about a much broader range of 
first response. So we want to make sure they are supported in 
that capacity.
    Mr. King. I see my time has run out. I am sure somebody 
will mention SCAAP to you before the hearing is over. Thank 
you.
    Secretary Napolitano. Thank you.
    Chairman Thompson. The Chair will now recognize other 
Members for questions they may wish to ask the Secretary. 
Again, I urge Members to be mindful of the 5-minute rule and 
the Secretary's limited time with the committee today.
    In accordance with our committee rules, I will recognize 
Members who were present at the start of the hearing based on 
seniority on the committee, alternating between Majority and 
Minority. Those Members coming in later will be recognized in 
the order of their arrival.
    The Chair now recognizes the gentleman from Oregon for 5 
minutes, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Madam Secretary, 
three questions hopefully we can dispose of quickly. I asked 
the former--I think you would, unlike the former 
administration, recognize that the Constitution provides for 
three branches of Government. Do you agree with that?
    Secretary Napolitano. I can agree with that.
    Mr. DeFazio. That is good. Thank you. That was 
controversial with the previous administration. We are one of 
the three. There was a plan for continuity of Government, and 
one would assume that continuity of Government would include 
all three branches. Would you agree with that?
    Secretary Napolitano. I would agree with that. Yes.
    Mr. DeFazio. Excellent. We are off to a good start here. I 
am a Member of this committee, and the Chairman and I have 
requested to have access to that plan, to understand what was 
the proposed role for our branch of Government and what 
provisions were to be made in terms of continuity of Government 
after either a catastrophic attack or other problems. To the 
best of my knowledge, the Executive order is still in place and 
is still classified, and we were denied access.
    Could you provide us access to that so we might better 
understand the proposal? You look puzzled.
    Secretary Napolitano. I am puzzled. But I will look into 
this and report back to you, yes.
    Mr. DeFazio. Thank you. It started a whole little cottage 
business on the Internet about what might or might not be in it 
because of the fact that even the Chairman and I were denied 
access to it and other Members of Congress.
    Secretary Napolitano. It surprises me that the Legislative 
branch has not developed its own continuity of operations.
    Mr. DeFazio. There is certainly concern there, and Brian 
Baird, one of my colleagues from Washington State, has 
proposals on how we might reconstitute ourselves in the case of 
a devastating attack and loss of membership, and thus far it 
has not gone anywhere. But I would just be curious how we fit 
into the overall plan of the Executive branch.
    Second, the last time you were here I asked about the issue 
of collective bargaining rights. You were going to consult on 
that. Have we made progress on that issue for TSA employees?
    Secretary Napolitano. Yes. We are still looking at that, as 
well as in addition to collective bargaining rights, how do we 
create within TSA a real career path for employees so that we 
improve retention, take advantage of experience, allowing kind 
of frontline employees to move up into the Department, and how 
we increase and improve training, and so forth, for those 
employees? So, yes, we are looking at all those issues. We do 
not yet have a nominee to head TSA. Frankly, I think some of 
these resolutions are awaiting the new head of TSA.
    Mr. DeFazio. Hopefully that will happen soon. But I would 
agree with you, as when we then created the TSA over on the 
Aviation Committee where I then served, our idea was to move 
away from the lowest-cost, minimum-wage, high-turnover, dead-
end jobs. We actually had testimony one year from the screener 
of the year who said that at his airport, St. Louis, which had 
more than 100 percent turnover in terms of screening employees 
before the Federal Government took over, that it was considered 
a big move up to go to McDonald's from screening. We tried to 
fix that by creating the TSA, and I applaud your idea about a 
career path and enhanced training. That is excellent.
    Finally, there is a leaked document which talks about the 
Secure Freight Initiative, and it acknowledges, which I think 
has been publicly acknowledged, the fact that we are not--you 
don't anticipate being able to meet the 100 percent scanning of 
in-bound maritime cargo by the 2012 deadline, and it sets out 
three paths to deal with that.
    Do you have thoughts on what path is going to be chosen by 
the Department in terms of either meeting or not meeting that 
deadline for 100 percent screening maritime cargo?
    Secretary Napolitano. We are still looking at that. I think 
I said even in my confirmation hearing and in my first hearing 
before this committee that I thought the 2012 deadline for SFI 
was going to be very difficult to reach, to negotiate all the 
international agreements that are part of that, and we wanted 
to really focus on what is the most effective way to prevent 
dangerous cargo from entering the United States, what kind of a 
multi-layered risk-based approach. So that is where we are 
heading now within the context of SFI.
    But with respect to the memo that somehow became a public 
document, we are still evaluating alternatives and have some 
meetings within the Department to discuss them.
    Mr. DeFazio. My personal preference would be strategy 
three. I am concerned that this is the most likely method of 
delivery of a weapons of mass destruction to the United States. 
The current layered or risk-based program we have pointed to in 
a number of hearings before your tenure is rather loophole-
ridden, and I would not put great faith in that we are properly 
identifying and/or providing additional scrutiny to cargo with 
that system that requires it.
    So thank you, Madam Secretary. Thank you, Mr. Chairman.
    Secretary Napolitano. Thank you, sir.
    Chairman Thompson. I now recognize the gentleman from 
Indiana, Mr. Souder, for 5 minutes.
    Mr. Souder. Thank you. Madam Secretary, I have questions 
relating to the border. But first, I want to touch briefly, 
because we haven't had a chance to talk about the so-called 
FEMA trailers, that Elkhart, Indiana is where many of these 
came from in my district and in Joe Donnelly's, and that we 
have had multiple hearings here and over in Government Reform. 
I want to make sure that you are aware of a few facts related 
to what has come out.
    One is that formaldehyde in the room of the Government 
Reform hearing was higher than it was in the trailers; that the 
housing in Louisiana on average was higher than the FEMA 
trailers; that the California standards, you can make a safe--
if the industry is moving to this, you can make a safe trailer.
    FEMA is the only agency right now that is being 
unreasonable. In reality, a tent has more formaldehyde in it. 
There is no housing that you can put people in, and we need to 
have a reasonable standard that--by the way, since Katrina, 
there are people living in the same trailers in Florida, in 
places all over America. They have had zero complaints anywhere 
in America since Katrina.
    We have to have real science here, not emotion, or we are 
not going to be able to handle people. I hope that you can 
approach this.
    Chairman Frank understands a lot of this as he sat through 
some of this, too. We can work out a reasonable thing where we 
can actually build affordable things that are safe if we stick 
with science and not emotion.
    Secretary Napolitano. I couldn't agree with you more.
    Mr. Souder. Now, on the border, one is a concern on 
terrorism on the border. If we are going to work out anything 
in this country on immigration, we have to have the confidence 
of the American people that whether it is the DREAM Act or 
whether it is immigration reform of some type, that the border 
is secure, or other people just pour in if we make changes.
    Furthermore, if we are going to fight terrorism, we have to 
know who people are. So two basic questions.
    One is, you stated that you wanted to eliminate or repeal 
the REAL ID Act, which was one of the key 9/11 Commissions. Do 
you still stand with that? Do you see that moving ahead? How is 
that working? If I can do the second, and then you can try and 
work these together.
    On the border, you stated that you are putting resources 
in, but there is basically no increase at all in SBINet 
technology in that side. The increase was for maintenance at 
the existing. There doesn't appear to be any money for 
additional fencing. The fundamental question is, do you intend 
to extend operational control past the 815 miles? You have 
plus-ups for outbound, which is really important on narcotics 
and guns. You are plussing up I think the total is 44 new 
border agents, Border Patrol, but those are focused at the 
ports of entry.
    The question is, for operational control of the border, do 
you have anything in your budget? Why is there not more for 
SBINet, fencing, and other things in between the ports of 
entry? Whether it be hard fencing or electronic fencing, it 
doesn't appear that you are looking past 815 miles.
    Secretary Napolitano. Thank you, Congressman. Let me 
address the questions in order. In the terms of REAL ID, as I 
think the committee recognizes, Governors across the country, 
both parties, all thought REAL ID was an unfunded mandate from 
the Congress. I actually signed a bill in Arizona opting 
Arizona out of REAL ID because there was no money associated 
with it and the way that the regs were coming down, it was 
going to be a very big burden. That was almost the strongest 
bipartisan vote amongst the Nation's Governors that I saw in my 
time as Governor.
    So when I came here, I said, look, we need to get to what 
the 9/11 Commission was getting at, which was a more secure 
driver's license. All right? So we have been working a team of 
Governors at the NGA level on a bipartisan fashion to craft a 
substitute for REAL ID. There is a proposal now, I believe 
either it has been or will be introduced in the Senate, I think 
it will have bipartisan sponsorship, that the Governors will 
accept and will be able to implement.
    So it is not just a matter of repealing REAL ID, which 
nobody was going to do; it is a matter of giving the Governors 
of the country a bill that they can actually implement given 
the way motor vehicle departments work and the like. So that is 
where we are with that.
    With respect to SBInet, we have just a week or 2 ago 
approved the latest iteration of it. As you know, when it was 
getting up and started it took a while. It was a lot more 
complicated than people, I think, can see. But that first 
operational part will go down. It is about 28 miles or so in 
Southern Arizona, in the Tucson sector. The next sector is on 
the way. The reason the budget is the way it is, is because 
there are unspent moneys. But there is a spend plan for SBInet. 
It is an integral part of our plans going forward, because I 
believe that a border has to be secured, you have to have 
operational control over it. It requires manpower and 
technology, particularly technology between the ports of entry.
    With respect to fencing, you are correct, we did not ask 
for fencing per se in large miles across the border, but I can 
anticipate there will be projects along the border that will 
incorporate some fencing as part of the tactical 
infrastructure.
    Mr. Souder. So do you see extending past 815 miles?
    Secretary Napolitano. On a project basis, yes. But I would 
not say we intend to build a fence from San Diego to 
Brownsville.
    Mr. Souder. I meant, electronic or other? Are you saying 
you get to 850 this year? I mean, we are talking about a 3,000-
mile border.
    Secretary Napolitano. There is going to be a combination of 
manpower, technology, and infrastructure, and our goal 
obviously is to have a system border-wide, but not just to have 
a physical fence border-wide.
    Chairman Thompson. The gentleman from Texas for 5 minutes, 
Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Madam Secretary, it is a pleasure seeing you again. One of 
the most important powers that we as Members of the legislature 
have is legislative oversight. There is always a tension 
between the Executive branch and the legislative body in this 
area. Most of the Secretaries that we have had through the 
Governors, attorney generals, judges, and that type of 
experience, I can understand that there is always a tension. 
But when we do ask for information, there might be an issue as 
to when we get it, but we do expect to get that information.
    One of the things that we asked, and, Mr. Chairman, you 
recall the former Secretary, we asked him to give us a best 
estimate as to how many Customs Border Protection folks they 
would need on the ports of entry and the infrastructure. I 
think we waited about 14 months and we never got it.
    Recently, we made a request to your office also, to your 
Department, and we are hoping we can try to get that 
information. The reason we want that is because we want to see 
how we can help you. It is not a gotcha type of situation, but 
we are trying to say, how many people do you need? You know, 
men and women in blue. So we can try to fund that as much as 
possible.
    We need the infrastructure needs both in north and 
southbound so we can reduce the wait time and move traffic, and 
especially since 80 percent of all the trade coming in through 
the United States is through land ports, I think we need to do 
a lot more in that area.
    So do you have a general idea of when we could get that 
information from you? This is something that both the Chairman 
and I requested of the former Secretary and we could not get 
that information.
    Secretary Napolitano. I don't know where the actual request 
is, but our goal has been to be as communicative and as 
cooperative as we humanly can with the committee. So we will--I 
will find that request and see what we can do and how quickly 
we can do it.
    Mr. Cuellar. The request is very simple. What proper 
staffing do you need? What would be the number of personnel you 
need to staff properly your ports of entry, the men and women 
in blue? One. Then, what are your infrastructure needs, you 
need for north and southbound? Very simple on that.
    Mr. Chairman, you recall we kept asking the other 
Secretary, and we couldn't get that information. It was not to 
try to catch somebody. We are trying to say, what are your 
needs so we can try to work to get you the proper funding on 
that?
    The other thing is, I am very interested in performance 
measures, the efficiencies. I understand that you are doing 
some of that. That part is important, because if you have 
contractors, we would like to see the performance measures 
because a lot of times what agencies do is they have certain 
performance measures for the agencies but when they contract 
out those performance measures drop out. So we would like to 
see the performance measures, even on the contractors as you 
reduce them, and the efficiencies on some of the things that 
are done.
    For example, why is it that, as an example, in Laredo when 
property is seized and they are going through the 
administrative process, they used to store that property in a 
Laredo warehouse. It doesn't matter where in Laredo. But now, 
under the contract that they have everything is shipped all the 
way to California. It is good for the California folks to have 
that, but the efficiency is, why do we--why do people have to 
pay all those transportation costs to send something all the 
way up to California instead of keeping it in a local place, 
whether it is in Brownsville or somewhere else?
    I would like to get an answer if that contract is still in 
place or if you all plan on making some changes on the 
efficiencies on something like that. Efficiencies, like can we 
use more civilians to do support services instead of having 
Customs and Border Protection? I would rather have them out 
there on the lines trying to move traffic faster, instead of 
behind some computer or typewriter to do some of that support 
services. We did that in Texas with the DPS, and we got more 
people out, what we call more boots out in the field instead of 
having them do the support services, and we hired more of those 
civilians. So I would like to see if we can follow up on that.
    Finally, the last thing is on the FEMA grants, what efforts 
are you all doing to streamline the process? I know there is 
some question as to the cuts, but the streamlined process, 
paperwork reduction, how fast can we get it out in the areas? 
What do you do? How do you handle those small rural areas? Like 
the New Yorks or the Houstons or the Laredos can handle the 
paperwork, but the small rural voluntary areas, they have a 
hard time trying to fill those out. But the streamlining and 
simplifications of that would go a long way on those FEMA 
grants.
    Secretary Napolitano. Thank you, Congressman. Yes, we are--
--
    Chairman Thompson. Excuse me a minute, Madam Secretary.
    I am trying to listen to the Secretary. If the Members 
could be a little quieter, we could hear.
    Go ahead.
    Secretary Napolitano. With respect to streamlining FEMA, 
you are talking about public assistance grants, individual 
assistance grants in the wake of a natural disaster. Yes. We 
have been working with communities, and even in my short tenure 
as Secretary have been able to work with relatively small 
communities to help them with that process. We are always 
looking for ways to make it simpler and to streamline it. You 
are absolutely correct.
    Chairman Thompson. Madam Secretary, there were some other 
questions that the gentleman from Texas raised, and I am sure 
he will want to get them responded to. If the gentleman is 
still of the mind to get all the questions answered.
    Mr. Cuellar. I would love to get--I think you are 
responding to the last one that we had on the efficiency 
issues.
    Secretary Napolitano. With respect to efficiency measures 
for contractors, yes, as I indicated to the Chairman, I think 
the Department now is at a stage where we really need to 
thoroughly review contractors versus full-time employees moving 
forward as a Department. Obviously, part of that is what is the 
best and most effective way to spend the security dollars that 
we do get? So those performance measures are going to have to 
be, and are, going to have to be an integral part of that 
evaluation.
    Then with respect to the first question, I think I already 
indicated that I am going to go back and see the request and 
see when we can get you a response.
    Mr. Cuellar. Could you give that response to that two parts 
of the questions?
    Secretary Napolitano. How many CBP officers and----
    Mr. Cuellar. Mr. Chairman, with all due respect, if you 
could address it to him and copy to me.
    Secretary Napolitano. I would be happy to do that.
    Chairman Thompson. We will now recognize the gentleman from 
Texas, Mr. McCaul, for 5 minutes.
    Mr. McCaul. I thank the Chairman.
    Madam Secretary, welcome again. I want to commend you for 
your focus on the Southwest border, the resources you are 
putting down there. I was in El Paso 2 weeks ago, and saw the 
BEST teams in action, which we are doing a pretty good job I 
think screening incoming traffic now. I think one of the flaws 
has been tracking out-going cargo, currency, weapons going into 
Mexico. It is really the Mexican responsibility, and they have 
not stepped up to the plate. But I think these BEST teams are 
working effectively with the dogs. I would like to see more 
infrastructure, quite frankly, and resources put into that, 
because right now they are operating more on gut instinct, I 
think, anything else. The dogs are effective.
    Perhaps a Merida Initiative could provide some funding to 
Mexico so they could properly screen incoming traffic. But that 
is just, those are my thoughts.
    I wanted to hit one issue specifically with you, and that 
is the State Criminal Alien Assistance Program. This provides 
assistance to the States for incarceration of criminal aliens. 
It has, in my view, been a very successful program. I know when 
you testified last February before the Senate Finance 
Committee, you stated that the Federal Government must at a 
minimum live up to its financial obligations to compensate for 
the cost of these failures borne by the States, and you 
referred to this program as an underfunded program and that the 
Federal Government needs to pay its bills.
    This President's budget eliminates the SCAAP program, and I 
just wanted to get your view. You seemed very supportive of it 
as a Governor. What is your view on the President now 
eliminating this support program?
    Secretary Napolitano. Representative, yes, in fact when I 
was Governor I think I sent the attorney general of the United 
States an invoice for an unpaid SCAAP bill. States were getting 
I think about 10 cents to the dollar. This is a program that 
reimburses States for the cost of incarceration of illegals.
    As you know, that is part of the Department of Justice 
budget. At the Department of Homeland Security level, I think 
what I am trying to do is to reduce the number of illegals that 
come into those border States. That is the way to reduce the 
costs on the States, not just incarceration, but a whole host 
of other related issues. So with that, I am sure the 
administration would be happy at the DOJ level to discuss SCAAP 
and how it was not budgeted with you. But I think at this point 
in my role, my emphasis has to be on reducing the number of 
illegals, period.
    Mr. McCaul. I agree with that part. I do think elimination 
of this important program, though, is a mistake. I think you 
are going to see in the appropriations process or through maybe 
amendments on the floor this program being restored, as it was 
last Congress.
    Also, the Stonegarden program is very important to me in 
terms of the resources provided to State and locals, border 
sheriffs. The National Association of Border Sheriffs came out 
with a figure of about $500 million was the number that they 
believe they needed to properly secure the border. I think they 
play an important part. As you said, the State and locals are 
the eyes and ears. Sixty million dollars are in the budget, 
which is a good start. Congressman Cuellar and I introduced a 
bill to fully fund this, in our view, at the $500 million 
level, and I hope you will give that some consideration.
    Secretary Napolitano. Yes, Congressman. We have started a 
biweekly conference call with border sheriffs and police 
chiefs, so we hear directly from them, particularly as we are 
in this effort. We want to sustain this effort at the southwest 
border.
    Mr. McCaul. I commend you on your choice of Mr. Bersin for 
the Border Czar. He briefed us personally. He is a former U.S. 
Attorney like yourself. He gets it. I have talked to him about 
this particular program and the $500 million. I think he is 
very--he seemed at least to be very supportive of the idea of 
doing that.
    Last, if you could just give us an update on Guantanamo. I 
went down there with other Members, and the top 16 al Qaeda 
leaders are there. There is grave concern from our constituents 
about these people coming into the United States at some point. 
I know you are on the task force. If you could give the 
committee an update on that, I would appreciate it.
    Secretary Napolitano. Yes, Congressman.
    The Department of Homeland Security is on the task force, 
as chaired by the Attorney General. It is looking inmate by 
inmate at Gitmo in terms of what disposition should be made. If 
any are ultimately decided to come to the United States, that 
they are paroled in under ICE, for example, my No. 1 concern 
and No. 1 function I think is to make sure that it is in such a 
fashion that Americans can be confident that they will not be 
endangered by that. So we are looking at what kind of 
restrictions would need to be associated with any sort of 
movement.
    Mr. McCaul. Thank you. I see my time has expired.
    Chairman Thompson. I would now recognize the gentlelady 
from--we will give the gentleman from California--we will get 
to you next. The gentlelady from Arizona, Ms. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Madam Secretary, as you know very well, we in Arizona are 
very concerned about smuggling across the border along with the 
potential for the type of violence we have witnessed in Mexico. 
I have been calling for Congress to authorize $100 million to 
prevent the southbound trafficking of cash and guns, and last 
month I introduced a bill along with Chairman Thompson which 
could do just that. Therefore, I am really glad to see your 
budget proposal calls for almost exactly the funding I 
requested to improve CBP and ICE southbound interdiction 
operations.
    When do you expect to have all of the additional CBP 
officers, Border Patrol agents, ICE agents, and license plate 
readers fully in place to prevent southbound trafficking? Do 
you have a time line for that?
    Secretary Napolitano. Representative, yes, virtually all of 
those resources have moved already down to the southwest border 
as part of our effort to assist the Government of Mexico in 
halting the flow of--the fuel for the cartels into the country. 
In addition, this refers back to Representative McCaul's point, 
we are working with the Government of Mexico and the Minister 
of Interior, Gomez Mont, to set up a system whereby they 
actually do some southbound inspections themselves. We have 
some exchange in terms of rotation and all the like so the 
cartels don't know who is working which area at any given time. 
That planning is underway as well.
    Mrs. Kirkpatrick. Thank you, Madam Secretary. As you also 
note, we have just started the wildfire season in the West, and 
we have seen the devastating effects of a wildfire in 
California. I just got word this morning that there is a 
wildfire near Highway 60 in my district. So I am very happy to 
see the funding for the SAFER grants.
    My question is: With the new funding, are you looking to 
have a cap on this grant increased? If so, do you have any 
thoughts as to what would be an appropriate level?
    Secretary Napolitano. I would have to get back to you on 
that, Representative. I don't know the answer.
    Mrs. Kirkpatrick. Thank you. Thank you, Madam Secretary. I 
yield back my time.
    Chairman Thompson. Thank you. Let me apologize to the 
gentleman from California. Staff had omitted your name on the 
list for Members present. So we now recognize the gentlemen 
from California for 5 minutes, Mr. Lungren.
    Mr. Lungren. I appreciate it, Mr. Chairman. I have lost 10 
pounds. I know it is more difficult to see me now, so I 
appreciate that.
    Madam Secretary, first of all let me reiterate what the 
gentleman from Texas said. Allen Berson is an excellent choice. 
I worked with him when he was in San Diego. He works with both 
sides of the aisle and he has a very good understanding of the 
border. Thank you for making that selection.
    Second, thank you very much for your commitment in this 
budget and in the meetings that I have had with representatives 
of your office and the White House on cyber security. That is 
an unmet need in this country. You are recognizing that in part 
by the budget that you have presented, and I appreciate that.
    One of the areas I hope to talk with you at some other 
time, both you and the Department of Defense and others, is 
EMP, electromagnetic pulse, whether we are taking that 
seriously; whether that is just the old Cold War concern; or 
whether, in view of the fact that we have rogue nations now 
that have lifting power with new missiles so you don't have to 
have an accurate missile to have the impact of EMP, what that 
means for our protection of our infrastructure. Are we even 
preparing for that, and is that part of your concern?
    I would reiterate my concern about the SCAAP program. When 
I was attorney general, I worked hard for it. When you were 
attorney general, you worked hard for it. When you were 
Governor, you worked hard for it. I doubt the facts have 
changed. I doubt your opinion has changed. I understand you are 
part of a team now, but hopefully you can voice the concerns 
the rest of us have.
    We are building airports where nobody flies. We are 
building bridges to nowhere. I mean, stuff that you can't give 
a justification for the Federal Government, but you know and I 
know the primary responsibility for immigration and for border 
control is the Federal Government. When they don't do the job--
and those of us in the States have a considerable number of 
illegal aliens who committed felonies--it is a legitimate 
request for the States to have the Federal Government assist in 
that. Yet we zero that out in the President's budget.
    So I am not going to put you on the spot, because I know 
where you have been and no facts have changed. So I doubt you 
have changed your opinion. Maybe they will listen to you a 
little bit more on that.
    Let me focus on Gitmo, though. As an attorney who has 
clerked on the Ninth Circuit, been a U.S. attorney, attorney 
general, you understand that when we bring people to the United 
States to put on American property, American soil, that 
connection gives rise to constitutional protections they might 
not otherwise have anywhere else. So if we close Guantanamo, we 
bring them here, all of the sudden they have an assortment of 
rights, which may mean, according to Federal judges, they are 
released, they are released into our communities.
    Now, you have said today you are concerned about that and 
you want to make sure that we protect Americans. We have 
members of the Cabinet who have said in other positions, 
Secretary Salazar and Secretary Sebelius, that they don't want 
folks in their States. I don't know what your position is about 
whether Arizona ought to be willing to take them, but a whole 
lot of people aren't running to take these folks.
    What I would like to know with some particularity is what 
do you mean when you say it is your concern that we protect the 
American people? Because if you have people who are terrorists 
and holding them overseas, you don't necessarily have the basis 
upon which to bring them to trial, because the purpose of 
detaining terrorists on the battlefield is to stop them from 
carrying out their function. You may not be able to prove a 
completed crime. But yet if we bring them to American soil, 
they may have the right to be released under our Federal laws 
and our Constitution. So I am in a quandary to find out what 
you mean by how we would protect the American people if we 
bring people who are suspected terrorists, because of decisions 
by Federal courts, because they have been brought to the United 
States, that they are allowed out in the community, how do we 
protect--what does that mean?
    Secretary Napolitano. Thank you, Representative. First of 
all, I think the President has been very clear; we need to 
close Gitmo, which itself has become a recruiting tool for 
terrorists. How we do that has been the subject of the review 
chaired by the attorney general that the Department of Homeland 
Security sits on.
    My statement was well, what is Homeland Security's function 
there? Our function there is to provide information and 
assistance as to what sorts of protections would be needed on 
the homeland side if an inmate were ultimately released to the 
homeland. Those decisions have not yet been made. They are 
reviewing each case independently. Obviously there are other 
places and other facilities and other ways to deal with some of 
the----
    Mr. Lungren. I understand. What I would like to know, can 
you give me some idea what those other ways or other ideas are, 
because frankly we are left now with talking with our 
constituents saying the administration has taken the position--
and if I were in court I could debate with you whether Gitmo 
has been a positive or a negative. But the fact of the matter 
is the President has made a decision. We have been telling now 
the American people we are going to close Guantanamo. I don't 
see any money in the budget to do that but that is another 
thing. That is going to force people here in the United 
States--Federal judges may very well release them, as you have 
suggested. That could happen.
    But what are the options? What kinds of things are you 
looking at in your Department to assist us in protecting the 
American people so we can tell our constituents what we are 
going to do?
    Secretary Napolitano. Representative, I think right now we 
are treading into an area that I don't believe I am able to 
talk about in a public setting. This is a process that is 
underway at the highest levels within the White House and other 
departments. But as decisions are made, the President is 
committed to transparency, and there will be explanations about 
what is happening and why.
    Chairman Thompson. Thank you. The gentleman from New 
Jersey, Mr. Pascrell, is recognized for 5 minutes.
    Mr. Pascrell. Madam Secretary, I appreciate fully the 
difficult job you have of creating a budget that meets the 
needs of this Nation and all the various areas which you are in 
charge of during a tough economic period in our history. I 
understand that. Believe me, I do.
    I have concluded, though, that looking at what you proposed 
to us and the Nation, the last administration made the mistake 
of not understanding that real homeland security starts from 
the ground up, on our local streets, in our intelligence 
apparatus, and not here in Washington. I sincerely hope this 
administration doesn't make the same mistake.
    I have to say I am greatly dismayed, to say the least, to 
see the dramatic cuts to a couple of grant programs that are 
vital to our local and State first responders who we keep on 
patting on the back, and yet this budget I believe does not 
reflect what our rhetoric has been. Under this budget proposal, 
the successful FIRE grant program is cut by 70 percent from 
last year. We simply can't hire thousands of new firefighters 
to departments, knowing what the regulations are under the 
SAFER bill--which I was cosponsor of as well--because they are 
not going to have the equipment, the training. We did not pass 
the FIRE Act after 9/11. We passed the FIRE Act before 9/11.
    We do, as the gentleman from New York stated very 
specifically, have $3 billion in requests every year. The 
former administration tried to zero this program out. It has 
been a successful program in red districts, pink districts, 
blue districts, you name it, all across America. We had those 
needs about equipment and training and the wellness of our 
firefighters, be they career or voluntary, long before 9/11. 
They were a neglected part of the public safety equation. They 
have always been neglected. In fact, there was a debate as to 
whether we have any responsibility at all with regard. But 
towns and municipalities were not meeting their obligations, 
they couldn't afford to.
    So here is a program. Listen to the ingredients. It is 
competitive. It deals with needs. It is peer-supervised. Wow, 
that is something very unique. There is oversight. It is fair. 
The money goes directly to the local communities, the States 
can't cream it off, take it off the top. That is different, 
isn't it? It doesn't go through the State. It is results-
oriented.
    So firefighters and police officers who are dear to my 
heart, they are the first to respond at a national catastrophe 
or a man-made disaster, they are the first that will be there.
    The budget also only provides $50 million for the 
Interoperable Emergency Communications grant program. That is 
an 85 percent decrease in funds. Now, when you are saying by 
the way, that the money is in the recovery plan, let me inform 
you, Madam Secretary, that there are $210 million in that 
recovery plan that all went to construction of firehouses. It 
had nothing to do with basically the FIRE Act. Nothing to do 
with equipment, nothing to do with training, nothing to do with 
apparatus.
    I voted for the Recovery Act. I hope I know what is in 
there. Mr. Reichert and I worked very hard as Chairman and 
Ranking Member of the subcommittee in the 109th Congress to 
create the great grant program, because the lack of 
interoperable equipment was one of the clearest failures of 9/
11 and still is. Still is.
    So the last time you were before this committee, Madam 
Secretary, there was no bigger supporter of local and State 
grant programs than you. I want to stress I understand, and I 
would like you to respond to both of these questions, if I may, 
Mr. Chairman, through the Chair and through the Ranking Member. 
I would like you to respond to that.
    Secretary Napolitano. I was talking with staff just a 
minute ago, so I apologize, but I am confused on your statement 
about the interoperability, $50 million. It is my understanding 
that is level-funded in the fiscal year 2010 budget.
    Mr. Pascrell. There is a decrease in the IECGP part of the 
Homeland Security budget.
    Secretary Napolitano. No, sir.
    Mr. Pascrell. Then we are looking at the budget 
incorrectly. I will gladly go back and stand corrected.
    Secretary Napolitano. It says I have, going back to fiscal 
year 2008, $50 million. Fiscal year 2009, $50 million. Fiscal 
year 2010 request, $50 million.
    Mr. Pascrell. We will talk about that privately. Would you 
go--we will talk about that. I have different numbers than you 
have.
    Secretary Napolitano. As I explained earlier on the FIRE 
grant, I couldn't agree more about FIRE and the importance of 
first responders in the whole context of homeland security. The 
FIRE grants historically have been heavily funded, as you 
noted, the money for FIRE.
    Mr. Pascrell. I didn't hear what you just said.
    Secretary Napolitano. Have been heavily funded 
historically.
    Mr. Pascrell. They haven't been heavily funded. If we have 
$3 billion of requests every year, and we have between $500 and 
$700 million, they are not heavily funded as far as I am 
concerned.
    Secretary Napolitano. What I am trying to suggest, sir, is 
that in the past, there has been an appropriation there. Part 
of that appropriation if we want to look an fiscal year 2010 as 
a continuation, was assumed in the Stimulus Act. As you 
correctly note, the Stimulus Act was for construction of fire 
stations. I do not know whether local fire departments, then, 
are moving some of their capital budget there and moving their 
money around, but they are getting additional moneys there. Our 
information was, in meeting with first responders, was in this 
time of limited economic resources, they were concerned about 
personnel and they wanted more money for the personnel side of 
the budgets, and that is what the fiscal year 2010 request was. 
We look forward to working with you on this.
    Chairman Thompson. Time has expired, and I am sure the 
gentleman will have other questions that the Secretary can 
answer. I will now recognize the gentleman from Pennsylvania, 
Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. I had a few questions, 
Madam Secretary, with respect to chemical plant security. But I 
did want to follow up on a couple of things that had been said. 
First, Ranking Member King mentioned in his opening remarks 
about the right-wing extremism report, and I would be remiss if 
I didn't take this opportunity to express my disappointment in 
the now infamous report which indicated returning veterans 
might be more susceptible to radicalization. To your credit, 
you have openly admitted that the report did not go through as 
robust a review process as you had hoped. Could you tell us 
where the wheels came off the wagon, so to speak, and what you 
are doing to keep this from happening again?
    Secretary Napolitano. Yes. The wheels came off the wagon, 
first of all, because the vetting process that existed within 
the Department was followed or resolved. Second, the report was 
distributed and it was not authorized to be distributed. Third, 
it was distributed more broadly, even if there had been an 
authorization, than it should have been. The report--that 
particular section was meant to say not that veterans are more 
susceptible to become radicalized, but they are certainly 
targets of recruitment. That is well-known and there are many 
publications that say that.
    Nonetheless, the way it was written or perceived was 
offensive, and I apologize for that. I apologize again. 
Internally what we have done now is to put a process in place 
to make sure that products of the Department are properly 
vetted and supervised before they can be authorized to be 
distributed at all.
    Let me say, Representative, my view is that where our 
Department needs to focus is not on the kind of intel and 
analysis that circulates around Washington, DC, but things that 
are useful for State and local law enforcement on the ground. 
Too much, I think, of what we produce is kind of Washington, 
DC-speak as opposed to something that really works for State 
and local. So one of the things I hope to accomplish as 
Secretary is to kind of review, rethink that whole intel 
support that we are supposed to be providing for security.
    Mr. Dent. Thank you. Also to follow up on Mr. Lungren's 
question regarding the particularities of the Gitmo closing and 
relocation of prisoners, you indicated that you cannot talk 
about such specifics in a public setting. Would you be willing 
to hold a classified briefing for Members of this committee on 
the details of Gitmo?
    Secretary Napolitano. Sir, we will work with your staff on 
that and on the timing of that. I simply do not know. It may be 
the White House itself would like to do the briefing, but we 
would follow up.
    Mr. Dent. Many Members would like to be briefed on that. 
Thank you. I also just wanted to mention too--I wanted to first 
at the outset commend the Department for a job well done with 
its current regulations with respect to chemical plant 
security. The regulations, as you know, the industry doesn't 
love them, the environmentalists don't like them either, which 
means you are probably onto something here. So the Department's 
authorization for regulating chemical facilities expired in 
October of this year.
    The Department has asked in its budget submission to 
Congress for a 1-year extension of this regulatory authority. 
The committee is currently engaged in negotiations on possible 
chemical security legislation that would address this 
extension. But the legislation would do more than extend the 
current regulation. Some in Congress are considering including 
provisions that would require the Department to assess chemical 
facility processes at tens of thousands of chemical plants and 
identify what inherently safer technologies or processes might 
be appropriate in each situation.
    What are your thoughts on Congress requiring the Department 
to determine which processes and chemicals facilities should 
utilize?
    Secretary Napolitano. We would be happy to work with you on 
that. In part, we are sort of doing that now as we implement 
the CFATs rules and regs. So there may be a very useful overlap 
now.
    Mr. Dent. Because there are some concerns of secondary 
effects of some requirements that might come out of the 
Committee on Commerce overall. Then we get into this issue of 
inherently safer technologies and processes. These are 
engineering practices. I noticed in the President's budget 
request, it included an additional $19 million for the Office 
of Infrastructure Protection to increase chemical facility 
security. Has the Department examined how much it would cost to 
bring unnecessary expertise to review thousands of these IST 
assessments and make determinations as to their feasibility? I 
think this is very expensive and it requires a great deal of 
expertise. I am just concerned the Department would not have 
that level of expertise when you have $19 million in the 
budget. Can you address that, by chance?
    Secretary Napolitano. Yes, sir. We do have kind of a spend 
plan associated with what it will take to implement the CFATs 
regulations and the budget is reflective of that. We would be 
happy to provide you with more detail.
    Mr. Dent. If they could, too, is any of the $19 million 
designed to bring any IST specialists on to your staff?
    Secretary Napolitano. We will follow up with you on that, 
absolutely.
    Mr. Dent. I see my time has expired.
    Chairman Thompson. Thank you very much.
    Madam Secretary, to cure Mr. Pascrell's issue, there is 
$400 million authorized in that account, which only $50 million 
has been requested each year. So that was the discrepancy in 
the numbers that he had reference to.
    We now will hear from the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here. I am not sure 
whether or not this hearing is being televised on C-Span or 
not. But in the event it is, I think it is extremely important 
for me and, frankly, for all of us to hear you respond to 
something based on a question that--or a statement made 
earlier.
    I represent Kansas City, Missouri. Kansas City is 19 miles 
from Fort Leavenworth, which is in another State, the city 
limit is right--just 19 miles away. I don't want anyone to 
believe, unless you say differently, that even if those 
prisoners were found to be illegally imprisoned, that they will 
be taken down to Main Street in Kansas City, Missouri, or any 
other city, and released. Is it not true that a person who was 
illegally in this country and arrested, whether they were found 
guilty or not, would be deported? Am I correct?
    Secretary Napolitano. Sir, let me just say, this is a 
hearing on the fiscal year 2010 budget request. I just don't 
think I can speak to the Gitmo issues in a public setting like 
this.
    Mr. Cleaver. I understand. I don't want you to speak to it, 
and I don't want to come to a secret meeting. I fear that we 
will be making statements in a public statement that causes 
people in the public to believe these people may be turned 
loose on our streets. What I know, a nonlawyer, that is not 
true. I just had the need to say that I don't want to talk 
about any other details. I am concerned about sending out bad 
information. I am 100 percent correct, as a nonlawyer, that I 
am correct.
    Secretary Napolitano. I would just prefer not to comment at 
this time.
    Mr. Cleaver. Thank you. I editorialized. My concern is 
about the E-Verify program, which I am assuming is under ICE, 
budgeted under ICE, is it?
    Secretary Napolitano. I believe so, yes. There is $112 
million requested for E-Verify.
    Mr. Cleaver. Early on, I guess in 1997 when the program 
first started, there were questions about its accuracy and so 
forth. It is my understanding that most, if not all, of those 
problems have been corrected.
    Secretary Napolitano. Yes, sir. Let me just say as Governor 
of Arizona I signed probably the Nation's toughest employer 
sanctions law, which basically gave an incentive to employers 
to use E-Verify. We used it extensively through State 
government and it gets better and better all the time. It is a 
very easy system to use.
    Mr. Cleaver. Is it possible for someone on your staff who 
can run--at least me--there may be other Members who would like 
to become familiar with it so that we can better answer 
questions back in our district.
    Secretary Napolitano. Absolutely. We would be happy to give 
you a demonstration.
    Mr. Cleaver. I would appreciate that, Mr. Chairman. I 
appreciate your presence. I will yield back the balance of my 
time.
    Chairman Thompson. Thank you very much. For the committee, 
we will take one other Member, Mr. Bilirakis, for 5 minutes. We 
will recess. We have three votes. Reconvene shortly after the 
third vote. The Secretary is scheduled to be with us until 
12:30, so we will go until 12:30.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. Welcome, Secretary. I believe we should do 
everything in our power to ensure that employers are not hiring 
illegal aliens, especially when it comes to Homeland Security 
contracts and, again, on E-Verify. I received a letter from the 
assistant secretary of Legislative Affairs on April 17 
regarding the use of stimulus funds by the Department, which 
says DHS gives preference to prospective contractors based on 
the extent to which they use E-Verify.
    I have several questions, a couple of questions anyhow on 
this. Does this mean that the Department refrains from awarding 
contracts to employers that do not use E-Verify, or just 
prioritizes contracts for those that do? Do you believe that 
the use of E-Verify should be mandatory for Government 
contractors and subcontractors doing business with DHS?
    Secretary Napolitano. Representative, I believe E-Verify 
needs to be an integral part of our immigration law enforcement 
moving forward. The system needs to be easy to use. It needs to 
be efficient for prospective employers and employees, because 
we don't want people unfairly denied work because of E-Verify. 
But I believe that we will be increasing E-Verify's capacity, 
capability. I believe that the White House is now considering 
the rule about all contractors for the Federal Government. With 
respect to Department of Homeland Security, I do not know of 
contracts that do not provide for the use of E-Verify.
    Mr. Bilirakis. Why is there a delay by the administration? 
Can you answer that question?
    Secretary Napolitano. I think the concern was whether the 
capacity of the E-Verify system was big enough to handle a 
universal rule on all contractors, or whether actually that 
requirement would delay stimulus money getting out into the 
economy and jobs being created.
    Mr. Bilirakis. Can you estimate as to when the program will 
be implemented?
    Secretary Napolitano. I believe the next deadline is in 
June; we will get back to you on that. But in the White House 
they are looking at the capacity of all agencies to implement.
    Mr. Bilirakis. Okay. Thank you very much.
    Chairman Thompson. Will the gentleman yield back? Thank 
you. Well, the next person is Mr. Green, if you promise not to 
take but 2 minutes. The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for appearing. I want to congratulate you and I want 
to say to you that I will also pray for you. I trust that 
things will go well. You have a great history. You are a real 
patriot, and the country is blessed to have you and we look 
forward to working with you.
    I will go to page 19 of what I believe has been distributed 
as the proposed budget. On that page, under Transportation 
Threat Assessment and Credentialing, there is an indication 
that we have $216 million for this. That is a 37 percent 
increase, and the indication is that 53--excuse me, I will shut 
this down. We have $53.3 million, which is the increase that we 
will have for this area. I want to just read the last sentence, 
which is what I agree with.
    ``Given the past problems associated with the TWIC program, 
it is highly recommended that TSA use these funds to improve 
the efficiency and timeliness of the program.'' I just want you 
to know I agree completely with that sentence because a TWIC 
card has been the subject of some discussion at the committee 
level.
    With that, I will yield back the balance of my time. Thank 
you.
    Secretary Napolitano. Thank you.
    Chairman Thompson. Thank you. The committee stands in 
recess for three votes and we will reconvene shortly.
    [Recess.]
    Chairman Thompson. We would like to reconvene the hearing 
on the DHS budget. We will now recognize the gentlelady from 
California, Ms. Harman, for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for really excellent and helpful testimony this 
morning, substantive answers to questions, and for your visit 
last month to the Los Angeles area where several of us went 
with you to see LAX, the top terror airport target in the 
country, and the ports of that Los Angeles and Long Beach which 
is where 50 percent of our vulnerable container traffic moves, 
and then the JRIC, the Joint Regional Intelligence Center, 
which is the Los Angeles fusion center and gets pretty high 
marks as these things are reviewed.
    I know you took a lot of the information to heart and I see 
a lot of it reflected in your budget. I want to ask you about 
three areas, but I want to make one comment on Gitmo which has 
come up in several questions. I know you are not going to 
respond. This is just a comment by me.
    In today's news, it says that the six Miami men charged 
with conspiring with al Qaeda have--five of those men have been 
convicted in a U.S. Federal court.
    I just want to observe that we have a pretty good record in 
this country in recent years of convicting people charged with 
the crime of terrorism, and some are U.S. nationals and some 
are foreign nationals. I have every confidence that we are able 
to do this well in U.S. Federal courts and in U.S. military 
courts. That is just a statement.
    Moving along to three areas that I want to ask you about: 
One, the intelligence and analysis budget is mostly classified. 
It is not here. What is unclassified is in the budget we are 
looking at; and I support, of course, the activities in the 
unclassified budget. But I would like to tell you again, Madam 
Secretary, how opposed I am to any money spent on the so-called 
National Applications Office, which is an office that would 
deploy military satellites over the United States for certain 
homeland security purposes. I think existing law is adequate. I 
don't think we need a new office at the Homeland Department. I 
absolutely believe that the authorities designed by your 
predecessor were inadequate. I know you are reviewing this, but 
I thought you should hear one more time how strongly I feel 
about it.
    Secretary Napolitano. Representative, on that, we are 
reviewing NAO and we also are doing a privacy review related to 
NAO just for your information.
    Ms. Harman. Good. Well, I appreciate that. I think money 
would be better spent on priorities you have already 
identified.
    Let me just mention two other issues. One, in this budget, 
there are--there is no request of funds for the exit component 
of the US-VISIT program for fiscal year 2010. You may be 
planning to use a $30 million carryover account to complete two 
pilot projects, but when we were in LAX together--let me put 
both my questions out. When we were in LAX together, we noticed 
that the ingress portion of US-VISIT is fairly robust and we 
are working on it, but the egress portion is zero. This is the 
largest destination airport, I believe, international 
destination airport in the country. So there is lots of 
opportunity for us to learn better where the people we have 
processed into the country are going, and whether they are 
overstaying visas and doing other things we might object to. So 
I want to ask you about funding the exit portion of US-VISIT.
    Second, you provide funds to send DHS representatives to 
every fusion center in the United States. There are 70 such 
centers. I think that is a great initiative. But we could not 
find any reference to privacy and civil liberties training, 
which is a component, I know we all agree, needs to be a 
central part of what personnel and fusion centers, whether they 
are DHS personnel or local personnel, do.
    The last thing which I do want to put on the table is small 
boats. They are a potential vulnerability at our major ports 
and our smaller ports. Again, we don't see a specific 
initiative here, when at least it has occurred to me over some 
years, and to your predecessor, Michael Chertoff, that small 
boats and general aviation were very logical ways that bad 
things could be brought into our country.
    Secretary, answer these questions briefly. My time--I still 
have 18 seconds.
    Secretary Napolitano. I will be brief. On exit, yes. I am 
looking at the exit issue more holistically. We have got to 
have a way to know not only who came in but who has left, and 
to match those things up. So we are working on that.
    Small boats, there is active work being done Department-
wide in the Federal Government on that. With respect to 
deployment to the fusion centers, yes, I have asked the 
people--we have brought--we have actual money in the civil 
rights and civil liberties part of the office. It is reflected 
in the request for the Administrative Office of the Secretary. 
A part of that is designed to allow us to do more training.
    Ms. Harman. Thank you very much, Madam Secretary. Smart 
women solving problems is exactly what we need, I think. Do you 
agree?
    Chairman Thompson. The gentlelady's time has expired, but I 
agree. We will now recognize the gentleman from Georgia for 5 
minutes, Mr. Broun.
    Mr. Broun. Thank you, Mr. Chairman. Madam Secretary, thank 
you for coming today. I know that we are all concerned about 
the safety and security of this Nation. Madam Secretary, in 
your opening statement you talked about the threat of 
terrorism, securing our borders, and effective law enforcement. 
I couldn't agree with you more. There are too many issues that 
I would like to bring up now, but we don't have time. But I 
would like to address a few.
    First, I would like to associate myself with Mr. Lungren's 
comments about the danger of releasing terrorists on American 
soil. Please don't do that. The threat is very real, and I am 
looking forward to hearing an actual plan for what the 
President intends to do with the terrorists that are being 
detained in Guantanamo.
    Second, I would like to talk about oversight. Congress, and 
this committee in particular, has responsibility to oversee 
your Department. We would like to be as helpful and effective 
as possible. However, Members of this committee have waited far 
too long for the inspector general, where millions, even 
billions of dollars are at stake, and that is completely 
unacceptable. I would like to ask you if the increasing funding 
requested for the IG is going to be sufficient and if Members 
on this committee can expect more timely responses to their 
request?
    Secretary Napolitano. Representative, I believe firmly in 
the rule of an inspector general, particularly with a 
Department like ours that is still being built--it is like a 
plane that we are building while we are flying it. That is why 
we requested additional funds there. We have a lot of oversight 
in our committee--in our Department. In fact, one of the 
recommendations of the 9/11 Commission was for Congress to 
reorganize itself to streamline the oversight so that we were 
not consistently responding to myriad requests.
    I want to be with this committee, which I believe is our 
central authorizing committee in the House of Representatives, 
as open and responsive and as timely as we can humanly be. We 
have asked for additional resources to assist us with that.
    Mr. Broun. I hope that is so. There have been multiple 
requests made that have not been timely, and please see, if you 
can, see that they are. While I recognize the importance of 
staffing increases on the southwest border, I think it is 
important that our efforts on the border do not in any way 
detract from ICE's interior enforcement mission in other 
regions, such as mine in Georgia.
    Unfortunately, it appears that in the fiscal year 2010 
budget, it fails to request any additional ICE investigators in 
other areas. That, combined with new guidelines to focus all 
work-site enforcement on the employers, will significantly 
weaken ICE's ability to conduct enforcement operations. In my 
home State, the ICE personnel are overwhelmed by the different 
investigative missions and definitely need more staff.
    What is the rationale for requesting no additional ICE 
investigative resources outside the southwestern border?
    Secretary Napolitano. First of all, I am a strong ICE 
enforcement person. I think that is one of the reasons I was 
brought into this Department. I have been doing immigration 
prosecutions and supervising that sort of work for a number of 
years. So I don't want to leave any impression of a false 
dichotomy that if you do the border, you can't do the interior. 
You have to do it all, because you can't have a system where 
the border is kind of like a gauntlet and if you get through 
it, you are free.
    We want interior enforcement as a system backing up all of 
the work that we are doing at the border. One area that you 
should look at is that one of the areas we have plussed-up on 
ICE, because I believe also in an effective and efficient law 
enforcement, and all enforcement of immigration doesn't require 
an investigative agent per se.
    For example, on the work-site side, we are adding I-9 
auditors. These are people that will actually go in and audit 
the immigration forms employers are required to have. They are 
lower paid, quite frankly, than agents. Their work, however, 
will help us direct which employers deserve or merit further 
attention by the higher-paid employees. So even as we look at 
work-site enforcement, we are saying, okay, how do we staff it 
appropriately to get the best yield for the dollars that you 
are supplying?
    Mr. Broun. Thank you, Madam Secretary. I have one final 
comment before my time runs out. During your testimony, you 
talked about securing the border, and I think it is absolutely 
critical for national security to do that. The message I am 
getting out of the administration is that is not going to be 
done. We see no funds to further the fencing and things like 
that, and I just hope that you as Secretary will be a very 
strong advocate for securing both borders and not to giving 
amnesty to the criminals here in this country already. Thank 
you, Madam Secretary.
    Secretary Napolitano. Sir, may I make a point about the 
fence, however. Just to be very clear, we are completing the 
fence that has already been appropriated. We are adding 
technology; the virtual fence now, the first big section is 
underway. We have now approved the technology, some of the 
glitches that occurred before have been corrected. So that will 
be underway. This budget does not prevent us from doing some 
more fencing as a part of a tactical infrastructure with 
technology and boots on the ground in other parts of the 
border. But I have never believed, and have testified before, 
that simply a fence from Texas or from Brownsville over to San 
Diego will by itself be effective. We have to have a system.
    Mr. Broun. I agree with that, Madam Secretary. In fact I 
visited P-28 last year with this committee, and was impressed 
with the possibility of doing that. I understand some of the 
problems that are involved there, and I just hope that we push 
forward and get this done so that we secure our border. I think 
it is absolutely critical for national security.
    Thank you, Madam Secretary. My time has expired. Thank you.
    Chairman Thompson. We now recognize the gentleman from 
Pennsylvania for 5 minutes. Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman. Madam Secretary, thank 
you for showing up today. I have a couple of questions, but 
first I did want to kind of follow on the discussion you had 
with Mr. Dent about the extremist report. I would be remiss, 
also as a veteran, to say that I took offense at that 
personally. The one in three households in my district did as 
well. I really want to understand the process here on how that 
got out. You told Mr. Dent that you did not authorize that, the 
release of that.
    Secretary Napolitano. It was not authorized for release; 
that is correct.
    Mr. Carney. What happened?
    Secretary Napolitano. Sir, it was a product that was being 
circulated in I&A. We know--first of all, let me be very clear. 
It is not the only report out there that says veterans are 
targeted for recruitment. It was an assessment, not an 
acquisition. We have and are working with veteran groups----
    Mr. Carney. It didn't say that.
    Secretary Napolitano. That is right. That is why it 
shouldn't have gone out. We apologized for it. The report is no 
longer available and we have put in place processes to make 
sure that does not recur.
    Mr. Carney. That didn't answer how it got out in the first 
place.
    Secretary Napolitano. It went out because an employee sent 
it without authorization.
    Mr. Carney. Is that employee still an employee?
    Secretary Napolitano. Appropriate personnel action is being 
taken.
    Mr. Carney. Thank you. How many members of the Department 
of Homeland Security are actually veterans, do you know?
    Secretary Napolitano. You have the Coast Guard which are 
active; it is over 25 percent, including the Department 
Secretary.
    Mr. Carney. Good. I wonder what their take on it was as 
well. I will change the topic here in a second. I just have to 
calm down a little bit. But it was--it really hit home hard to 
me and to our district and to a number of others, frankly. This 
is not a good start.
    When I go to town hall meetings and I hear people calling 
for your resignation, it is really a problem. We have got to 
address this; we really do.
    I know you apologized to the American Legion. That is a 
great first step. But there are a lot of other veteran groups 
out there. I don't know if you have reached out to them as 
well.
    Secretary Napolitano. We have.
    Mr. Carney. Okay. Good. It is just kind of a pall hanging 
over things.
    Secretary Napolitano. Representative, one of the things 
that we have talked with particularly the American Legion about 
is how we provide at the Department of Homeland Security 
opportunities for veterans who are returning for work, because 
they are a great employment source for us. They are well-
trained, they want to serve their country, they have already 
demonstrated that by their military service. So sometimes, to 
use the cliche, you have to make lemonade out of a lemon. Now 
we are working with making sure that DHS is helping them with 
job fairs and opportunities of that sort so that we continue 
our linkage with the veterans community.
    Mr. Carney. Thank you. I had a question on UAVs and the 
border. What is the status of that program? Where are we?
    Secretary Napolitano. There are UAVs being used on the 
border.
    Mr. Carney. How many?
    Secretary Napolitano. I can't give you a number at any 
given time, but we are using them as part of our process of 
securing and having operational control there.
    Mr. Carney. If you could get a more detailed account from 
your staff, that would be great. Are you manned up enough? Do 
you have enough pilots? Do you have enough analysts on the 
ground to do the job?
    Secretary Napolitano. We believe we do. We believe the 
budget request is adequate to fill those needs.
    Mr. Carney. Okay. No further questions.
    Ms. Jackson Lee. Would the gentleman yield for a minute? 
Let me apologize to the Chairman and to the--and I am just 
going to raise questions that I hope we will have a 
conversation. I am only asking to yield because I am in mark-
up, and I will conclude quickly.
    I thank you very much. Madam Secretary, I just want to get 
back with you on some issues dealing with TSA in terms of their 
expanded duties at airports.
    Chairman Thompson. Ms. Jackson Lee, it is a problem for you 
to come in and get in front of a lot of the other Members who 
have been here for 3 hours. So I am going to----
    Mr. Carney. I will yield back to the Chair.
    Ms. Jackson Lee. I will just say that I will ask the 
questions on the record. I didn't mean to be a problem. I am 
just in mark-up. So thank you very much.
    Chairman Thompson. The gentleman from Louisiana for 5 
minutes, Mr. Cao.
    Mr. Cao. Thank you very much, Mr. Chairman. First of all, 
Madam Secretary, I would like to thank you for the trip that we 
made together down to New Orleans. I thought it was quite 
productive. I would like to commend you on the changes that you 
made with respect to the local TRO office. They have been much 
more efficient and much more cooperative in bringing PW 
projects forward.
    My main concern now is with the appeal process. As you 
know, prior to Katrina, Charity Hospital was the main provider 
for indigent care. After Katrina, much of that care was took 
upon by local hospitals, and they incurred hundreds of millions 
of dollars in debt. Touro Hospital, for instance, was 
threatened with foreclosure but for its purchase by the State 
Childrens Hospital. FEMA has denied the State of Louisiana's 
first appeal in regards to Charity Hospital. I believe the 
denial has dramatically delayed the recovery of the health-care 
system down there in the Second District and basically 
threatened the system with bankruptcy.
    The appeal process has continually--does not take into 
account the plight of the suffering poor down there in the 
district and the struggles of institutions down there in the 
Second District post-Katrina.
    My question to you is, if you can tell us, what your team 
has done in Region VI that is different from what the Bush 
administration did in regards to PW appeals?
    Secretary Napolitano. Representative, we have done a lot to 
streamline and resolve the appeal process with respect to the 
issues in your district. As you know, there is also now 
arbitration language that Senator Landrieu got enacted. We are 
working with the White House on finalizing the actual process 
by which we will be able to arbitrate claims.
    My hope is that for the things we are unable to resolve--
and we really are trying to resolve as many as we can now--we 
want to move the Katrina recovery forward as expeditiously as 
possible, but we have a responsibility as well. These are 
taxpayer dollars. We are not just given an unending pocket here 
to make sure they go to qualified projects that need to be 
compensated, and there are some legitimate differences of 
opinion. Those ultimately, I believe, will end up in 
arbitration. We want to facilitate that arbitration so that 
decisions are made and people know finally what to do. So we 
are working all hands on deck on that.
    Mr. Cao. You must also understand the frustration of our 
constituents down there in the district. It has been 4 years.
    Secretary Napolitano. I have been in office about 100 days. 
That 4 years was not my watch.
    Mr. Cao. I fully understand that, and just want to again 
reflect the Chairman's position on efficiency. What would be 
the timeline to have this arbitration panel instituted to 
address these issues?
    Secretary Napolitano. We are working to have it done as 
soon as possible.
    Mr. Cao. What is that--would that imply weeks, months?
    Secretary Napolitano. Sir, as soon as possible, but within 
the foreseeable future. I don't want to give you a deadline 
because everybody has to review, okay, and there are lots of 
checks that have to be made. But it is moving expeditiously 
through the process.
    Mr. Cao. Okay. With respect to the appeal process itself, I 
know that the decisions are made by the FEMA officer--or FEMA 
agencies, and oftentimes some of those people who denied the 
original applications might be deciding the appeal process. Is 
there a system for a more efficient and objective determination 
in the appeal process?
    Secretary Napolitano. Well, the appeal process is set--the 
technical appeal process is set by regulation. It has worked 
well in many areas and in many instances. But I think Katrina 
is so unusual in scope and the like that the arbitration add-on 
and augmentation is going to be very helpful not only to 
resolve things quickly, but to give people a sense that they 
really had their shot.
    Mr. Cao. Thank you very much. I yield the remainder of my 
time, Mr. Chairman.
    Chairman Thompson. Thank you very much. We now recognize 
the gentlelady from Nevada, Ms. Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here. I would like to tell you as a former 
State legislator I was very glad to see in this budget and hear 
your comments about the REAL ID program, because it was 
estimated in Nevada it would have cost us about $66 million to 
try to implement it, and we did see it as an unfunded mandate. 
So I appreciate the direction that is going. I wanted to ask 
you, though, about another program. That is the Model Ports of 
Entry program. McCarren Airport is one of about 20 airports 
that is part of this program.
    I have been talking to officials at McCarran, and they are 
concerned that some of the operations there are dramatically 
understaffed. In just 1 week alone, CBP actions resulted in the 
losses of about $120,000 just for one airline because they had 
to delay and cancel some flights. So I just wonder, I am sure 
this is the case probably for other airports and some of our 
airlines are kind of threatening not to fly to Las Vegas 
because it is such a problem, and we certainly can't lose more 
tourists coming with the state of the economy. I just wondered 
if there is some oversight of this, if you are looking at it, 
if we can have some input about how we are involved in the 
decisions that are made in that program so we won't have that 
kind of problem in the future.
    Secretary Napolitano. Absolutely. If you have information 
that you know of at McCarran, if you would give it to us. But 
we are, yes, looking at that. The last thing we want to do is 
deter legitimate commercial and tourism traffic out of an 
effort out of a pilot. So, yes.
    Ms. Titus. If I could get that information to somebody and 
we could work on that?
    Secretary Napolitano. Exactly, yes.
    Chairman Thompson. Since we only have a few minutes, if we 
can limit to 2 minutes, we might can at least have a question 
or two from the rest of our Members.
    Mr. Olson from Texas.
    Mr. Olson. Thank you, Mr. Chairman. I will do my best to 
limit to 2 minutes.
    Madam Secretary, thank you for coming today, and what has 
become a theme between you and I and the two times you have 
testified here. I would like to talk about FEMA and recovery 
efforts from Ike. Ike is no longer headline news, but the 
recovery continues and in many places it is just beginning, the 
third most destructive hurricane to make landfall in the United 
States, and many of the communities affected by it desperately 
need help. Specifically if the reimbursement deadlines for 
debris removal and the emergency protective measures were 
extended 6 months, it would provide much-needed relief, 
particularly on the Bolivar Peninsula area.
    But, unfortunately, FEMA recently made the decision to deny 
extension requests for Ike recovery efforts, saying only that 
they reviewed the information and decided against it. I must 
point out again that communities affected by Katrina, which was 
an equally devastating hurricane, received numerous deadline 
extensions for both categories. However, with respect to debris 
removal, Texas received only one deadline extension. With 
respect to emergency protective measures, we didn't receive an 
extension at all.
    Please don't observe that this is some sort of complaint 
about Katrina, because that was a very devastating hurricane in 
that region, the most devastating one since Andrew in our 
history. Well, Galveston 1900 was the most devastating one. But 
the point is that Texas did not receive an extension at all. 
All we are asking for is fair and equal treatment.
    Could you give me an insight as to why these deadlines were 
not extended, and what we could do on a Federal level to ensure 
that southeast Texas gets the resources that they need so that 
they can return to a normal life?
    Secretary Napolitano. Representative, there are a number of 
reasons why. Part of it is the amount that had already I think 
been distributed to Texas for that hurricane. In other words, 
it went to the State for distribution out to the communities.
    I would be happy to supply you with a briefing on exactly 
what has gone out already and why those particular extensions 
were not granted.
    Mr. Olson. I would greatly appreciate it. I thank the 
Secretary and yield back my time.
    Chairman Thompson. Thank you very much. The gentlelady from 
California.
    Ms. Richardson. Thank you, Mr. Chairman.
    Madam Secretary, I would like to play a little good cop 
here and use 30 of my seconds. I want to commend you for the 
work that you did with the H1N1 virus, and also make sure that 
although all Members may not have had the ability to have you 
in their district, I have. We can all sit here and throw rocks 
and write in the sand, but I don't think anyone, neither any of 
our constituents can ever say that they haven't ever done 
something that they would have liked to have done something 
differently. We need to judge you on the work that you are 
doing, and the work that you are doing is excellent. I want to 
be on the record in saying that, and that is what we need to 
move forward.
    You have been from California, from Los Angeles to Long 
Beach to San Diego all over the place, and that is how I am 
judging and that is how my constituents are evaluating your 
work. So keep it up. It has been a pleasure having you as our 
Secretary for the short time that you have been there.
    Secretary Napolitano. Thank you.
    Ms. Richardson. The second thing I want to say is to bring 
to your attention that on April 29 we had a TWIC hearing and it 
didn't go very well. I don't know if you heard that. Some of 
the concerns were the lack of--the delay of the TWIC card 
readers. Just the insistence on looking at new technology and 
old delivery fashions and people coming in instead of looking 
in the future. Your representatives spoke about, oh, we are 
looking at this new technology because it can be hot and it is 
outside and raining. I proceeded to share with her that we can 
go to any airport, and you see the folks going in through the 
back, coming in through the terminal, swiping the card which is 
outside, rain, winter, sleet, et cetera.
    So on behalf of the Chairman and our subcommittee, I would 
just urge you to do a double back on what happened in that 
hearing and look at the questions that we brought forward, and 
your addressing it would be very helpful.
    Finally, since this is a budget hearing that we are having 
here, I will just read my two questions in for the record. One 
is that currently we have ships--and I discussed this with you. 
We have ships that the average ship is 5,600 to 6,000 TEUs. The 
larger ships are 10,000, and the even larger ones now are 
14,500. That means that a ship is actually larger than the 
Empire State Building.
    Currently, in our very large ports we are not prepared with 
the appropriate fireboats to put out a major disaster that 
could occur. So, if not in this year's budget, in future 
budgets I would like to have a further discussion and 
consideration of maybe us looking at the top 10 to start or a 
project of the top five. But it is a disaster waiting to 
happen. Those cruise ships, dirty bombs, et cetera, it could be 
disastrous for us all.
    Finally, my second question was in the budget you have an 
increase for K-9s; however, it is, according to my folks, 
primarily focused on ferries. I have a tremendous amount of 
passenger rail, metro rail, again susceptible to all sorts of 
terror, and I would like to see it expanded to include more K-
9s for rail as well.
    Secretary Napolitano. We will work with you on that. Thank 
you very much.
    Chairman Thompson. I would now recognize the gentleman from 
New Mexico, Mr. Lujan, for 2 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    Madam Secretary, it is great to see you again. I appreciate 
how accessible you have been to each of us as Members of 
Congress, but also to the committee on continuing to provide 
information to us.
    Madam Secretary, I would like to begin by first just 
emphasizing the fact of the importance of our firefighters and 
first responders as Mr. Pascrell did. No reason for me to get 
into those details, but to just make sure that we are 
reinforcing the thought that we do need to provide them the 
support and resources they need. We usually don't appreciate 
them until we need them, as we do many of our men and women who 
serve our country in different capacities, and we need to 
continue to thank them every day.
    Madam Secretary, as I have done in the past visiting with 
you specifically about the national laboratories and our 
ability to engage with them, to utilize the technological 
capabilities that we have to be able to strengthen the tools 
and resources that you will need and all the personnel that you 
are responsible with providing them the tools and resources 
they need to do their jobs effectively. Recently, Madam 
Secretary, I was able to visit with you about taking advantage 
and moving forward with utilizing the National Infrastructure 
Simulation and Analysis Center, NISAC, out of New Mexico, and I 
appreciate the fact that we are taking advantage of their 
capabilities.
    In the area of cybersecurity, though, because of some of 
the modeling capabilities that NISAC can present I would 
encourage you to explore opportunities within the Department to 
see how we could take advantage of the capabilities in that 
regards, specifically with cyber attacks, that we could 
probably help provide some additional information and 
protection with. I am encouraged by the fact of what we have 
seen in the budget in these specific instances.
    I would just like to close, Mr. Chairman, Madam Secretary, 
with making sure that we are looking to see how some of the 
small businesses who have done a great job of developing 
technologies, moving forward with providing some of the support 
that we need to keep our ports safe, to keep roads safer, 
whether they are looking at cargo, whatever mechanism that they 
are utilizing to assist us in that way, that we are encouraging 
and we are making sure that they are providing an opportunity 
to be able to compete with some of those that may be larger and 
have more resources to keep them out of playing in this field 
and providing their expertise. So making sure, Mr. Chairman, 
that we are really looking to see how we could support both 
women and minority small businesses with the technological 
capabilities that they have been able to bring forward and help 
provide us with support with.
    Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you.
    I now yield to the gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    It is good to see you again, Madam Secretary.
    Secretary Napolitano. Yes.
    Ms. Clarke. Earlier this session, the House unanimously 
passed H.R. 559, which is what we call the Fast Redress Act of 
2009. This legislation will require the Department of Homeland 
Security to develop a comprehensive cleared list of all lawful 
citizens who are mistakenly labeled as terrorists and placed on 
the do-not-fly list or the watchlist. The President's budget 
acknowledges that this is a huge problem, and has requested 
$1.3 million and one full-time employee for the management of 
the DHS TRIP, Travel Redress Inquiry Program.
    How will the additional funding and staffing allocation 
improve the overall effectiveness of the program? How many 
employees are currently dedicated to the program? Additionally, 
does the President's budget discuss the centralization of the 
DHS TRIP processing system? Can you please explain what this 
centralization entails, and how will it work with secure flight 
in the future?
    Secretary Napolitano. The answer is yes. But I think, given 
the time constraints, what I would like to do is arrange for a 
briefing for you and we will work with you on the bill that is 
moving over to the Senate on this issue.
    The goal, obviously, is to remove people from the lists who 
don't need to be there so that we can focus on those who do.
    Ms. Clarke. Mr. Chairman, just in closing, it has really 
become a very serious problem out there for many Americans who 
are traveling of Muslim descent, Asian, South Asian, Middle 
Eastern, Caribbean, Irish American, children. I mean, it is 
cutting across the board, and it is really, I think, a point 
where we should be modernizing the system so that we are not 
misidentifying so many people. They feel very threatened by the 
process and very stigmatized by it.
    Secretary Napolitano. Yes. I think there, Representative, 
one of the things, there are different lists, as you know, and 
different processes by which one's name gets on a list. But 
where we are focused now not only is on who gets on it, but how 
quickly we can resolve removing someone who is mistakenly on a 
list.
    Chairman Thompson. Thank you very much.
    Madam Secretary, two items. One is Mr. Cao, who has had to 
leave, FEMA did change its appeal process last year because 
there were so many things happening in Louisiana. So there is 
an independent body that addresses that, and I think you will 
see some legislation really making that law going forward.
    The last question for me is there has been a lot of 
questions around FEMA asked today. The issue for this committee 
is whether or not it is your opinion or the administration's 
opinion that FEMA should stay in DHS or should be taken out. 
What is your position? What is the administration's position? 
Do you care to comment?
    Secretary Napolitano. Yes. Thank you, Mr. Chairman. As you 
know, the Senate just confirmed the new administrator for FEMA 
last night, Craig Fugate, so we now have an administrator who 
has an extensive background in emergency management in Florida. 
But it is my position, it is the position of the administration 
that FEMA should remain within the Department of Homeland 
Security.
    Chairman Thompson. Thank you very much. Madam Secretary, 
thank you for being generous with your time. The hearing is 
adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Chairman Bennie G. Thompson of Mississippi for Janet 
              Napolitano, Secretary, Department of Defense
    Question 1. We have spoken in the past about the need for DHS to do 
a better job of contracting with small and minority businesses. They 
often have the talent and capabilities to make significant 
contributions to the operations of the Department but are shut out. As 
I look at your $55 billion budget request for fiscal year 2010, I can't 
help but think about the stimulative impact that DHS could have if it 
went the extra mile and sought out small and minority businesses for 
contracting opportunities. After all, small business is the engine of 
our economy. It is critical that DHS's acquisitions provide greater 
access to these companies. Access merely means an open door--not a 
hand-out. What processes will you put in place to ensure greater access 
for small and minority businesses?
    Answer. DHS has a robust small business program as demonstrated by 
``green'' scores from SBA's annual scorecard for the past 2 years 
(Attachment 1).
    We currently have numerous initiatives underway that will increase 
small business participation and build upon our achievements:
  <bullet> DHS PACTS (Program Management, Administrative, Clerical, and 
        Technical Services) is a multiple-award indefinite-delivery 
        indefinite-quantity (IDIQ) contract vehicle set aside 
        exclusively for service-disabled, veteran-owned small 
        businesses. The estimated value of all contracts is $1.5 
        billion over 5 years.
  <bullet> Coast Guard Multiple-Award Construction Contracts. IDIQ 
        contracts for construction work will be awarded this fiscal 
        year. Ten regions in the USA will each have contracts awarded 
        under one of the socio-economic programs (8(a), HUBZone and 
        Service-disabled veteran-owned). The 8(a) contracts are for 
        small minority-owned businesses, the HUBZone contracts are for 
        small businesses located in economically distressed areas, and 
        the service-disabled veteran contracts are for small businesses 
        owned by service-disabled veterans. The estimated value of all 
        contracts is $3.5 billion over 5 years.
  <bullet> EAGLE II. Currently in the planning phase, this suite of 
        IDIQ contracts for information technology services will include 
        opportunities for all of the Federal small business contracting 
        categories. The estimated value of all contracts is $10-15 
        billion over 5 years.
  <bullet> Outreach. DHS currently hosts monthly vendor outreach 
        sessions in the Washington, DC, area as well as annual regional 
        sessions. In addition, members of the Office of Small and 
        Disadvantaged Business Utilization (OSDBU) have a vigorous 
        outreach schedule each year, visiting most areas of the USA. 
        OSDBU members present seminars on how to conduct business with 
        DHS, meet individually with vendors, provide business 
        counseling.
  <bullet> Forecast of Contract Opportunities. In addition to an annual 
        publication we now have the information on-line in real time. 
        Opportunities are listed for the current fiscal year as well as 
        on-going contracts are included for planning purposes.
  <bullet> Training. We will continue to educate program managers and 
        contract specialists in the small business programs by 
        conducting customized small business specialists to disseminate 
        information, working with SBA to provide training on the latest 
        trends affecting small business contracting, and work with the 
        Office of the Chief Procurement Officer to issue Acquisition 
        Alerts, as needed, on small business topics for the acquisition 
        workforce.
  <bullet> Small Business Review. Contracting Officers, Small Business 
        Specialists and the program or requesting offices in each 
        component work together to review each open market procurement 
        anticipated to exceed $100,000 for small business contracting 
        possibilities, considering the use of the 8(a) program, HUBZone 
        small business set-asides, service-disabled veteran-owned small 
        business set-asides, and small business set-asides. In 
        addition, Contracting Officers, Small Business Specialists and 
        the program or requesting office review contracts as they come 
        up for re-competition if market conditions have changed, 
        contracts that were not originally set aside for small 
        businesses may be re-evaluated, and the use of multiple-award 
        contracts where some or all of the work can be reserved for 
        small business participation may also be considered. Attached 
        is a copy of the DHS Small Business review form 700-22 
        (Attachment 2) that Contracting Officers, Small Business 
        Specialists and the program or requesting office use in 
        evaluating each contracting opportunity and becomes part of the 
        individual contract file.
   ATTACHMENT 1.--FISCAL YEAR 2009 YEAR TO DATE (YTD) FEDERAL SMALL 
  BUSINESS PRIME CONTRACTING COMPARISON FOR THE TOP FIVE DEPARTMENTS 
                   BASED ON TOTAL PROCUREMENT DOLLARS
    (source: fpds-ng small business goaling report as of 06/02/2009)

                           top 5 departments

------------------------------------------------------------------------
                                                  Fiscal Year 2009 Year-
             Rank               Department Name       to-Date Total
                                                 Procurement Dollars \1\
------------------------------------------------------------------------
1............................  Department of         $119,707,187,369.96
                                Defense (DOD).
2............................  Department of           24,318,550,974.08
                                Energy (DOE).
3............................  National                 9,625,833,052.09
                                Aeronautics and
                                Space
                                Administration
                                (NASA).
4............................  Department of            7,704,864,530.54
                                Homeland
                                Security (DHS).
5............................  Health and Human         7,465,747,156.85
                                Services (HHS).
------------------------------------------------------------------------
\1\ Note: These five departments account for about 86% of total prime
  Federal procurement dollars of fiscal year 2009 year-to-date based on
  SBA's small business reporting procedures and the FPDS-NG small
  business goaling report (about $169 billion out of about $197
  billion).

                                history
  <bullet> In a comparison of the Top Five departments for fiscal year 
        2009 year-to-date based on total procurement dollars, DHS is 
        ranked first in every small business category.
  <bullet> DHS is the newest Federal department. Here is a summary of 
        the Top Five indicating the year in which operations started:

------------------------------------------------------------------------
                                                                 Year
                       Department Name                        Operations
                                                                Started
------------------------------------------------------------------------
Department of Defense (DOD).................................        1947
Department of Energy (DOE)..................................        1977
National Aeronautics and Space Administration (NASA)........        1958
Department of Homeland Security (DHS).......................        2003
Health and Human Services (HHS).............................        1980
------------------------------------------------------------------------

 fiscal year 2009 ytd small business prime contracting accomplishments
  <bullet> Explanation: Calculated by Percentage of Total Procurement 
        Dollars for small businesses of all types: (SB) Small Business, 
        8(a), (SDB) Small Disadvantaged Business, (HUBZone) 
        Historically Underutilized Business Zone Small Business, 
        (SDVOSB) Service-Disabled Veteran-Owned Small Business, (VOSB) 
        Veteran-Owned Small Business, and (WOSB) Women-Owned Small 
        Business.
  <bullet> Government-wide goal for this category = 23%; DHS goal = 
        31.9%.

------------------------------------------------------------------------
                                                              Results by
                Rank                      Department Name     Percentage
                                                                  (%)
------------------------------------------------------------------------
1...................................  Department of Homeland     33.2758
                                       Security (DHS).
2...................................  Department of Defense      18.1882
                                       (DOD).
3...................................  Health and Human           13.9285
                                       Services (HHS).
4...................................  National Aeronautics       12.0999
                                       and Space
                                       Administration (NASA).
5...................................  Department of Energy        3.3293
                                       (DOE).
------------------------------------------------------------------------

      fiscal year 2009 ytd 8(a) prime contracting accomplishments
  <bullet> Government-wide goal for this category = N/A; SBA has 
        determined that 8(a) results are part of the overall SDB 
        category since all 8(a) firms are SDBs by definition; however, 
        to maintain our commitment to the 8(a) program, DHS set a 4% 
        goal in this category; further, the 8(a) category appears as a 
        data field in the FPDS-NG small business goaling report.

------------------------------------------------------------------------
                                                              Results by
                Rank                      Department Name     Percentage
                                                                  (%)
------------------------------------------------------------------------
1...................................  Department of Homeland      6.8616
                                       Security (DHS).
2...................................  Health and Human            2.9293
                                       Services (HHS).
3...................................  National Aeronautics        2.7563
                                       and Space
                                       Administration (NASA).
4...................................  Department of Defense       2.6215
                                       (DOD).
5...................................  Department of Energy        0.4542
                                       (DOE).
------------------------------------------------------------------------

   fiscal year 2009 year-to-date small disadvantaged business prime 
                      contracting accomplishments
  <bullet> Government-wide goal for this category = 5%; DHS goal = 8% 
        [4% for 8(a) and 4% for SDB prime contracts outside of the 8(a) 
        program for an overall SDB goal of 8%]

------------------------------------------------------------------------
                                                              Results by
                Rank                      Department Name     Percentage
                                                                  (%)
------------------------------------------------------------------------
1...................................  Department of Homeland     14.7954
                                       Security (DHS).
2...................................  National Aeronautics        6.3301
                                       and Space
                                       Administration (NASA).
3...................................  Health and Human            5.8048
                                       Services (HHS).
4...................................  Department of Defense       5.1107
                                       (DOD).
5...................................  Department of Energy        0.9048
                                       (DOE).
------------------------------------------------------------------------

fiscal year 2009 year-to-date hubzone small business prime contracting 
                            accomplishments
  <bullet> Government-wide goal for this category = 3%; DHS goal = 3%.

------------------------------------------------------------------------
                                                              Results by
                Rank                      Department Name     Percentage
                                                                  (%)
------------------------------------------------------------------------
1...................................  Department of Homeland      2.9141
                                       Security (DHS).
2...................................  Department of Defense       1.7213
                                       (DOD).
3...................................  Health and Human            0.9858
                                       Services (HHS).
4...................................  National Aeronautics        0.6371
                                       and Space
                                       Administration (NASA).
5...................................  Department of Energy        0.0700
                                       (DOE).
------------------------------------------------------------------------

  fiscal year 2009 year-to-date service-disabled veteran-owned small 
               business prime contracting accomplishments
  <bullet> Government-wide goal for this category = 3%; DHS goal = 3%.

------------------------------------------------------------------------
                                                              Results by
                Rank                      Department Name     Percentage
                                                                  (%)
------------------------------------------------------------------------
1...................................  Department of Homeland      1.7900
                                       Security (DHS).
2...................................  National Aeronautics        1.4207
                                       and Space
                                       Administration (NASA).
3...................................  Department of Defense       0.9407
                                       (DOD).
4...................................  Health and Human            0.6985
                                       Services (HHS).
5...................................  Department of Energy        0.4200
                                       (DOE).
------------------------------------------------------------------------

   fiscal year 2009 year-to-date veteran-owned small business prime 
                      contracting accomplishments
  <bullet> Government-wide goal for this category = N/A; although there 
        is no Government-wide goal for VOSB participation (only 
        SDVOSB), in accordance with FAR 4.602, Federal agencies are 
        required to collect this data; also, the VOSB category appears 
        as a data field in the FPDS-NG small business goaling report.

------------------------------------------------------------------------
                                                              Results by
                Rank                      Department Name     Percentage
                                                                  (%)
------------------------------------------------------------------------
1...................................  Department of Homeland      5.1123
                                       Security (DHS).
2...................................  National Aeronautics        2.9364
                                       and Space
                                       Administration (NASA).
3...................................  Department of Defense       2.3929
                                       (DOD).
4...................................  Health and Human            1.9600
                                       Services (HHS).
5...................................  Department of Energy        0.6085
                                       (DOE).
------------------------------------------------------------------------

    fiscal year 2009 year-to-date women-owned small business prime 
                      contracting accomplishments
  <bullet> Government-wide goal for this category = 5%; DHS goal = 5%.

------------------------------------------------------------------------
                                                              Results by
                Rank                      Department Name     Percentage
                                                                  (%)
------------------------------------------------------------------------
1...................................  Department of Homeland      7.7553
                                       Security (DHS).
2...................................  Health and Human            3.5318
                                       Services (HHS).
3...................................  Department of Defense       2.7115
                                       (DOD).
4...................................  National Aeronautics        1.9283
                                       and Space
                                       Administration (NASA).
5...................................  Department of Energy        0.4663
                                       (DOE).
------------------------------------------------------------------------


                                 ATTACHMENT 2.--DEPARTMENT OF HOMELAND SECURITY
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                                                                   OVERALL GRADE
                                 -------------------------------------------------------------------------------
GREEN...........................      <bullet> DHS achieved 35.34% exceeding its small business goal of 30%.
                                    <bullet> Although DHS did not meet its SDVOSB goal, it did make progress in
                                                                 amount of dollars.
                                                <bullet> DHS exceeded its WOSB, and HUBZone goals.
                                            <bullet> DHS achieved 13.38% exceeding its SDB goal of 8%.
                                 -------------------------------------------------------------------------------
                                                               SMALL BUSINESS GRADE
                                 -------------------------------------------------------------------------------
                                  FISCAL YEAR 2006/   FISCAL YEAR 2006    FISCAL YEAR 2007    MADE PROGRESS?
                                   FISCAL YEAR 2007    SMALL BUSINESS      SMALL BUSINESS
                                   % GOAL              ACHIEVEMENTS        ACHIEVEMENTS
                                 -------------------------------------------------------------------------------
GREEN...........................  30%...............  31.60%              35.34%              N/A
                                                       ($4,410,173,942).   ($3,832,162,724).
                                 -------------------------------------------------------------------------------
                                                               SOCIO-ECONOMIC GRADES
----------------------------------------------------------------------------------------------------------------
SDB                               FISCAL YEAR 2006/   FISCAL YEAR 2006    FISCAL YEAR 2007    MADE PROGRESS?
                                   FISCAL YEAR 2007    SMALL BUSINESS      SMALL BUSINESS
                                   % GOAL              ACHIEVEMENTS        ACHIEVEMENTS
----------------------------------------------------------------------------------------------------------------
GREEN...........................  8%................  10.73%              13.38%              N/A
                                                       ($1,497,052,836).   ($1,453,850,575).
----------------------------------------------------------------------------------------------------------------
WOSB                              FISCAL YEAR 2006/   FISCAL YEAR 2006    FISCAL YEAR 2007    MADE PROGRESS?
                                   FISCAL YEAR 2007    SMALL BUSINESS      SMALL BUSINESS
                                   % GOAL              ACHIEVEMENTS        ACHIEVEMENTS
----------------------------------------------------------------------------------------------------------------
GREEN...........................  5%................  5.31%               7.98%               N/A
                                                       ($933,492,261).     ($845,334,056).
----------------------------------------------------------------------------------------------------------------
HUBZONE                           FISCAL YEAR 2006/   FISCAL YEAR 2006    FISCAL YEAR 2007    MADE PROGRESS?
                                   FISCAL YEAR 2007    SMALL BUSINESS      SMALL BUSINESS
                                   % GOAL              ACHIEVEMENTS        ACHIEVEMENTS
----------------------------------------------------------------------------------------------------------------
GREEN...........................  3%................  3.30%               3.10%               N/A
                                                       ($460,271,935).     ($317,177,978).
----------------------------------------------------------------------------------------------------------------
SDVOSB                            FISCAL YEAR 2006/   FISCAL YEAR 2006    FISCAL YEAR 2007    MADE PROGRESS?
                                   FISCAL YEAR 2007    SMALL BUSINESS      SMALL BUSINESS
                                   % GOAL              ACHIEVEMENTS        ACHIEVEMENTS
----------------------------------------------------------------------------------------------------------------
RED.............................  3%................  1.53%               1.36%               YES
                                                       ($214,054,627).     ($151,512,452).
----------------------------------------------------------------------------------------------------------------
                                                                     CRITERIA
                                 -------------------------------------------------------------------------------
GREEN...........................   THE AGENCY MUST MEET 100% OF ITS SMALL BUSINESS GOAL, 3 SOCIO-ECONOMIC GOALS
                                                     AND MAKE PROGRESS IN THE REMAINING GOALS.
YELLOW..........................  THE AGENCY MUST MEET 90-99% OF ITS SMALL BUSINESS GOAL, 1 SOCIO-ECONOMIC GOALS
                                                       AND MAKE PROGRESS IN REMAINING GOALS.
RED.............................                    DOES NOT MEET THE ABOVE (YELLOW) STANDARDS.
----------------------------------------------------------------------------------------------------------------
PROGRESS DEFINED: SBA USED 1 OF 2 INDICATORS IN DETERMINING WHETHER AN AGENCY MADE PROGRESS ON THEIR SOCIO-
  ECONOMIC GOALS: (1) A PERCENTAGE INCREASE OVER FISCAL YEAR 2006 GOAL ACHIEVEMENT OR (2) FISCAL YEAR 2007 GOAL
  ACHIEVEMENT DOLLARS IS GREATER THAN THE ACHIEVEMENT AVERAGE FOR THE PAST 3 YEARS (FISCAL YEAR 2005-FISCAL YEAR
  2007).


                                                                      ATTACHMENT 3
--------------------------------------------------------------------------------------------------------------------------------------------------------

--------------------------------------------------------------------------------------------------------------------------------------------------------
DHS                                      CURRENT STATUS (As of July 25, 2007)
                                            PROGRESS (As of July 25, 2007)                COMMENTS
--------------------------------------------------------------------------------------------------------------------------------------------------------
Initiative                                         GREEN STANDARDS

--------------------------------------------------------------------------------------------------------------------------------------------------------
SMALL BUSINESS PROCUREMENT........  Green................  _X_Meets the small      Green................  Actions taken this      <bullet> DHS did not
Agency Lead: Kevin Boshears,                                business goal, at                              quarter:                meet its SDVO goal;
 Director, DHS OSDBU.                                       least 3 socio-                                1. The agency has met    however exceeded in
                                                            economic goals, and                            its small business      all others with
                                                            shows improvement in                           goal, 2 additional      progress.
                                                            the remaining 1 goal.                          socio-economic goals,
                                                           _X_Meets all Yellow                             and improved in at
                                                            standards:                                     least one of its
                                                           1._X_Meets the small                            unmet goals.
                                                            business goals, at                            2. The agency has
                                                            least 2 additional                             implemented an
                                                            socio-economic goals,                          aggressive strategy
                                                            and improves in at                             to increase the
                                                            least one of the                               number of
                                                            unmet goals. Credit                            competitively awarded
                                                            can also be given for                          contracts to small
                                                            meeting 4 goals,                               businesses.
                                                            regardless of which                           3. The agency shows
                                                            ones they are.                                 top-level agency
                                                           2._X_Has implemented a                          commitment to small
                                                            strategy to increase                           business contracting
                                                            the number of                                  through internal
                                                            competitively awarded                          scorecards, set-aside
                                                            contracts to small                             strategies, goal
                                                            businesses.                                    performance, and top
                                                           3._X_Has demonstrated                           executive meetings on
                                                            top-level Agency                               a monthly basis.
                                                            commitment to small                           4. The agency has a
                                                            business contracting.                          comprehensive and
                                                           4._X_Has a                                      active small business
                                                            comprehensive small                            plan that is
                                                            business program that                          documented and
                                                            includes written                               regularly updated.
                                                            polices and                                   5. The agency has
                                                            procedures focused on                          built-in goal
                                                            improving the                                  achievement
                                                            competitive                                    requirements in their
                                                            environment and                                executive
                                                            increasing small                               management's
                                                            business                                       performance to ensure
                                                            participation in the                           increased
                                                            procurement process.                           accountability.

                                                           5._X_Has small
                                                            business goal
                                                            achievement as a
                                                            rating element for
                                                            acquisition personnel.
                                                           6._X_Works
                                                            cooperatively with
                                                            SBA on outreach and
                                                            targeting initiatives.
                                                           7._X_Meets deadlines
                                                            for all required
                                                            strategic plans and
                                                            annual reports due to
                                                            SBA.
                                                           8._X_Has a process to
                                                            ensure small business
                                                            data is accurately
                                                            reported in FPDS-NG.
                                                           9._X_Enforces small
                                                            business
                                                            subcontracting plans
                                                            and meets
                                                            subcontracting goals.
                                                                                                          6. The agency's OSDBU
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 2. In September 2006, the Department of Homeland Security 
awarded a contract to Boeing to create a ``virtual fence'' along the 
southwest border using cameras, sensors, and other technology. This 
committee has conducted careful oversight of this program, known as 
SBInet, as well as its two predecessor programs. I can say with little 
hesitation that, to date, we have been disappointed. The Department is 
currently moving forward with its next SBInet deployment, and the 
administration has requested additional funds for fiscal year 2010 for 
the program. As Governor of Arizona, you witnessed the deployment of 
Project 28 in your backyard. Now, as Secretary, what have you learned 
that will help the Department get the ``virtual fence'' right this time 
around?
    Answer. Project 28 (P-28) was a ``proof-of-concept'' technology 
demonstration that provided insights into the operational and technical 
challenges the SBInet team would face in designing, developing, and 
deploying the larger SBInet system. P-28 provided valuable operational, 
technical, and acquisition lessons relative to implementing an 
integrated sensor system for surveillance of the border. P-28 now 
provides an operational capability to Border Patrol agents in the 
Tucson Sector, and since September 2007, the system has assisted agents 
in the apprehension of more than 5,000 illegal border crossers and the 
seizure of over 12,000 lbs of marijuana.
    Many of the lessons learned from P-28 have been factored into the 
planning and design of the SBInet Block 1 system that will be deployed 
in Tucson (TUS-1) and AJO Stations (AJO-1) this year. These include:
  <bullet> The SBInet system design now includes an integrated set of 
        software and hardware to allow streamlined data integration and 
        processing to reduce system latency.
  <bullet> The Common Operating Picture software was upgraded to better 
        detect incoming activities, provide multiple displays, and 
        support unattended ground sensors.
  <bullet> The radar and camera suite were upgraded to new models with 
        improved capabilities.
  <bullet> The system will now use microwave backhaul to communicate 
        video and data, instead of satellites, which will increase 
        bandwidth and reduce system latency.
    Further, a comprehensive test program has been established for 
SBInet in order to ensure that it is deployed both functionally and 
efficiently. Most recently, SBI conducted Systems Qualification Testing 
(SQT) for SBInet Block 1 in December 2008. The SQT identified and 
corrected system errors and allowed the program to complete successful 
testing and proceed with the timely deployment of the TUS-1 and AJO-1 
projects. Furthermore, the system will undergo operational testing in 
early fiscal year 2010 to ensure it meets Border Patrol's operational 
needs. The results of the operational test will be used to advise 
decisions about the pace and extent of further deployments.
    Question 3. Given the troubling accounts by the media, GAO, and 
DHS's own Inspector General of the lack of compliance with detention 
standards at ICE-contracted facilities, which includes inadequate 
medical care--that resulted in multiple deaths, please tell us why the 
President's budget request seems to explore the expansion of detention 
facility privatization?
    Answer. Over the last few fiscal years, ICE is currently assessing 
its Nation-wide detention needs to determine whether ICE's continued 
ownership of seven Service Processing Facilities (SPCs) is in the best 
interests of the Federal Government. DHS will keep the committee 
updated on the results of this review.
    Question 4. As we all know, the Department of Homeland Security is 
accountable for an extremely broad portfolio of mission areas. As we 
have seen, circumstances can shift the emphasis and priorities within 
mission areas. A budget is fundamentally an expression of an agency's 
priorities. With regard to the fiscal year 2010 budget, what would you 
say are the major priorities reflected in your budget request? 
Specifically, is there a common thread that runs through each 
component, department, and program request?
    Answer. The Department of Homeland Security's budget will 
strengthen current efforts that are vital to the Nation's security, 
bolster DHS' ability to respond to emerging and evolving threats, and 
allow DHS to embrace new responsibilities in order to secure the 
Nation. This budget puts forward critical investments in the protection 
of the American people.
    DHS undertakes the mission of securing the United States against 
all threats through five main action areas, each of which is 
strengthened by this budget:
  <bullet> Guarding Against Terrorism--As the founding purpose of the 
        Department and its highest priority, the budget expands DHS 
        efforts to battle terrorism, including detecting explosives in 
        public spaces and transportation networks, helping protect 
        critical infrastructure and cyber networks from attack, 
        detecting agents of biological warfare and building 
        information-sharing partnerships with State and local law 
        enforcement to mitigate threats.
  <bullet> Securing Our Borders--DHS prevents and investigates illegal 
        movements across our borders, including the smuggling of 
        people, drugs, cash, and weapons. The budget seeks to 
        facilitate legal travel and trade while improving border 
        security; these efforts include adding manpower and technology 
        to the southwest border, as well as requests funds for smart 
        security on the northern border.
  <bullet> Smart and Tough Enforcement of Immigration Laws and 
        Improving Immigration Services--DHS welcomes legal immigrants, 
        protects against dangerous people entering the country and 
        pursues tough, effective enforcement against those who violate 
        the Nation's immigration laws. The budget contains funding to 
        strengthen our employment eligibility verification systems, 
        target and crack down on criminal aliens, and expedite the 
        application process for new legal immigrants.
  <bullet> Preparing for, Responding to, and Recovering from Disasters 
        From All Hazards--The Department must aid local and State first 
        responders in all stages of a natural disaster, preparing for 
        the worst, responding to a disaster that has occurred, and 
        recovering in the long run. This budget contains funding to 
        strengthen DHS assistance for local first responders and the 
        communities and families affected by disasters.
  <bullet> Unifying and Maturing DHS--As a young Department, components 
        must further evolve in order to operate as effectively as 
        possible as one agency with a single, unified security mission. 
        The budget contains funding to initiate consolidation of 
        mission support activities that will remain off-site from the 
        St. Elizabeth's campus, reducing the many small and widely-
        scattered leased locations and supporting the goal to build 
        ``One DHS.''
    In addition to these priorities, DHS is employing several cross-
cutting initiatives to strengthen activities in each of these mission 
areas. First, DHS will increase cooperation with State and local law 
enforcement agencies, international allies, the private sector, and 
other Federal departments. Second, the Department will bolster and 
expand its science and technology portfolio. Third, DHS will continue 
to aim for greater efficiency in its operations.
    Question 5. With respect to financial management, you have 
inherited an agency that has some substantial legacy challenges. In the 
fiscal year 2010 budget request, you ask for $11 million to fund a new 
financial management program for DHS.
    Do you believe $11 million to be adequate considering the large 
amount of processes that must be merged for the program to be 
successful?
    What steps are the Department taking to incorporate GAO past 
recommendations into the development of the program?
    Answer. The $11 million requested in the fiscal year 2010 budget 
request is in addition to $29 million in carry-over funds for a total 
of $40 million. The Department believes this is sufficient for the 
initial activities of the Transformation and Systems Consolidation 
(TASC) effort. TASC will be awarded as an Indefinite Delivery 
Indefinite Quantity (IDIQ) contract. Although the system solution is 
yet to be determined, $450 million is the contract ceiling estimate for 
the total value of the work to be performed over the 10-year contract 
life, assuming all option years are exercised. This estimate is 
consistent with other financial system benchmarks within the Federal 
Government. The actual cost of the work will be determined by the 
solution selected through the competitive acquisition process.
    The Department continues to work diligently with the Government 
Accountability Office (GAO) to ensure issues are addressed in a timely 
manner. CFO personnel carefully reviewed all pertinent documentation 
and strategic approaches with this oversight body, and remains 
committed to ensuring the Department is following best practices in 
pursuit of financial management consolidation. As it is implemented 
within DHS, TASC will yield significant cost benefits; eliminating 
redundant hosting/interface requirements as well as reliance on 
proprietary vendor solutions currently used and reducing operations and 
maintenance costs. TASC will help the Department to increase the 
transparency of its financial data and accountability.
    Question 6. Madam Secretary, the President has only requested a 
$1.2 million dollar increase for the Privacy Office. Given the FOIA 
backlog, amount of training done by the office, and the number of 
reports the office produces, the budget provide additional funding? 
Please explain why you are only seeking a $1.2 million dollar increase 
to base and two new employees for this critical office?
    Answer. With an increase of $1.2 million in fiscal year 2010, the 
Privacy Office's budget will total $7.9 million--close to a 50% 
increase since 2008. By fiscal year 2010, the Privacy Office 
anticipates hiring seven additional full-time, Federal employees, 
bringing the total complement for the privacy and FOIA functions to 36 
FTE.
    This budget and workforce level will permit the Privacy Office to 
complete its statutory responsibilities. The Department has already 
shown remarkable progress in reducing the FOIA backlog. Looking ahead, 
the Privacy Office's FOIA staff is adequately staffed to provide the 
guidance necessary to assist the components to further reduce and 
ultimately clear the FOIA backlog.
    Further, the Privacy Office continues to meet all its statutory 
obligations to provide training. The works closely with other Federal 
partners to provide training to a variety of stakeholders including I&A 
analysts as well as for State and local fusion center representatives 
as required under the 9/11 Commission Act.
    Question 7. For fiscal year 2009, the Department received an 
additional $17 million in funding to cover a 53% increase in personnel 
for the Analysis and Operations (from 380 to 583 FTEs). This year, the 
Department is seeking another $17 million but the funds will only cover 
a 19% increase in personnel (from 583 to 699).
    Please explain why, if the number of FTEs sought is decreasing, the 
amount of increase to the base you are seeking remains the same as the 
amount received last year.
    The fiscal year 2009 enacted budget authorized 583 FTEs; of these 
authorized FTEs how many has the Department been able to hire and fill?
    Answer. This answer contains classified information, and will be 
provided to the committee via secure channels.
    Question 8. During a hearing before this committee in February, you 
stated that your initial view was that the 2012 deadline for 100 
percent maritime cargo scanning was not going to work. What steps are 
you taking toward meeting the 100 percent goal, whether it happens in 
2012 or beyond?
    Answer. DHS has gained important insight from the initial scanning 
pilots in foreign locations under the Secure Freight Initiative (SFI). 
We remain confident that the scan data produced by the scanning systems 
can enhance the security of containers as they transit through the 
global supply chain to the United States. However, DHS has encountered 
complex logistical, diplomatic, fiscal, and technical challenges that 
will render 100% scanning difficult to achieve by 2012.
    With over 700 ports shipping to the United States and more than 11 
million containers arriving each year, DHS must have a realistic 
strategy that facilitates legal trade. This is not only one of DHS's 
key missions, but a critical component of the 100% scanning mandate. As 
such, DHS will focus future deployments of scanning systems to targeted 
locations where the additional data provided by the scanning will be 
most beneficial.
    As we work to deploy additional scanning systems in a manner that 
will complement our current risk-based and layered approach to 
security, DHS will continue to engage with Congress and work in close 
concert with foreign and industry partners. These partnerships were 
critical to the success of the initial Secure Freight Initiative 
pilots, and these lines of communication need to remain open as we 
explore opportunities to deploy scanning systems to strategic locations 
that could most benefit from the additional data.
    Question 9. DHS currently has initiatives to combat all crimes, 
both domestic and international under their purview through the ICE 
Office of Investigations. Based on the 2010 Presidential budget 
request, due to the increase in Customs and Border Protection resources 
will additional resources for domestic and international investigations 
be necessary?
    Answer. Yes. Additional resources for ICE's Office of 
Investigations (OI) and Office of International Affairs are contained 
in the President's 2010 budget request, which asks for $48.743 million 
($34.877 million for 208 personnel and $13.887 million for non-
personnel resources) to support the Southwest Border Initiative for ICE 
domestic investigations. In addition, the President's budget request 
also contains a $4.925 million enhancement for international 
investigations along the southwest border, including 12 new ICE 
positions in Mexico. These additional resources will allow ICE to 
increase its ability to conduct criminal investigations along the 
southwest border, including those investigations resulting from 
collaboration with Customs and Border Protection personnel.
    Question 10. I note with great interest that the budget proposal 
specifically blocks funding to jurisdictions participating in the 
287(g) program who do not comply with the memorandum of understanding 
established with ICE. This is a positive development. What other plans 
do you have to enhance ICE supervision of participating 287(g) 
communities and ensure program compliance?
    Answer. DHS is in the final stages of revising its Memorandum of 
Agreement (MOA) template. The revised MOA sets forth clear operational 
and administrative standards to ensure each 287(g) partner operates 
consistently with U.S. Immigration and Customs Enforcement's (ICE) 
goals and priorities. The revisions include precise statements 
regarding the nature and extent of ICE supervision as well as Standard 
Operating Procedures (SOP) tailored to fit the unique needs of each 
State or local law enforcement agency.
    To further ensure the 287(g) program meets ICE operational 
standards and priorities, ICE has implemented a regular inspection 
process conducted by the ICE Office of Professional Responsibility. The 
inspection assesses the State or local law enforcement agency's 
compliance with the terms of its MOA. Any deficiencies identified 
during the inspection will be immediately addressed by ICE and the 
local LEA.
    Finally, ICE's revised MOA requires additional data collection by 
its 287(g) partners. The DHS ENFORCE system has been modified to 
require program participants to populate mandatory ENFORCE data fields 
concerning the type of criminal activity in which the alien has 
engaged. ICE will use this data to assist in evaluating whether our 
287(g) partnerships function consistently with ICE's detention and 
arrest priorities.
    Question 11. This committee has been critical of the spending 
imbalance between aviation security and surface transportation security 
at TSA. The President's budget appears to provide an additional $50 
million towards ``Surface Transportation Security Inspectors and 
Canines,'' to, among other things, hire 169 new FTEs. However, this 
funding is also supposed to cover the creation of new ``VIPR'' teams, 
which include several non-surface components. Therefore, it appears 
that only a fraction of that the requested resources may actually go 
toward surface inspectors and canines. Please explain.
    Similarly, in light of the delays in issuing regulations and grant 
application processing time, and the relative shortage of expertise in 
surface transportation modes generally, why were there no funding or 
FTE increases requested for ``Surface Transportation Security 
Operations and Staffing'?
    Answer. The $50 million requested in the Transportation Security 
Administration's (TSA) fiscal year 2010 President's budget will fund 15 
additional Visible Intermodal Prevention and Response (VIPR) teams 
dedicated solely to surface operations. Although these teams will 
consist of any one or combination of TSA personnel, including 
Transportation Security Officers, Behavior Detection Officers, 
Explosives Security Specialists, Bomb Appraisal Officers, 
Transportation Security Inspectors, and Federal Air Marshals, all of 
their missions will be conducted in the surface domain. Experience has 
shown multi-functional VIPR teams with a combination of specialties 
provide flexible deterrent and analytic capabilities and response 
options for the most effective security enhancement for surface 
operations. These teams differ from TSA's current 10 VIPR teams in that 
the fiscal year 2010 requested teams will be solely dedicated to the 
surface mode while the existing 10 teams perform VIPR missions across 
all modes of transportation. The additional teams do not include TSA 
Canine assets at this time.
    The Transit Security Grant Program (TSGP) is administered by the 
Department of Homeland Security (DHS) through a partnership between the 
Federal Emergency Management Agency (FEMA) and the Transportation 
Security Administration (TSA). Within this partnership, and consistent 
with the Aviation and Transportation Security Act (Public Law 107-71), 
TSA provides transit system subject matter expertise and determines the 
primary security architecture for the TSGP. TSA's subject matter 
experts set program and funding priorities, craft selection criteria, 
and review the security components of grant applications. TSA has 
adequate staff for these functions. The TSA plan for the $50 million 
VIPR enhancement will include additional Transportation Security 
Inspectors--Surface, Behavior Detection Officers, and Bomb Appraisal 
Officers that will be dedicated to conducting VIPR operations in the 
Surface domain.
    Question 12. The last time you appeared before this committee, you 
were asked about whether you supported moving Transportation Security 
Officers out of their current pay-for-performance system into the 
standard General Schedule system and whether you were on board with 
giving them collective bargaining rights. At the time, you said you 
were conferring with your general counsel to see whether such action 
could be done administratively. Can you share your current thinking on 
this critical subject?
    Answer. This determination is still under review by the Department 
of Homeland Security.
    Question 13. The Biometric at Sea Program has clearly been a 
success. Since its inception, migrant flow from the Dominican Republic 
has dropped 75 percent. The President's budget includes additional 
funding for the program. Are you also looking to expand this program to 
areas outside of where it is currently in use?
    Answer. In the President's budget, the Department of Homeland 
Security (DHS) requested $1.2 million to establish a permanent 
Biometrics-at-Sea system. This investment will enable the U.S. Coast 
Guard to identify dangerous individuals by collecting fingerprints and 
searching them against DHS's biometrics system IDENT, managed by US-
VISIT. Through these biometric matches, DHS is able to effectively 
integrate cross-component operational and intelligence activities. In 
accordance with the Department's comprehensive strategy to secure the 
Nation's borders, US-VISIT will continue to support the U.S. Coast 
Guard to help advance the broader objective of developing effective 
mobile solutions for biometric collection and analysis. In addition, 
the budget request includes the DHS Science and Technology (S&T) 
Directorate's research and development of 10-print Mobile Biometrics 
technology to enable capture of slap fingerprints in a compact handheld 
device.
    Question 14a. This committee has worked hard to ensure a strong 
authorization for the Emergency Management Performance Grant Program, 
which help communities undertake all-hazards preparedness and planning. 
According to the National Emergency Management Association, there is 
currently an annual shortfall of $487 million to this program.
    What is the rationale behind continuing the program at last year's 
level of funding?
    Answer. The Emergency Management Performance Grant Program (EMPG) 
is an important part of the Federal Emergency Management Agency's 
(FEMA) overall grant portfolio. There are several FEMA grant programs, 
including the Homeland Security Grant Program, that provide funding for 
personnel and planning for catastrophic events. As such, we believe 
that continuing to fund EMPG at $315 million provide a baseline 
capability across the Nation.
    Question 14b. Additionally, please explain why the budget chooses 
to utilize a risk-based formula to provide funds for the Emergency 
Operations Center (EOC) Grant program?
    Answer. The Department did not ask for the EOC grant in the fiscal 
year 2010 budget and the EOC grants for this year did not employ a 
risk-based formula.
    Question 15. The President's budget request indicates that fewer 
resources will be needed for implementation for the CFATS program. 
Please describe the decrease in ``Infrastructure Security Compliance 
Activity.'' Does the budget for CFATS presume that the program will 
continue following its statutory sunset in October 2009?
    Answer. The Department continues to increase the number of chemical 
security inspectors. There are currently 51 chemical inspectors 
onboard, with 35 additional selections in process. The projected total 
of personnel on-board for the Infrastructure Security Compliance 
Project by the end of fiscal year 2009 is 178 positions. In fiscal year 
2010, the budget shifts programmatic base funding to personnel base 
funding in order to further increase the number of Government Full-Time 
Equivalents (FTEs) to 246. This realignment lowers the amount of 
program funding in the ``Infrastructure Security Compliance Activity'' 
request, but raises the level of funding for salaries and expenses for 
the CFATS program. The fiscal year 2010 FTE level will provide for 139 
chemical facility inspectors and 20 additional cross-trained chemical/
ammonium nitrate inspectors. The Department continues to work on 
accelerating and improving its hiring and security clearance processes 
to bring qualified personnel onboard.
    Included in the President's budget request was a request for a 1-
year extension for the CFATS program to allow the Department to 
continue to work with Congress on a permanent reauthorization of the 
program.
    Question 16a. The committee is interested in how the Office of Risk 
Management and Analysis (RMA) is being integrated into DHS programs. 
Does the Department plan to introduce some sort of management directive 
that provides RMA with the ability to compel other components to follow 
its products and initiatives?
    Answer. On January 18, 2007, Department of Homeland Security (DHS) 
Secretary Michael Chertoff directed organizational changes as a result 
of the Post-Katrina Emergency Management Reform Act passed as part of 
the Homeland Security Appropriations Act of Fiscal Year 2007. On April 
1, 2007, as part of these changes, Secretary Chertoff established the 
National Protection and Programs Directorate (NPPD) and, within it, the 
Office of Risk Management and Analysis (RMA). Secretary Chertoff 
delegated to the Under Secretary for National Protection and Programs 
the authority to ``lead the Department's efforts to establish a common 
framework to address the overall management and analysis of homeland 
security risk [and] . . . develop systematic, rigorous risk analysis 
methodologies and provide core analytic and computational capabilities 
to be used by all Department Components to assess and quantify risk in 
order to enhance overall protection, prevention, and mitigation of 
homeland security risks.''\1\ RMA exercises this delegated authority on 
behalf of the Under Secretary.
---------------------------------------------------------------------------
    \1\ Delegation 17001, ``Delegation to the Under Secretary for 
National Protection and Programs,'' April 10, 2007.
---------------------------------------------------------------------------
    We are currently evaluating the utility of a Department directive 
on integrated risk management that clarifies the processes, roles, and 
responsibilities for achieving integrated risk management in DHS.
    Question 16b. If not, how will its organizational challenges be 
overcome?
    Answer. The Under Secretary for NPPD, pursuant to delegated 
authority from the Secretary, created a Department-wide Risk Steering 
Committee (RSC) in April 2007 to serve as the Department's risk 
management governance structure, leveraging risk management 
capabilities across DHS. The RSC, which RMA administers, is a three-
tier construct. Tier I consists of all of the heads of DHS components; 
Tier II comprises sub-directorate/component principals (e.g., assistant 
secretaries in components with an Under Secretary; senior officials; 
and deputy directors); and Tier III consists of senior policy and 
analysis staff. Leveraging the RSC, RMA works collaboratively across 
DHS to build an integrated risk management program that ensures that 
risk information and analysis are provided to decision-makers in order 
to inform a full range of decisions. These decisions include the 
allocation of resources, provision of preparedness assistance, 
prioritization of capability development, operational decisions, 
regulatory actions undertaken, and research and development investment.
    Question 16c. Does RMA actually conduct risk analysis, or is it 
more of a clearinghouse to share best practices? Why hasn't RMA 
developed a strategic plan?
    Answer. RMA is responsible for developing and executing 
quantitative all-hazards risk assessments. RMA, with its RSC partners, 
is developing tools and processes to produce analysis to support 
specific decision-making processes. Examples include:
  <bullet> The Risk Assessment Process for Informed Decision-making 
        (RAPID).--RAPID is a quantitative, all-hazards risk assessment 
        currently in development to serve as a risk management tool for 
        informing the Department's planning, programming, budgeting, 
        and execution process. This includes products to inform the 
        Integrated Planning Guidance, Program Review Board, and 
        Resource Allocation Decision. When fully developed, RAPID will 
        support strategic policy and budgetary decisions by assessing 
        risk, evaluating the risk-reduction effects of DHS programs, 
        and evaluating alternative resource allocation strategies. In 
        2009, RMA is working on two RAPID products. The first is a 
        detailed bioterrorism and chemical terrorism risk analysis to 
        inform the Department's Integrated Planning Guidance by: (1) 
        Providing an analysis of DHS chemical/biological security 
        programs; (2) evaluating the degree to which DHS chemical/
        biological programs are contributing to risk reduction; (3) 
        identifying gaps; and (4) recommending strategies for better 
        allocation of resources to manage risk. The second is an all-
        hazards assessment of risk beyond chemical and bioterrorism 
        that will evaluate the risks of Weapons of Mass Destruction and 
        conventional terrorism, natural hazards, and border/immigration 
        scenarios alongside one another; this is expected to be 
        complete in early 2010.
  <bullet> Homeland Security National Risk Assessment.--The Department 
        has initiated the Quadrennial Homeland Security Review, which 
        will set prioritized goals and objectives for homeland 
        security. It will also set a course for maturing and unifying 
        DHS and the entire national homeland security enterprise; it 
        will define a process and methodology for consistently 
        assessing risk at a national level, and it will employ the 
        results of such an assessment to drive strategic prioritization 
        and resource decisions. There are numerous assessments, both 
        completed and ongoing, that help to define risk in the context 
        of various homeland security threats and challenges to improve 
        decision-making. Going forward, creating a process and 
        methodology to assess risks to the homeland and risk management 
        alternatives in an integrated manner across hazards will enable 
        us to use risk analysis more effectively to inform national 
        strategic guidance and subordinate strategies and plans. 
        Development and implementation of a process and methodology to 
        assess national risk is a fundamental and critical element of 
        an overall risk management process, with the ultimate goal of 
        improving the ability of decision makers to make rational 
        judgments about tradeoffs between courses of action to manage 
        homeland security risk.
  <bullet> Strategic Hazard Identification and Evaluation for 
        Leadership Decisions (SHIELD) program.--This initiative, 
        developed by RMA and the Federal Emergency Management Agency's 
        Office of National Capital Region Coordination, served as one 
        of the first regionally focused risk analyses developed for and 
        accepted by regional leadership. The risks and risk management 
        strategic investment themes identified through SHIELD supported 
        regional guidance on grant submissions, assisted in the 
        refinement of proposed investment themes, and will be 
        referenced in producing Urban Areas Security Initiative grant 
        applications by National Capital Region partners. RMA hopes to 
        leverage SHIELD to develop a model that can be used in other 
        regions of the country.
    To provide strategic guidance, RMA has completed the interim DHS 
Integrated Risk Management Framework, which provides a foundation for 
institutionalizing integrated risk management in the Department by 
outlining a vision, objectives, principles, and a process for 
integrated risk management within DHS. It also identifies how the 
Department will achieve integrated risk management by developing and 
maturing policy, governance, processes, training, and accountability 
methods. Members of the Department's Risk Steering Committee developed 
the framework, and all DHS components, directorates, and offices 
endorsed it.
    Question 17. Chairman Thompson, Ranking Member King, and other 
Members of this committee recently introduced H.R. 2195, the ``Critical 
Electric Infrastructure Protection Act.'' One of the provisions would 
require you to work with other national security and intelligence 
agencies to conduct research and determine if the security of 
Federally-owned IT infrastructure has been compromised. This would seem 
to be an absolute necessity in order to truly secure the .gov domain. 
Do you agree that such an investigation is required and could the 
Cybersecurity and Communications Division conduct such an 
investigation?
    Answer. The Office of Cybersecurity and Communication's (CS&C's) 
National Cyber Security Division (NCSD) concurs with Chairman Thompson, 
Ranking Member King, and other Members of the committee that cross-
coordination with other national security and intelligence agencies is 
vital for conducting research and investigations of cyber events. We 
currently work very closely with other national security and 
intelligence agencies regarding potential compromises of the Federally-
owned IT infrastructure, and we believe that CS&C should play a key 
role in improving our inter-agency cooperation even further.
    Within the NCSD, the Control Systems Security Program (CSSP) has 
established relationships with the private sector and other 
organizations and agencies involved in protecting critical electric 
infrastructure; it regularly coordinates on activities and issues 
affecting the security of control systems. CSSP leads this coordination 
and analysis through its Industrial Control Systems Cyber Emergency 
Response Team (ICS-CERT) and Industrial Control Systems Joint Working 
Group (ICSJWG).
    ICS-CERT, in coordination with the United States Computer Emergency 
Readiness Team (US-CERT) and the Intelligence Community, responds to 
and analyzes control systems incidents through forensic investigations 
focused on the characterization and analysis of malware and 
vulnerabilities affecting the critical infrastructure (including 
electric infrastructure). ICS-CERT shares and coordinates vulnerability 
information and threat analysis with critical infrastructure owners/
operators, intelligence agencies, and other stakeholders through 
actionable information products and alerts. In addition, CSSP is 
devoted to developing real-time mitigation strategies through products 
and tools to proactively protect Federally-owned information technology 
infrastructure.
    Critical infrastructure is predominantly owned by the private 
sector, and DHS recognizes the need for a strong Government-industry 
partnership to protect critical electric infrastructure against 
cybersecurity threats. To accomplish this, CSSP has established the 
ICSJWG to provide a vehicle for the relevant Federal and private-sector 
stakeholders to communicate and partner across all critical 
infrastructure and key resources (CIKR). The ICSJWG uses a structured 
approach supported by the National Infrastructure Protection Plan 
framework and the Critical Infrastructure Partnership Advisory Council. 
The ICSJWG facilitates coordination of the control systems stakeholder 
community and reduces redundancies in activities aimed at securing 
CIKR, including the critical electric infrastructure.
    Question 18. I understand that DHS will begin to pilot two 
different biometric collection methods at airports later this month for 
the US-VISIT program, one involving TSA at the checkpoint and the other 
using CBP officers at the gate. I am aware that the program has roughly 
$30 million in carry-over monies to use for the pilots, but I am 
concerned it may need additional funds.
    If the pilots indicate that the CBP or TSA collection methods are 
optimal, will you have the funding necessary to implement biometric 
exit in fiscal year 2009 or fiscal year 2010?
    Answer. Approximately $28 million remains available from prior-year 
dollars to fund the current biometric air exit project.
    Congress included a provision in the Consolidated Security, 
Disaster Assistance, and Continuing Appropriations Act, 2009 (fiscal 
year 2009 DHS Appropriations Act), which restricts the Department of 
Homeland Security (DHS) from obligating US-VISIT funds provided under 
the Act for implementing a final air exit capability under the April 
24, 2008 Notice of Proposed Rulemaking until additional tests have been 
completed, with reports on the tests provided to the appropriations 
committees and a review of the report by the Government Accountability 
Office (GAO).
    DHS is conducting two pilots--one by CBP at the boarding gate at 
the Detroit Metropolitan Wayne County Airport, and one by TSA at a 
security checkpoint at the Hartsfield-Jackson Atlanta International 
Airport--for a 35-day period which began on May 28, 2009. DHS will 
evaluate the exit pilot programs, including the methods and processes 
for collecting the required information, after the pilots are 
completed.
    If the evaluation and analysis of the comprehensive biometric air 
exit pilots recommend selection of an option other than the 
Department's proposal in the notice of proposed rulemaking--which was 
for air carriers to collect passenger biometrics--US-VISIT will need to 
develop revised cost estimates to determine if additional funds are 
required above the carryover funding to support initial implementation 
in fiscal year 2010.
    Question 19a. Last year's DHS appropriations bill required the 
Department to complete two biometric exit pilots at airports: (1) Where 
the airlines collect and transmit biometric exit data, and (2) where 
CBP collects such information at departure gates. It is my 
understanding that the Department has yet to partner with any airline 
but that it is still moving forward with the CBP pilot as well as an 
additional pilot performed by TSA personnel.
    What progress has DHS made in addressing the air carriers' 
concerns?
    Answer. Department of Homeland Security (DHS) officials reached out 
to the airline industry on numerous occasions to discuss their concerns 
and to identify potential partners for biometric air exit pilot 
efforts. Despite ongoing DHS discussions with the Air Transport 
Association and its member carriers, no airline volunteered to 
participate in the biometric exit pilot required by the fiscal year 
2009 DHS Appropriations Act. Carriers were given flexibility as to the 
location within airports and seaports that could be used to collect 
biometrics through the Notice of Proposed Rulemaking.
    Question 19b. If DHS is unable to complete the air carrier pilot, 
what will be the Department's next steps?
    Answer. DHS is currently conducting two pilots: (1) CBP collecting 
biometrics at a boarding gate at the Detroit Metropolitan Wayne County 
Airport in Detroit, Michigan, (2) Transportation Security 
Administration (TSA) collecting biometrics at a security checkpoint at 
the Hartsfield-Jackson Atlanta International Airport. Both pilots began 
on May 28, 2009, and will conclude on July 2.
    US-VISIT has been working closely with these airports and with CBP 
and TSA to ensure that the pilots run. Based upon analysis of the 
results of the pilots and assessment of the comments to the Notice of 
Proposed Rulemaking that was published in the Federal Register on April 
24, 2008, DHS will publish a Final Rule on the implementation of new 
biometric exit procedures for non-U.S. citizens departing the United 
States via airports and seaports.
    Question 20. The President's fiscal year 2010 budget request calls 
for an 8.5% cut in the University Programs portfolio. The committee is 
concerned with this because of our strong support of University 
programs in general, and more specifically the great value that should 
be placed in basic scientific research, which University Programs 
usually conduct. What is the reason for the decrease?
    Answer. The President's fiscal year 2010 budget request for 
University Programs is $4.3 million less than the fiscal year 2009 
enacted level. Within this amount, $2 million supports a homeland 
security project at the Naval Post Graduate School (NPS). The fiscal 
year 2010 request moves this $2 million from University Programs to 
Transition, which will continue the field testing objectives that are 
the central focus of the NPS project. In addition, as the DHS Centers 
of Excellence (COEs) have matured, S&T Divisions and DHS Components 
have started to independently fund the COEs as a valuable homeland 
security resource to meet S&T Division and DHS Components' 
requirements. We anticipate that S&T base funding plus funding from DHS 
Components will ensure the viability of the COEs.
    Question 21a. One reason for the delay in next generation detection 
equipment has been the requirement that the enhancements in detection 
capabilities be certified by the DHS Secretary. When do you expect to 
be able to certify the new detection equipment? Is the current thinking 
that certification would be for use in primary inspection, secondary 
inspection, or both?
    Answer. Final decisions on the certification of Advanced 
Spectroscopic Portal Program (ASP) systems for primary and secondary 
inspections, as well as the relative order of these decisions, will be 
made by the Secretary, and based on test data and other analyses 
conducted by DNDO, CBP, and other partners. Final decisions on 
certifications are expected in the fall time frame.
    Question 21b. Is there a ``drop-dead'' date for Secretarial 
Certification for ASP? That is to say, the date for certification has 
been pushed back several times. Is there a point at which you must cut 
your losses and re-evaluate the program?
    Answer. The fundamental technology that ASP brings promises to 
deliver a significant improvement over previous capabilities in the 
detection and identification of radiological/nuclear threats. The 
delays in certification of ASP have been related to issues of 
operational ease and reliability--problems that have taken time to 
resolve but are not expected to seriously threaten the viability or 
potential contribution of ASPs. Given the soundness of the underlying 
technology, and the progress we have made in addressing operational 
issues to date, a termination strategy is not being considered at this 
time. ASP remains the most immediate solution to the detection and 
identification requirements called for at ports of entry.
    Question 22. The committee is very concerned with Source Security 
and DNDO's role in the trilateral effort to secure radioactive sources. 
It is our understanding that OMB requested that source security funding 
go through just the Department of Energy instead of through multiple 
sources.
    Please describe the current status of the trilateral effort, DNDO's 
role, and the role of the other agencies involved.
    Please describe the funding levels for these efforts at DNDO and at 
your other two agency partners.
    Answer. DNDO's source security work involves performing gap 
analysis and promoting mitigation strategies for securing radiological 
material at its source within the United States. In fiscal year 2009, 
DNDO budget allocated $1 million for irradiator hardening; in fiscal 
year 2010, this effort will be conducted by the Department of Energy 
(DOE)/National Nuclear Security Administration (NNSA). Interagency 
collaboration for source security activities will continue amongst DOE, 
DHS, and the Nuclear Regulatory Commission (NRC), but DNDO will no 
longer fund source security upgrades.
    The NRC is the regulatory body of the United States Government for 
licensing of all radioactive medical and industrial sources in the 
United States. Part of its responsibilities under this authority as 
codified in Title 10 of the Code of Federal Regulations (CFR) is 
security of radioactive materials. In addition to all of the regulatory 
controls on radioactive materials as stated in 10C, the NRC has 
implemented many additional security requirements on the licensees of 
radioactive source. NRC has also raised the security culture among the 
licensees in the United States in partnership with the Agreement 
States.
    DOE has established a domestic source security program that, in 
cooperation with the U.S. licensees and the NRC, is targeted at 
implementing security measures above what is required by the NRC and 
10CFR. DOE is providing funding to licensees to implement increased 
security measures at licensee facilities in the United States.
    Questions From Honorable Sheila Jackson Lee of Texas for Janet 
              Napolitano, Secretary, Department of Defense
    Question 1. How much money is allocated in the budget for border 
security measures in the southwest border?
    Answer. For fiscal year 2010, DHS has requested a $96.1 million 
increase for southwest border security measures. $26.1 million is 
requested to provide CBP with an enhanced capability to combat 
southbound firearms and currency smugglers through additional personnel 
at and between the ports of entry along the southern border, as well as 
continuing to expand and maintain the Licensed Plate Reader (LPR) 
program. $70 million is requested to enable ICE to increase enforcement 
staffing, improve cooperative efforts with the Mexican government, and 
enhance intelligence capacity and information sharing along the border.
    Question 2. Is there a way to identify the savings in the budget as 
a result of 287(g) enforcement? What is the savings?
    Answer. ICE does not have the data or a methodology to identify a 
budget savings as a result of 287(g) enforcement. The 287(g) Delegation 
of Authority Program serves as a force multiplier. Operating this 
delegation program requires ICE funding. ICE's program costs include: 
Information technology infrastructure (i.e. T1 lines, computer 
equipment, etc.); responding to State and local law enforcement 
agencies (LEAs); training; supervision of participating State or local 
LEAs; legal support; LEA enrollment and oversight; and general program 
management.
    While ICE cannot quantify any direct cost savings to the 
Department, the 287(g) partner agencies bear the personnel costs for 
287(g) officers performing immigration enforcement work. To the extent 
that the 287(g) officers are performing work that would otherwise be 
done by ICE officers, there may be some indirect personnel costs 
savings as a result of the 287(g) enforcement.
    Question 3. Has DHS received any monies from the Stimulus Act? How 
much money?
    Answer. Yes. DHS received $2.755 billion in direct funding through 
the American Recovery and Reinvestment Act. Additionally, DHS programs 
and activities are also being supported with an additional $750 million 
through the General Services Administration. Provided below is a 
breakdown of specific funding provisions:
Total Funds
  <bullet> DHS: $2.755 billion.
  <bullet> GSA: $750 million in support of DHS programs.
St. Elizabeths/Headquarters Consolidation
  <bullet> $650 million ($200 million to DHS; $450 million to GSA).
U.S. Customs and Border Protection
  <bullet> $720 million for land ports of entry construction ($300 
        million GSA; $420 million CBP).
  <bullet> $100 million for Non-Intrusive Inspection (NII) technology, 
        not limited to sea ports.
  <bullet> $100 million for border technology on the southwest border.
  <bullet> $60 million for tactical communications equipment and 
        radios.
Immigration and Customs Enforcement
  <bullet> $20 million for ICE automation modernization and tactical 
        communications.
Transportation Security Administration
  <bullet> $1 billion for Explosives Detection Systems and checkpoint 
        screening equipment.
U.S. Coast Guard
  <bullet> $142 million for Alteration of Bridges program.
  <bullet> $98 million for construction, which may include the 
        following:
    <bullet> Shore facilities and aids to navigation facilities,
    <bullet> Vessel repair/acquisition (includes High Endurance Cutter, 
            National Security Cutter).
Federal Emergency Management Agency
  <bullet> $100 million for Emergency Food and Shelter Program.
  <bullet> $150 million for transit and rail security grants.
  <bullet> $150 million for port security grants.
  <bullet> $210 million for Assistance to Firefighter (AFG) grants.
DHS Office of Inspector General
  <bullet> $5 million to conduct bill-related oversight and audits.

    Question 4. Is DHS appropriately staffed to meet current demands 
with respect to homeland security and immigration?
    Answer. The President's budget for the Department of Homeland 
Security seeks the appropriate mix of staff, infrastructure, and 
technology to accomplish its missions.
    Question 5. Can you explain why the disaster relief for Hurricanes 
Katrina and Rita have tapered off--this year's request is just $1.5 
billion, down 65 percent from this year's appropriation?
    Answer. Disaster relief obligations for Hurricanes Katrina and Rita 
have tapered off as we have provided on-going disaster recovery 
assistance for over 3 years. However, FEMA's request for Disaster 
Relief Funding (DRF) in the fiscal year 2010 budget request actually 
increases from fiscal year 2009. Congress provided $1.4 billion in 
fiscal year 2009 for the DRF. FEMA's fiscal year 2010 DRF request is 
for $2 billion.
 Question From Honorable Henry Cuellar of Texas for Janet Napolitano, 
                    Secretary, Department of Defense
    Question 1a. Madam Secretary, as stated at the hearing I have not 
received an answer for a request I submitted to your office for an 
estimate as to how many Customs and Border Protection folk they would 
need on the POEs and the infrastructure. Therefore, please answer the 
following questions:
    What proper staffing do you need of CBP personnel at land POEs?
    Answer. CBP's greatest staffing needs at land POEs are on the 
southwest border and in support of expanding efforts to target the 
highest risk travelers and cargo. For fiscal year 2010, CBP has 
requested 65 CBP officers to conduct outbound inspections on the 
southern border and 20 CBP officers to conduct expanded targeting 
operations at the National Targeting Center (NTC). The focus on the 
southern border is especially warranted at this time due to the surge 
in violence along the U.S.-Mexican border. Sixty-five CBP officers will 
conduct targeted ``pulse and surge'' outbound operations to seize the 
southbound currency and firearms that supplement the drug cartels' 
illegal activities and contribute to the border violence. The twenty 
CBP officers requested for the NTC are necessary to conduct expanded 
passenger and cargo targeting operations at the NTC without scaling 
back current NTC anti-terrorism operations in support of the field. The 
targeting efforts at the NTC support the ports of entry by assisting 
the officers at the ports of entry in identifying the high and unknown 
risk passengers and cargo.
    Question 1b. What are your infrastructure needs at POEs, north and 
southbound?
    Answer. Beginning in 2003, U.S. Customs and Border Protection (CBP) 
undertook the first round of Strategic Resource Assessments (SRA), 
thorough assessments of the infrastructural and operational conditions 
of all 163 POEs. Based on these assessments, CBP identified the 
infrastructure needs of each POE and prioritized the POE modernization 
projects based on criticality of need. Through the SRAs, CBP has 
identified an approximately $6.5 billion need over the next 10 years 
for its in-bound POE infrastructure requirements. In addition to that, 
CBP estimates a $48 million need for short-term outbound infrastructure 
improvements and $2 billion need for long-term outbound infrastructure 
improvements.
     Question From Honorable Ann Kirkpatrick of Arizona for Janet 
              Napolitano, Secretary, Department of Defense
    Question. We in California have just started the wildfire season 
and it can have devastating effects on our communities. At the hearing 
I stated I was happy to see the funding for the SAFER grants increased.
    With the new funding, are you looking to have a cap on this grant 
increased?
    If so, do you have any thoughts as to what would be an appropriate 
level?
    Answer. I am aware that Congress is considering changes to the 
authorized funding-per-firefighter cap, as well as other requirements 
of the governing statute. These changes provide the Secretary with the 
ability to provide waivers of these requirements. Should these changes 
be enacted and signed into law, we would seek input on the parameters 
that would be implemented in the granting of exceptions to the 
statutory requirements.
 Questions From Honorable Mike Rogers of Alabama for Janet Napolitano, 
                    Secretary, Department of Defense
    Question 1a. U.S. Customs and Border Protection (CBP) has the 
important mission of keeping terrorists and weapons out of the United 
States, while also facilitating trade and travel. The 2010 budget 
requests 85 new CBP Officer positions, which does not appear to be a 
sufficient increase based on trade facilitation and border security 
needs in these times.
    What is the Department's reason for requesting this number of new 
positions?
    Answer. The focus on the southern border is especially warranted at 
this time due to the surge in violence along the U.S.-Mexican border. 
Sixty-five CBP officers will conduct targeted ``pulse and surge'' 
outbound operations to seize the southbound currency and firearms that 
are strengthening the drug cartels and contributing to the border 
violence. Twenty CBP officers are crucial for the National Targeting 
Center (NTC) to conduct expanded passenger and targeting operations, 
while enabling the NTC to maintain its anti-terrorism operations in 
support of the field.
    Question 1b. What level of growth of the CBP Officer workforce do 
you foresee in the next few years?
    Answer. Based on its past experience, CBP anticipates its workforce 
will continue to grow over the next few years based on a variety of 
factors including new congressional mandates, additional training 
requirements, special events, economic growth, and threat level.
    Question 2. Explosives detection dogs play no small part in 
securing our skies, and they can and should do the same for our surface 
transportation systems.
    Why do neither the fiscal year 2010 budget request nor the 5-year 
outlook account for increased TSA canine teams for surface 
transportation security, other than 15 new VIPR teams?
    Answer. The Transportation Security Administration's (TSA) current 
staffing levels are sufficient to support compliance with currently 
funded congressional mandates, namely the Iraq War Supplement of 2007 
and the Budget Amendment of 2008. When the fiscal year 2010 budget 
request was prepared, the TSA Canine Training Branch was operating at 
full capacity and could not accommodate any additional teams for fiscal 
year 2010. As DHS considers the transportation security planning 
priorities, we are reviewing options to ensure the proper mitigation of 
risks across the surface transportation domain.
  Questions From Honorable Charles W. Dent of Pennsylvania for Janet 
              Napolitano, Secretary, Department of Defense
    Question 1. How much funding will the Office of Infrastructure 
Protection be budgeted in fiscal year 2010 for enforcement of the 
Chemical Facility Anti-Terrorism Standards regulations? How much are 
they currently funded for?
    Answer. The fiscal year 2010 budget request is for $103.4 million 
to support both continued Chemical Facility Anti-Terrorism Standards 
(CFATS) implementation and the development of the Ammonium Nitrate (AN) 
regulatory program required under Section 563 of the fiscal year 2008 
DHS Appropriations Act. This breaks down to $86.4 million for the CFATS 
program and $17 million for the AN program. In fiscal year 2009, the 
funding level was $78 million, with $73 million for CFATS and $5 
million for AN. The increased funding request over the fiscal year 2009 
enacted funding level supports the hiring, training, equipping, and 
housing of additional inspectors to support the CFATS program, 
continued deployment and maintenance of CFATS compliance tools for 
covered facilities, and the completion and publication of AN 
regulations, including development of the required registration and 
verification processes and systems, and establishment of inspection and 
audit procedures.
    Question 2. In the President's fiscal year 2010 budget request, he 
asks that current CFATS regulation authority be extended for 1 year. 
Why? Does the President believe the current authorities to regulate 
chemical facility security are sufficient?
    Answer. The fiscal year 2010 request extends the Chemical Facility 
Anti-Terrorism Standards authority for an additional year in order to 
work with the Congress on permanent authorization legislation, as the 
current authority is set to expire on October 4, 2009. DHS will work 
closely with Congress on considering any improvements to the existing 
authority that may be appropriate.
    Question 3. The Congress is considering requiring the Department to 
review Inherently Safer Technology (IST) analyses completed by all 
CFATS-regulated facilities. How many IST experts does the Department 
currently have on staff and how many new IST experts are requested in 
the fiscal year 2010 budget request?
    If IST reviews were required of all CFATS-regulated facilities on 
October 1, 2009, would this budget provide the Department sufficient 
funding levels to review and approve all of the plans?
    Answer. The increased funding request over the fiscal year 2009 
enacted funding level supports the hiring, training, equipping, and 
housing of additional inspectors to support site inspections for 
compliance with the Chemical Facility Anti-Terrorism Standards (CFATS) 
program, as well as other activities relating to CFATS compliance by 
covered facilities. The Department has begun to review data collected 
under the CFATS regulations to get a better sense of the scope of the 
types of IST changes voluntarily being made by industry to adopt safer 
technologies but does not, at this time, have an estimate on the level 
of expertise and associated costs that may be required if IST were 
incorporated into the regulatory program. As the current regulatory 
structure does not require use of IST by facilities, the fiscal year 
2010 budget does not include specific funding for IST purposes.
    Question 4. How much funding does the Department plan on allocating 
to the Transportation Security Lab? Of this, how much will be for 
original research and development and how much will be utilized for 
product testing and certification? Does the Department currently have 
fee-collecting authority from vendors that submit their products for 
certification?
    Answer. The fiscal year 2010 President's budget request for the 
Transportation Security Laboratory (TSL) includes $8.35 million for 
operations (rent, buildings maintenance, utilities, security, 
environment, and safety), $4 million for Independent Test and 
Evaluation (IT&E), $3.9 million for core research and development 
(R&D)--totaling $16.25 million. The budget request also includes 
approximately $10 million for salaries and expenses for the Federal 
employees at TSL and $5 million to begin adding storage space, 
including explosive storage bunkers, which will eliminate the need to 
rent space off-site.
    In addition, TSL manages research and development (R&D) funded by 
S&T Divisions, primarily the Explosives Division, which develops the 
technical capabilities to detect, interdict, and lessen the impacts of 
non-nuclear explosives used in terrorist attacks against mass transit, 
civil aviation, and critical infrastructure. TSL anticipates that it 
will manage $15.4 million in fiscal year 2010.
    The Department does not currently have authority to retain fees 
collected from vendors who submit their products to TSL for testing 
and/or certification. Any such fees collected would need to be 
deposited with the Treasury Department as miscellaneous receipts or S&T 
risks augmenting its appropriations in violation of the Miscellaneous 
Receipts Act. The S&T Directorate is in the process of investigating 
the costs and benefits of charging companies for certification of their 
products at TSL. The results will help to determine whether charging 
companies for certification of their products would enable TSL to 
enhance its certification services and provide resources for the 
capital improvement needs of the laboratory housing TSL's Independent 
Test and Evaluation (IT&E) Program. S&T would, of course, need 
statutory authority to retain any such fees collected rather than 
otherwise depositing such fees as miscellaneous receipts at the 
Treasury Department.
    In July 2008, the S&T Directorate hired an expert team with 
Department of Defense (DOD) financial experience to look at what 
business practices and resources would be necessary for TSL to execute 
a work-for-others program. Based on the information collected thus far, 
S&T believes moving to a fee-for-service business model holds potential 
for increasing the implementation of high-quality transportation 
security technologies. Over the next 3 years, the S&T Directorate will 
explore conducting a pilot to determine whether such a fee-for-service 
business model would provide a source of funding for sustaining and 
upgrading TSL's infrastructure. During fiscal year 2010, the S&T 
Directorate will explore the best approach to implement a pilot at TSL, 
and the S&T Directorate anticipates running the pilot from October 2010 
to September 2013. As a first step, the S&T Directorate plans to 
establish a baseline charging structure at TSL and build a customer 
projection model. In addition to enabling some cost recovery, charging 
fees for service would encourage customers to make sure products are at 
an appropriate level of development prior to bringing them to TSL for 
IT&E. This would help eliminate inefficiencies by cutting down on time 
and resources spent on products that are not yet technologically mature 
enough for IT&E.
    Question 5. How much funding is allocated to the purchase of 
additional whole-body imaging systems in the fiscal year 2010 budget 
request? How does this compare with current funding levels?
    Answer. The fiscal year 2010 budget reflects approximately $12 
million for the purchase of Whole-Body Imagers (WBIs). Approximately 
$60 million, including $32 million appropriated in the American 
Recovery and Reinvestment Act of 2009, will be used to purchase WBIs in 
fiscal year 2009.
    Question 6. How much of the fiscal year 2010 budget request will be 
used to conduct operations addressing pipeline security?
    Answer. Within the Surface Transportation Security Operations and 
Staffing fiscal year 2010 budget request, $2.4 million will be used to 
conduct operations addressing pipeline security. Activities that will 
be supported with the fiscal year 2010 funding include Pipeline 
Corporate Security Reviews, the 9/11 Act Pipeline Critical Facility 
Inspections, an annual international pipeline security forum, and the 
development of pipeline security awareness training videos for targeted 
audiences.
Questions From Honorable Paul C. Broun of Georgia for Janet Napolitano, 
                    Secretary, Department of Defense
    Question 1. In March, significant action was announced by the 
administration regarding additional resources and personnel for the 
southwest border to counter border violence. At the time, you said that 
this would be funded through reprogramming from ``less urgent 
activities.'' Can you give us a breakdown of what ``less urgent 
activities'' were the source of funding for the southwest border?
    Answer. On May 11, DHS submitted a reprogramming request for $21.45 
million to address the growing concerns of violence along the southwest 
border. The request includes reprogramming $2.8 million from Customs 
and Border Protections (CBP) fiscal year 2008 Salaries and Expense 
lapsed balances and $16.1 million of CBP's no-year funds generated from 
the deobligation of prior year funds originally appropriated for legacy 
Customs activities. Current CBP activities will not be impacted because 
the source of CBP funding is largely associated with prior year 
unobligated balances, created by management efficiencies. Sources of 
funding to support the ICE southwest border activities include $2.55 
million of ICE lapsed balances as well as delaying various non-
southwest border activities. This involves delaying retrofit of 
vehicles, facilities projects, permanent change of duty station 
requests and curtailing activities at ICE overseas locations. In 
addition, this will result in delaying other deployments, suspending 
other smaller-scale enforcement operations (such as delaying hiring of 
non-essential personnel that are not directly related to SW border 
enforcement efforts), and re-directing $750,000 from ProNet, a counter 
proliferation information sharing program. All of these activities have 
been determined to be a lower priority than the southwest border 
initiative.
    Question 2. I was pleased to see the $87 million increase in the 
President's fiscal year 2010 budget request for the National Cyber 
Security Division at the Department of Homeland Security. Is this an 
indication of a greater operational role for homeland security in 
protecting our Government's cyber networks and data from an increasing 
amount of attacks, and do the increases in funding for cybersecurity 
reflect changes that will be made as a result of the President's 
Cybersecurity Review? What large changes do you expect to the 
Department's cybersecurity mission as a result of the President's 
review?
    Answer. The President's fiscal year 2010 budget request for the 
National Cyber Security Division is $400.654 million, an increase of 
$87.154 million from the $313.5 million enacted in fiscal year 2009. 
The increased funding request supports current authorities, including 
NCSD's roles and responsibilities for implementing the Comprehensive 
National Cybersecurity Initiative.
    The President's Cyberspace Policy Review: Assuring a Trusted and 
Resilient Information and Communication Infrastructure, released May 
29, 2009, assesses the current state of U.S. policies and structures 
for cybersecurity. It is anticipated that U.S. cybersecurity decisions 
will focus on five key areas, outlined in the review, which will build 
on existing programs and activities. Within those key areas, the 
President's Cyberspace Policy Review sets forth a series of near- and 
mid-term actions. Many of these actions align with current NCSD 
activities, such as supply chain risk management; cyber workforce 
development; cybersecurity-related information sharing with Federal, 
State, local, and private-sector partners; the promotion of 
cybersecurity through national public awareness and education efforts; 
and the continued coordination with the Science and Technology (S&T) 
Directorate to develop technologies to address current and future 
technology gaps. The fiscal year 2010 funding for NCSD will support 
these and other NCSD cybersecurity activities as outlined in the budget 
request.
    Specifically, with regard to the 60-day review, DHS's current roles 
and responsibilities are consistent with the review. The 60-day review 
outlines a range of actions that NCSD will pursue in five key areas:
  <bullet> Developing a new comprehensive strategy to secure America's 
        information and communications infrastructure;
  <bullet> Ensuring an organized and unified response to future cyber 
        incidents;
  <bullet> Strengthening public-private and international partnerships;
  <bullet> Investing in cutting-edge research and development in 
        coordination with S&T; and,
  <bullet> Beginning a national campaign to promote cybersecurity 
        awareness and digital literacy as well as to build a digital 
        workforce for the 21st century.
    Question 3. The President's fiscal year 2010 budget requests $19 
million to enforce chemical security regulations. Can you give us an 
update on the implementation of the chemical security regulations?
    Answer. The fiscal year 2010 budget request is $103.4 million to 
support both continued Chemical Facility Anti-Terrorism Standards 
(CFATS) implementation and the development of the Ammonium Nitrate (AN) 
regulatory program required under Section 563 of the fiscal year 2008 
DHS Appropriations Act. This represents a $19 million overall increase, 
which breaks down to $86.4 million for the CFATS program and $17 
million for the AN program. The fiscal year 2009 enacted funding level 
was $78 million, which amounted to $73 million for CFATS and $5 million 
for AN.\2\
---------------------------------------------------------------------------
    \2\ The fiscal year 2009 to fiscal year 2010 funding also included 
adjustments-to-base for pay inflation and annualization of new 
positions received in fiscal year 2009 of $6.4 million.
---------------------------------------------------------------------------
    In 2007, the Department of Homeland Security (DHS) published the 
Chemical Facility Anti-Terrorism Standards (CFATS) interim final rule 
and also Appendix A to CFATS, defining approximately 300 ``Chemicals of 
Interest'' and associated threshold quantities. Pursuant to CFATS, 
facilities possessing at least threshold amounts of Appendix A 
chemicals were required to complete a Top-Screen assessment within 60 
days of the release of Appendix A (i.e., by January 22, 2008) or, if 
the facility acquires an Appendix A chemical subsequent to the release 
of Appendix A, within 60 days of the facility's acquisition of that 
chemical. Facilities preliminarily designated high-risk based on the 
Top-Screen submission are required to complete a Security Vulnerability 
Assessment (SVA) and, if that high-risk status is confirmed by the SVA, 
are then required to develop a Site Security Plan (SSP) and implement 
measures meeting CFATS-defined risk-based performance standards (RBPS).
    To assist facilities in performing these obligations, the 
Department developed an on-line suite of tools known as the Chemical 
Security Assessment Tool (CSAT). CSAT includes, among other 
applications, the Top-Screen, SVA, and SSP tools; an RBPS Guidance 
Document that facilities may consider when developing their SSPs; and a 
Help Desk to answer questions regarding CFATS. Additionally, upon 
request, the Department performs technical consultations and technical 
assistance visits for facilities having questions regarding the 
compliance process. To date, more than 36,400 chemical facilities have 
submitted Top-Screens, and more than 7,000 facilities were 
preliminarily designated high-risk and required to submit an SVA. CFATS 
currently covers approximately 6,400 facilities, including facilities 
both preliminarily and finally designated as high-risk.
    In May, following review of their SVAs, the Department began to 
issue final determination letters to the highest-risk (Tier 1) 
facilities, which confirm their high-risk status and begin their time 
frame (120 days) for submitting an SSP. Following preliminary approval 
of the SSPs, the Department expects to begin performing inspections in 
the first quarter of fiscal year 2010, starting with the designated 
Tier 1 facilities.
    Question 4. The Department is the subject of a lawsuit and an 
Inspector General investigation over its handling of the site selection 
process for the National Bio- and Agrodefense Facility, or NBAF. The 
NBAF is meant to replace the research facility on Plum Island, New 
York. Why does the President's fiscal year 2010 budget request indicate 
that the Department is already taking action to sell Plum Island when 
these investigations into serious mishandling are just getting 
underway?
    Answer. Due to the aging infrastructure at the Plum Island Animal 
Disease Center (PIADC) and the need to find a cure for FMD and other 
foreign animal diseases, DHS does not want to delay construction of 
this high containment laboratory, which will provide the country with 
biosafety level 3 and 4 facilities for large animal research. As for 
the merits of DHS's site selection process, the selection of the 
Manhattan, Kansas site concluded a rigorous 3-year, multi-agency 
planning process to identify the preferred site upon which to construct 
and operate the NBAF. The process involved a qualitative analysis of 
the strengths and weaknesses of each site alternative and included 
information from the risk assessment, environmental assessment, and 
security assessment on proposed NBAF operations. A Steering Committee, 
comprised of Federal Employees from DHS and USDA, was convened to lead 
the evaluation process and unanimously recommended the site in 
Manhattan, Kansas as its preferred site alternative. DHS leadership 
concurred with the Federal employee Steering Committee's 
recommendation. As directed by Congress in the fiscal year 2009 
Department of Homeland Security Appropriations Act, the Department is 
working with the General Services Administration (GSA) to sell Plum 
Island and use the funds from the sale of Plum Island to fund the NBAF 
construction project.
    Question 5. The Office of Civil Rights and Civil Liberties at DHS 
objected to some of the language contained in the report, ``Rightwing 
Extremism: Current Economic and Political Climate Fueling Resurgence in 
Radicalization and Recruitment'' and that this disagreement was not 
resolved prior to its release. Could you elaborate on what specific 
objections that office had to the report? Who in I&A authorized the 
report's dissemination? How involved was the FBI in the report and why 
did the FBI not agree to sign off on the final product?
    Answer. This risk assessment was intended to provide situational 
awareness of criminal and violent extremist groups. Work on this 
assessment began last year and was drafted by analysts in the Office of 
Intelligence and Analysis. As I previously mentioned, it was a poorly 
written report and was released despite nonoccurrence by the Office of 
Civil Rights and Civil Liberties (CRCL). There was a breakdown in the 
process, which the Department has since addressed. The assessment has 
been removed from all DHS intelligence-related Web sites and is not 
being distributed by the agency. The documents that were used to draft 
the report have been provided to the Senate Homeland Security Committee 
as well as the Senate Select Committee on Intelligence. These documents 
include finished intelligence products from other intelligence 
agencies, original research, and references to information obtained by 
organizations that study violent domestic groups. I encourage you to 
review those documents.
    Regarding the role of the Federal Bureau of Investigation (FBI), 
FBI analysts coordinated on some analytic judgments with I&A analysts 
who were drafting the risk assessment, however, it was not a joint 
product and DHS is solely responsible for its content.

                                 <all>

</pre></body></html>
